APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Sixth Circuit, Owens v. Parris,
No. 17-5488 (July 30, 2019) ........................ App-1
Appendix B
Opinion, United States District Court for
the Eastern District of Tennessee, Lonnie
Owens v. Steward, No. 4:14-cv-18-HSMSKL (Mar. 29, 2017) .................................. App-11
Appendix C
Opinion, Court of Criminal Appeals of
Tennessee, at Nashville, Owens v. State,
No. M2011-02188-CCA-R3PC (Apr. 4,
2013)........................................................... App-71
Appendix D
Opinion, Court of Criminal Appeals of
Tennessee, at Nashville, State v. Owens,
No. M2005-00362-CCA-R3-CD
(Oct. 18, 2005) .......................................... App-124
Appendix E
Excerpt
of
Sentencing
Hearing
Transcript, Circuit Court of Franklin
County, in the Twelfth Judicial District of
Tennessee, State v. Owens, No. 15356
(Feb. 1, 2005) ........................................... App-142

ii
Appendix F
Relevant
Tennessee
Statutes
(effective 2003) ........................................ App-144
Tenn. Code Ann. § 39-13-202 .................. App-144
Tenn. Code Ann. § 39-13-210 .................. App-145
Tenn Code Ann. § 40-35-114 ................... App-145
Tenn Code Ann. § 40-35-210 ................... App-148

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________
No. 17-5488
________________
LONNIE LEE OWENS,
v.

Petitioner-Appellee,

MIKE PARRIS, Warden,
Respondent-Appellant.
________________
Appeal from the United States District Court
for the Eastern District of Tennessee at Winchester.
No. 4:14-cv-00018, Harry S. Mattice, Jr.,
District Judge.
________________
Dated: July 30, 2019
________________
OPINION
KETHLEDGE, Circuit Judge.
Lonnie Lee Owens covered his estranged wife’s
nose and mouth with duct tape, hogtied her arms and
legs behind her back, and left her alone in a shed to
die. A Tennessee jury convicted Owens of seconddegree murder. The trial judge increased Owens’s
sentence based in part on the judge’s finding that a
sentencing enhancement was warranted for
“exceptional cruelty.” Owens now seeks federal habeas
relief, arguing that the Sixth Amendment required the

App-2
jury, rather than the judge, to make that finding. The
district court agreed and granted the writ. We hold
that the state court’s error was harmless, and reverse.
I.
Owens and his wife Heather separated in
September 2002 and agreed to share custody of their
two young children. Soon thereafter, Owens screamed
at Heather that, if she took their children away from
him, he would kill her. Owens also told one of his
friends that he had made the same threat.
On May 17, 2003, Owens was at his house with
the children while Heather was at work. Late that
morning, Owens called Heather to ask when she
would pick up the children, telling her that he had
plans that evening. According to Owens, Heather
hung up on him without saying when she planned to
come over. Owens then called his girlfriend, Kara, and
said that he was not sure when Heather would come
to get the kids. Kara agreed not to go over to his house
to avoid running into Heather. Around 3:00 p.m.,
Heather left work and drove her truck to Owens’s
house, where the children were napping and Owens
was doing laundry. Owens says he was startled when
a person appeared behind him and said “F-you.” He
swung at the person with all his strength. Only after
he struck the person in the head, Owens claims, did he
realize it was Heather.
Owens says he checked for Heather’s pulse and
thought she was dead. He bound her arms and legs
with duct tape, hogtying her limbs together behind her
back—all, according to Owens, to make it easier to
move her dead body. He also wrapped tape around the
bottom half of her head, covering her nose and

App-3
mouth—because, according to Owens, her face was
turning gray and he did not want to look at her. Then
he dragged Heather to a shed behind his house and
left her inside.
Around 4:00 p.m., Owens drove Heather’s truck to
a nearby parking lot, abandoned it with her keys
inside, and ran back to his house. (His movements
were filmed by a video camera across the street from
the parking lot.) Owens then made a series of phone
calls. First, Owens called Kara to ask her to come over.
Then he called a friend to say that Owens and Kara
planned to attend the friend’s party that evening.
Finally, he called Heather’s cell phone and left a
voicemail, asking her whether she planned to pick up
the kids and saying “I love you” and “[t]ake care.”
Soon thereafter, Kara arrived at Owens’s house.
According to Kara, Owens was “pacing back and
forth,” “sweating,” and “seemed to be nervous and
upset.” He told her that some of his friends had stolen
Heather’s truck as a joke, and he convinced Kara to
help him to move the truck to another town. Then he
and Kara went to the party. After they returned home,
Owens asked Kara to watch the children while he
went fishing. Instead, however, Owens drove
Heather’s body to a nearby lake and buried her in a
shallow grave on an island, where the police found
Heather’s body more than two weeks later.
A Tennessee jury thereafter convicted Owens of
second-degree murder. At the time of his sentencing,
Tennessee law prescribed sentencing ranges based on
the category of the offense and the defendant’s prior
convictions. See Tenn. Code Ann. § 40-35-112 (2004).
Within these ranges, the law further prescribed

App-4
presumptive sentences from which the sentencing
judge could depart only if the judge found certain
aggravating or mitigating factors. See id. § 40-35210(c) (2005).
Owens faced a minimum sentence of 15 years and
a maximum of 25 years for his second-degree murder
conviction. See id. §§ 39-13-210(c)(1), 40-35-112(a)(1)
(2005). His presumptive sentence within that range
was 20 years. See id. § 40-35-210(c) (2005). Over
Owens’s objection, the sentencing judge found that
two enhancements applied, including one for
“exceptional cruelty.” See id. § 40-35-114(5) (2005).
Those enhancements allowed the trial judge to
increase Owens’s sentence to 25 years. The Tennessee
Court of Criminal Appeals thereafter affirmed the
application of the exceptional-cruelty enhancement,
but reversed the application of the other
enhancement. See State v. Owens, No. M2005-00362CCA-R3-CD, 2005 WL 2653973, at *8 (Tenn. Crim.
App. Oct. 18, 2005). The court thus reduced Owens’s
sentence to 24 years.
Owens thereafter sought federal habeas relief,
arguing among other things that his sentence was
increased, in violation of the Sixth Amendment, based
on facts found by the judge rather than the jury. The
district court granted the writ. This appeal followed.
II.
We review the district court’s decision de novo.
See Mendoza v. Berghuis, 544 F.3d 650, 652 (6th Cir.
2008). The Tennessee Court of Criminal Appeals
adjudicated Owens’s Sixth Amendment claim on the
merits, which means Owens must show that the court
reached a decision that was “contrary to, or involved

App-5
an unreasonable application of” clearly established
Supreme Court precedent. See 28 U.S.C. § 2254(d)(1).
A.
In the district court, the State did not even
dispute that the state court had unreasonably applied
Supreme Court precedent when the court rejected
Owens’s Sixth Amendment claim. Owens therefore
says the State has forfeited its argument here that the
state court’s decision was not “unreasonable” as that
term is used in § 2254(d)(1). Yet the district court
decided that issue on the merits, which means the
State can challenge that holding now. See United
States v. Clariot, 655 F.3d 550, 556 (6th Cir. 2011).
So we turn to question whether the Tennessee
Court of Criminal Appeals unreasonably applied
Supreme Court precedent when it rejected Owens’s
Sixth Amendment claim. Two precedents are
especially important here. The first is Apprendi v. New
Jersey, 530 U.S. 466, 490 (2000), where the Court held
that, “[o]ther than the fact of a prior conviction, any
fact that increases the penalty for a crime beyond the
prescribed statutory maximum must be submitted to
a jury, and proved beyond a reasonable doubt.” The
second is Blakely v. Washington, 542 U.S. 296, 303
(2004), where the Court made clear that “the
‘statutory maximum’ for Apprendi purposes is the
maximum sentence a judge may impose solely on the
basis of the facts reflected in the jury verdict or
admitted by the defendant.” (Emphasis in original.)
Yet the Tennessee court regarded the statutory
maximum for purposes of Owens’s sentencing as the
generic 25-year maximum for second-degree murder,
rather than the 20-year maximum that the judge

App-6
could impose based solely on the facts reflected in the
verdict or admitted in Owens’s case. See Owens, 2005
WL 2653973, at *6 (citing State v. Gomez, 163 S.W.3d
632, 661 (Tenn. 2005)). That decision was inconsistent
with Blakely’s plain terms. Accord Portalatin v.
Graham, 624 F.3d 69, 83-84 (2nd Cir. 2010); Butler v.
Curry, 528 F.3d 624, 636 (9th Cir. 2008).
Yet the state argues that the issue was not so
clear-cut in Owens’s case, because the judge’s finding
of “exceptional cruelty” merely permitted, rather than
mandated, a sentence above 20 years. But in Blakely
the sentencing judge had the same discretion not to
impose a higher sentencing based on the judge’s own
factfinding. And in Blakely the Supreme Court
specifically instructed that, “[w]hether the judicially
determined facts require a sentence enhancement or
merely allow it,” a sentence violates the Sixth
Amendment when “the verdict alone does not
authorize the sentence.” Blakely, 542 U.S. at 305 n.8
(emphasis in original). The Supreme Court could
hardly have been clearer; and here the verdict alone
did not authorize Owens’s sentence. The Tennessee
court’s application (or refusal to apply) Blakely was
therefore unreasonable.
B.
But Owens is entitled to habeas relief only if the
state court’s error was not harmless. See Washington
v. Recuenco, 548 U.S. 212, 221-22 (2006). On habeas
review, an error is harmful only if it had a “substantial
and injurious effect” upon Owens’s sentence, or if we
have “grave doubt” as to whether the error had such
an effect. See O’Neal v. McAninch, 513 U.S. 432, 435
(1995).

App-7
Owens states that, as to harmlessness, “[t]he only
question is whether the jury would have found that
Owens acted with exceptional cruelty if that question
had been submitted to it.” Br. at 36. We agree with
that statement of the relevant question here. In
Washington v. Recuenco, the Court observed that
“[a]ny possible distinction between an ‘element’ of a
felony offense and a ‘sentencing factor’ was unknown
to the practice of criminal indictment, trial by jury,
and judgment by court as it existed during the years
surrounding our Nation’s founding.” 548 U.S. at 220
(quoting Apprendi, 530 U.S. at 478). Thus, the Court
held, “elements and sentencing factors must be
treated the same for Sixth Amendment purposes.” Id.
In Recuenco, that equality of treatment meant that
“[f]ailure to submit a sentencing factor to the jury, like
failure to submit an element to the jury, is not
structural error.” Id. at 222. Here, that equality means
that, for either “failure,” we ask the same question to
determine harmlessness: namely, “whether the jury
would have returned the same verdict absent the
error[.]” Id. at 221; accord Butler, 528 F.3d at 648.
That question is the dispositive one, we hold, even
though in two other cases we asked whether the
sentencing judge would have imposed the same
sentence absent the Blakely error. But in the first of
those cases, we simply rejected on its terms the
Warden’s argument that the sentencing judge would
have “undoubtedly impose[d] the same sentence on
remand.” Villagarcia v. Warden, 599 F.3d 529, 537
(6th Cir. 2010). We notably did not address the
antecedent question whether the Warden had asked
the right question in the first place. And in the second
case our discussion of what the sentencing judge

App-8
might have done on remand was plainly dictum—
because the “State did not argue harmless error before
the district court and did not argue it in [its] briefing
[on] appeal[,]” and thus had “waived” the issue. Lovins
v. Parker, 712 F.3d 283, 303-04 (6th Cir. 2013).
Moreover, the question whether the court would have
imposed the same sentence on remand is itself
incoherent in cases where—as here—the court’s
factfinding liberated the court to impose the sentence
that the court in fact imposed, rather than mandated
that sentence. What is missing in all these cases—as
to elements and sentencing factors alike—is a jury
finding, not a judicial one. Hence the question as to
harmlessness is whether the jury would have made
the necessary finding had the jury been asked to make
it.
Under Tennessee law at the time of Owens’s trial,
the sentencing factor at issue—namely, an
enhancement for “exceptional cruelty”—required a
finding that the defendant inflicted “pain or suffering
for its own sake or from the gratification derived
therefrom,” and not simply “pain and suffering
inflicted as the means of accomplishing the crime
charged.” Tenn. Code Ann. § 40-35-114(5); State v.
Arnett, 49 S.W.3d 250, 258 (Tenn. 2001). On this
record, whether Owens’s jury would have made that
finding depends on whether they thought Heather was
still alive when Owens duct-taped her mouth and
nose—leaving her eyes uncovered—and then dragged
her to the shed and left her there. Owens’s testimony,
as described above, was that Heather suddenly
materialized behind him, that he punched her without
realizing whom he was punching, and that she died
more or less immediately after the punch. Owens

App-9
further testified that he hogtied Heather not to
restrain her, but (inexplicably, one might say) to move
her body more easily; and that he duct-taped her
airways not to suffocate her, but to cover her face,
which distressed him because it was turning gray—a
sensitivity notably absent the remainder of that day,
as he moved Heather’s truck, left her a voicemail (as
she lay dead or dying in the shed), partied with Kara,
and buried Heather in a shallow grave, among other
activities. The State’s theory, in contrast, was more
simple: that Heather had suffocated from the duct
tape that Owens placed over her nose and mouth.
The judgment we need to make here is whether
there is any substantial likelihood that the jury
believed Owens’s testimony—in which case his actions
after the punch presumably were not cruel because
Heather was no longer alive to suffer from them. For
the moment we set to one side what seems to us the
patently fantastic nature of Owens’s testimony. What
plagues Owens’s theory from the start, rather, is that
the jury did in fact convict him of second-degree
murder. And that means the jury found that Owens
killed Heather knowingly. See Tenn. Code Ann. § 3913-210(a)(1); State v. Ducker, 27 S.W.3d 889, 896
(Tenn. 2000). Thus, for the jury to have believed
Owens’s testimony and to have convicted him
nonetheless of second-degree murder, the jury must
have thought that, when Owens punched Heather
(without knowing who she was, no less), he was
reasonably certain that the punch would kill her.
Nothing in the record or in common sense supports
that hypothesis. Moreover, the State’s medical
examiner testified that Heather’s body bore no signs
of blunt force trauma, and that her cause of death was

App-10
asphyxiation. Add in the other fantastic aspects of
Owens’s testimony, and one doubts that any sentient
juror would have believed any of it. Suffice it to say
that we are confident that the jury rejected Owens’s
account of the murder and accepted the State’s.
But that leaves the question whether the jury, if
asked, would have found that Owens acted with
exceptional cruelty. The duct-taping cannot support
that finding, because it was “the means of
accomplishing the crime charged.” Arnett, 49 S.W.3d
at 258. But other circumstances strongly support a
finding of exceptional cruelty. Owens did not simply
suffocate Heather; he left her alone in a shed,
struggling to breathe with her limbs bound behind her
back and her children nearby in the house. Those
actions amount to “psychological abuse or torture,”
which supports a finding of exceptional cruelty. See id.
Moreover, Owens’s actions after duct-taping Heather
and leaving her to die—e.g., partying with his
girlfriend and later burying Heather’s body in a
shallow grave—reflect his “calculated indifference
toward [her] suffering,” which likewise supports the
necessary finding. See State v. Reid, 91 S.W.3d 247,
311 (Tenn. 2002).
We have little doubt that, if asked, the jury would
have made the requisite finding. The Blakely error
was therefore harmless.
The district court’s judgment is reversed, and the
case is remanded with instructions to deny the
petition.

App-11
Appendix B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
________________
No. 4:14-cv-18-HSM-SKL
________________
LONNIE LEE OWENS,
v.

Petitioner,

HENRY STEWARD,
Respondent.
________________
Dated: Mar. 29, 2017
________________
MEMORANDUM & ORDER
Acting pro se, Lonnie Lee Owens, (“Petitioner”),
brings this petition for a writ of habeas corpus under
28 U.S.C. § 2254, challenging his 2005 judgment of
conviction in Franklin County, Tennessee Circuit
Court. [Doc. 1 at 1]. A jury convicted Petitioner of
second-degree murder, theft of over $10,000.00, and
abuse of corpse, and he is serving a sentence of 24
years. [Id. at 1-2]. Warden Henry Steward has filed an
answer in opposition to the petition [Doc. 9], Petitioner
has replied to the answer [Doc. 16], and this case is
now ripe for disposition.
I.

PROCEDURAL HISTORY

On December 3, 2004, Petitioner was convicted by
a jury in the Circuit Court of Franklin County,
Tennessee on charges of second-degree murder, abuse

App-12
of a corpse, and theft over $10,000.00. [Doc. 10-1 at
100-02]. On February 1, 2005, pursuant to the
Tennessee Criminal Sentencing Reform Act of 1989,
the trial court sentenced Petitioner to twenty-five
years for the murder conviction, one year for abuse of
corpse, and four years for the theft; these sentences
were ordered to be served consecutively, for a total
term of thirty years’ imprisonment. [Docs. 10-2, 10-3].
Through counsel, Petitioner filed a direct appeal,
challenging only his sentences. [See Doc. 4]. On
October 18, 2005, the Tennessee Court of Criminal
Appeals (“TCCA”) granted Petitioner’s appeal in part,
reducing his sentence for the second-degree murder
conviction to twenty-four years and reversing the trial
court’s order that the sentences be run consecutively,
rather than concurrently. [Doc. 10-7]. On March 27,
2006, the Tennessee Supreme Court denied
Petitioner’s request for permission to appeal the
decision of the TCCA. [Docs. 10-8, 10-9].
On November 3, 2006, Petitioner initiated his pro
se petition for post-conviction relief, pursuant to Tenn.
Code Ann. § 40-30-101, et seq., in the Circuit Court for
Franklin County, Tennessee, and subsequently filed
three amended petitions. [Doc. 10-10 at 14-51, 101-02,
130-51; Doc. 10-11 at 106-11]. An evidentiary hearing
was held on August 1, 2011, and the court denied the
petition on October 6, 2011. [Doc. 10-11 at 139-68; see
Docs. 10-12 through 10-14]. On April 4, 2013, the
TCCA affirmed the denial of the petition, and, on
October 16, 2013, the Tennessee Supreme Court
denied Petitioner’s request for permission to appeal.
[Docs. 10-11 at 170; Docs. 10- 28 through 10-30].

App-13
On March 4, 2014, Petitioner filed his instant
petition for writ of habeas corpus pursuant to 28
U.S.C. § 2254 in this Court. [Doc. 1]. The parties agree
that the petition was timely filed and that Petitioner
has properly exhausted all of the claims raised
therein. [Doc. 9 at 2-3; Doc. 16 at 3].
II. DISCUSSION
Pursuant to Antiterrorism and Effective Death
Penalty Act of 1996 (“AEDPA”), state prisoners may
seek federal habeas corpus relief on the ground that
they are being held in custody in violation of the
Constitution, laws, or treaties of the United States. 28
U.S.C. § 2254; Reed v. Farley, 512 U.S. 339, 347
(1994). However, Congress has mandated that federal
courts review state court adjudications on the merits
of such claims using a “highly deferential” standard of
review. See, e.g., Harrington v. Richter, 562 U.S. 86,
105 (2011). Under this deferential standard, this
Court may not grant habeas relief to a state prisoner
unless the state court’s decision on the merits of his
claims “(1) resulted in a decision that was contrary to,
or involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or (2) resulted in
a decision that was based on an unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding.” 28 U.S.C.
§ 2254(d).
“Clearly established federal law,” for the purposes
of § 2254(d)(1), refers to rulings of the United States
Supreme Court in place at the time of “the last statecourt adjudication on the merits.” Greene v. Fisher,
132 S. Ct. 38, 44 (2011); Lockyer v. Andrade, 538 U.S.

App-14
63, 71-72 (2003) (defining clearly established federal
law as “the governing legal principle or principles set
forth by the Supreme Court at the time the state court
renders its decision”). A decision is “contrary to”
clearly established federal law if “the state court
arrives at a conclusion opposite to that reached by [the
Supreme Court] on a question of law or if the state
court decides a case differently than [the Supreme
Court] on a set of materially indistinguishable facts.”
Williams v. Taylor, 529 U.S. 362, 413 (2000). A statecourt
decision
unreasonably
applies
clearly
established federal law if “the state court identifies the
correct governing legal principle from [the Supreme
Court’s] decisions but unreasonably applies that
principle to the facts of the prisoner’s case.” Id.
The standards set forth in the AEDPA are
“intentionally difficult to meet.” Woods, 135 S. Ct. at
1376 (quoting White, 134 S. Ct. at 1702); see also
Harrington, 131 S. Ct. at 786 (“If [§ 2254(d)] is difficult
to meet, that is because it was meant to be.”).
Ultimately, however, the AEDPA’s highly deferential
standard requires this Court to give the rulings of the
state courts “the benefit of the doubt.” Cullen v.
Pinholster, 563 U.S. 170, 181 (2011) (quoting
Woodford v. Visciotti, 537 U.S. 19, 24 (2002) (per
curiam)).
In his instant petition, Petitioner has raised six
grounds for relief pursuant to § 2254 which were
adjudicated on the merits in state court. In Ground 1,
he argues that the trial court improperly enhanced his
sentence based on facts not determined by a jury, in
violation of Blakely v. Washington, 542 U.S. 296
(2004), and that the resultant sentence thus violates

App-15
the Sixth Amendment to the U.S. Constitution. In
Grounds 2 through 6, he asserts the following claims
of ineffective assistance of counsel: (Ground 2) that
counsel was ineffective in failing to challenge the
sufficiency of the evidence supporting his convictions
on direct appeal; 1 (Grounds 3 & 6) that counsel
rendered ineffective assistance “when he pled the
Petitioner guilty to the offense of [voluntary
m]anslaughter, in the presence of the jury and without
the consent of the Petitioner,” precluding a jury charge
for any lesser-included offense to voluntary
manslaughter; (Ground 4) that counsel was ineffective
in failing to object to “erroneous and prejudicial”
statements in the pre-sentence report and in failing to
include the trial transcript on appeal; and (Ground 5)
that counsel was ineffective in failing to adequately
1

Although Petitioner states that he “had other non-frivilous
[sic] claims he would have raised on appeal if given the
opportunity,” sufficiency of the evidence is the only such claim
that he specifically identifies in his instant petition. [Doc. 16 at
18-23]. He cites Rodriguez v. United States, 395 U.S. 327, 330
(1969), as support for the proposition that “[i]t is not necessary or
required that the Petitioner detail exactly what issues he would
have raised on appeal.” [Id.]. Petitioner’s contention, however, is
erroneous. Unlike the petitioner in Rodriguez, Petitioner was not
deprived of an appeal entirely, nor was he actually or
constructively denied the assistance of counsel altogether on
appeal. See, e.g., Roe v. Flores-Ortega, 528 U.S. 470, 482-83
(2000); Smith v. Robbins, 528 U.S. 259, 286 (2000). Thus,
prejudice cannot be presumed, as it may be in the abovedescribed circumstances, and Petitioner instead bears the burden
of demonstrating that counsel’s errors had an adverse effect on
his defense. See Roe, 528 U.S. at 483-83. The Court cannot find
that Petitioner suffered any prejudice as a result of counsel’s
failure to raise any issue on appeal that Petitioner has not
identified.

App-16
cross-examine, impeach, or elicit favorable testimony
from the medical examiner, Dr. Charles Harlan. [Doc.
1 at 6-13; Doc. 2 at 5-31].
The Court will first address Petitioner’s claim
that his sentence is unconstitutional, and then will
consider his ineffective assistance of counsel claims in
chronological order. 2
A. Sentencing Claim
In his first claim, Petitioner contends that the
trial court improperly enhanced his sentence by
applying an enhancement factor for “extreme cruelty
to the victim,” pursuant to Tenn. Code Ann. § 40-35114, based on judicial fact-finding. [Doc. 1 at 6-8; Doc.
2 at 5-9]. Petitioner then maintains that his sentence
violated Blakely v. Washington, 542 U.S. 296 (2004),
and that the Supreme Court confirmed that a sentence
enhanced based on judicial fact-finding is unlawful in
the subsequent case of Cunningham v. California, 549
U.S. 270 (2007). [Doc. 2 at 5-9]. Thus, he opposes his
sentence as unconstitutional under clearly established
federal law. [Id.].
2

Due to the voluminous nature of the record in this case, and
the specific but varied nature of Petitioner’s claims, the Court
will not endeavor to provide a full factual background of the
underlying proceedings. The Court will instead include the
relevant facts in the discussion of each of Petitioner’s claims. The
Court notes for the record that Respondent has provided a
statement of the evidence, setting forth the facts as found by the
TCCA in Petitioner’s direct appeal and appeal of the denial of his
post-conviction petition. [Doc. 9 at 3-15]. In his reply brief,
Petitioner agrees that the statement of evidence contained in
Respondent’s brief “is accurate and properly reflects … the case
facts as summarized by the TCCA.” [Doc. 16 at 3].

App-17
In response, Respondent argues only that Blakely
errors are subject to harmless error analysis and that
the harmless error standard is satisfied in this case.
[Doc. 9 at 16-18]. Specifically, Respondent argues that
“there is no question that the jury would have found
that the petitioner treated the victim with exceptional
cruelty during the commission of the offense” based on
the facts presented at trial: that he struck the victim,
bound her hands and feet, covered her mouth and nose
with duct tape, all while the victim’s children were in
the house; that she “tried desperately to continue
breathing but eventually suffocated to death”; and
that he took her body to an island and buried it in a
shallow grave. [Id. at 18].
In Reply, Petitioner asserts that there is no
question that the application of the enhancement
factor in question violated Blakely, as the sentencing
scheme under which he was enhanced “was
subsequently
rendered
unconstitutional”
by
Cunningham. [Doc. 16 at 9, 16]. He notes that
Respondent did not argue that no Blakely error
occurred and maintains that he has therefore
conceded that such a violation occurred. [Id. at 4, 6,
16]. He maintains that the harmless error analysis
used by the Respondent does not apply in this case and
that the Court must instead conduct an evidentiary
hearing to assess whether the Blakely violation had a
substantial and injurious effect. [Id. at 4-18].
1.

Blakely Violation

The United States Supreme Court precedent
relevant to the consideration of a claimed Blakely
error begins in 2000 with Apprendi v. New Jersey, 530
U.S. 466 (2000). In Apprendi, the Supreme Court held

App-18
that “[o]ther than the fact of a prior conviction, any
fact that increases the penalty for a crime beyond the
prescribed statutory maximum must be submitted to
a jury, and proved beyond a reasonable doubt”;
otherwise, the sentence in question may run afoul of
the Sixth Amendment right to trial by jury. Id. at 490500.
Then, in 2004, the Supreme Court issued its
decision in Blakely v. Washington, 542 U.S. 296
(2004), which “clarified that the definition of ‘statutory
maximum’ for Apprendi purposes is not the high-end
that a sentence may not exceed, but rather the
maximum sentence a judge may impose solely on the
basis of the facts reflected in the jury verdict or
admitted by the defendant.” Lovins v. Parker, 712 F.3d
283, 289 (6th Cir. 2013) (quoting Blakely, 542 U.S. at
303). In other words,
[T]he relevant “statutory maximum” is not
the maximum sentence a judge may impose
after finding additional facts, but the
maximum he may impose without any
additional findings. When a judge inflicts
punishment that the jury’s verdict alone does
not allow, the jury has not found all the facts
which the law makes essential to the
punishment, … and the judge exceeds his
proper authority.
Blakely, 542 U.S. at 303-04 (internal citation and
quotation marks omitted).
On January 12, 2005, the Supreme Court decided
United States v. Booker, 543 U.S. 220, 243-44 (2005),
which applied Apprendi and Blakely to the United
States
Sentencing
Guidelines,
declaring
as

App-19
unconstitutional the provision that made the
Guidelines mandatory, and reaffirmed that “[a]ny fact
(other than a prior conviction) which is necessary to
support a sentence exceeding the maximum
authorized by the facts established by a plea of guilty
or a jury verdict must be admitted by the defendant or
proved to a jury beyond a reasonable doubt.”
It was against this legal landscape that Petitioner
was sentenced, on February 1, 2005, for his state
convictions for second-degree murder, abuse of corpse,
and theft. Petitioner was classified as a Range I
offender under Tennessee law, which subjected him to
a minimum sentence of fifteen years and a maximum
sentence of twenty-five years for the offense of seconddegree murder; however, the presumptive sentence
without the application of any enhancing or mitigating
factors was twenty years. [Doc. 10-24 at 80; see also
Doc. 10-7 at 6]. The court found one mitigating
factor—that Petitioner did not have a prior criminal
history. [Doc. 10-24 at 80]. However, the court also
found two enhancement factors: that Petitioner
treated the victim with “exceptional cruelty” during
the commission of the offense, and that the personal
injuries inflicted upon the victim were particularly
great, noting
I think we have an individual that based on
the proof that was presented in the trial—at
the trial was duct taped while alive, and was
allowed to suffocate and die, and I think that,
in fact, fits the statutory definition of both

App-20
inflicting personal—personal injuries and
exceptional cruelty[.]”
[Id. at 80-81]. The court concluded that there was “no
comparison” of the enhancement and mitigating
factors and sentenced Petitioner to a term of twentyfive years’ imprisonment. [Id. at 81].
On April 15, 2005, shortly after Petitioner’s
sentencing, the Tennessee Supreme Court considered
the applicability of Blakely to Tennessee’s Criminal
Sentencing Reform Act of 1989, Tenn. Code Ann. § 4035-210, et seq. (2003). State v. Gomez, 163 S.W.3d 632
(Tenn. 2005) (“Gomez I”). The Tennessee Supreme
Court noted that Blakely “[a]dmittedly … includes
language which c[ould] be broadly construed to
require” a finding that defendants’ sentences were
unconstitutional based on application of enhancement
factors and imposition of maximum sentences
predicated solely on judicial fact-finding. Id. at 649,
658. However, in light of Booker, it ultimately rejected
a broad reading of Blakely, concluding that the
relevant inquiry remained whether the Reform Act
mandated the imposition of a sentence in excess of the
presumptive sentence when a judge found an
enhancement factor. Id. at 661 (“Booker explains that
the mandatory increase of a sentence is the crucial
issue which courts must consider in determining
whether a particular sentencing scheme violates the
Sixth Amendment.”). Noting that the finding of an
enhancement factor under the Reform Act did not
mandate an increased sentence, the Tennessee
Supreme Court ultimately concluded that Tennessee’s
sentencing scheme was not unconstitutional. Id.

App-21
Petitioner’s direct appeal was decided by the
TCCA on October 18, 2005. The court reversed the
sentencing court’s decision to run the sentences
consecutively and to apply the personal injuries
enhancement factor; accordingly, it lowered
Petitioner’s sentence to a term of twenty-four years. 3
[Doc. 10-7 at 6, 8-9]. However, the Court found no
error with respect to the exceptional cruelty
enhancement:
Although we do not have any medical
testimony about the victim’s death in the
record before us, 4 the trial court did make a
finding for the record during the sentencing
hearing that “this was a death by
strangulation where the lady was duct
taped.” The Defendant admitted that he
assaulted the victim in his house while their
children were close by. The presentence
report admitted into evidence at the
sentencing hearing without objection sets
forth in part that the Defendant
used duct tape to tape the victim’s
legs together and her hands behind
her back. He then taped her face
from the chin to just under her eyes
covering her mouth and nose…. Dr.
Charles Harlan noted in the autopsy
report that … [h]e … found traces of
3

State v. Owens, 2005 WL 2653973 (Tenn. Ct. App. Oct. 18,
2005).
4 It is undisputed that trial counsel did not submit a copy of the

transcript from Petitioner’s trial on direct appeal.

App-22
duct tape in the victim’s lung. Dr.
Harlan concluded that the victim’s
death was caused by suffocation as a
result of having her mouth and nose
covered with duct tape.
The Defendant does not contest these facts
but contends that the method by which he
killed the victim did not involve abuse or
torture and that this enhancement factor is
therefore inapplicable.
The use of exceptional cruelty in the killing of
the victim is not an element of second-degree
murder
and
may
therefore,
where
appropriate,
be
considered
as
an
enhancement factor. See State v. Gray, 960
S.W.2d 598, 611 (Tenn. Crim. App. 1997). The
proper application of this factor in a murder
case requires evidence that denotes the
infliction of pain or suffering for its own sake
or from the gratification derived therefrom,
and not merely the pain or suffering inflicted
as the means of accomplishing the murder.
See [State v. Arnett, 49 S.W.3d 250, 258
(Tenn. 2001)]. Our supreme court has
recognized that this enhancement factor may
be applicable where there is proof of extensive
psychological abuse or torture. See id. at 259.
For example, the application of this
enhancement factor to an especially
aggravated robbery conviction has been
upheld where the defendant executed two
persons by gunshots after having forced them
onto the floor of a walk-in cooler. See State v.

App-23
Reid, 91 S.W.3d 247, app. 311 (Tenn. 2002)
(finding that the defendant committed the
especially
aggravated
robbery
with
exceptional cruelty because “[t]he anguish
experienced by the victims at this point [in
the cooler] while they awaited their execution
is unfathomable”). In upholding the
application of this enhancement factor in the
Reid case, this Court also noted the
defendant’s “calculated indifference toward
suffering.” Id.
We think the facts support the application of
this enhancement factor to the means by
which the Defendant killed his estranged
wife. The record before us indicates that the
Defendant bound the victim’s hands and feet
and then covered her mouth and nose with
duct tape. The Defendant committed these
actions while the victim was in his house and
while her children were mere feet away. [The
Defendant testified during the sentencing
hearing that the children were 30 to 40 feet
away when he killed the victim]. The autopsy
of the victim revealed traces of duct tape in
one of the victim’s lungs: indicating how
desperately she tried to continue breathing.
After the victim was dead, the Defendant took
her body to an island in Tims Ford Lake and
buried it in a shallow grave. He then returned
to his house and had sex with his girlfriend.
These facts indicate that this Defendant
treated the victim with a calculated
indifference to her suffering and that he
achieved some form of gratification from

App-24
murdering his wife. These facts also establish
that the victim tried desperately to continue
breathing but eventually suffocated to death.
We have no trouble concluding that the
victim’s suffering while she struggled to live
was “unfathomable” and was the direct result
of the method used by the Defendant to
accomplish the killing.
As noted by Judge Scott, “If strangulation,
with the victim vigorously fighting for
another breath, is not exceptional cruelty, I
don’t know what is.” State v. Bobby Lee
Knight, No. 87-234-III, 1989 WL 24436, at *4
(Tenn. Crim. App., at Nashville, Mar. 21,
1989) (Scott, J., dissenting). The Defendant’s
assertion that the trial court erred in
applying this enhancement factor to his
conviction for second-degree murder is
without merit.
The Defendant also argues that the trial
court erred in applying enhancement factors
to his sentence on the basis of the United
States Supreme Court’s decision in [Blakely].
The Blakely decision holds that the Sixth
Amendment to the federal Constitution
permits a defendant’s sentence to be
increased only if the enhancement factors
relied upon by the judge are based on facts
reflected in the jury verdict or admitted by
the defendant. See id., 124 S. Ct. at 2537. The
only basis upon which enhancement is
otherwise permitted is the defendant’s
previous criminal history: where the

App-25
defendant has prior convictions, the trial
court may enhance the defendant’s sentence
without an admission or jury finding. See
[Apprendi]; Blakely at 2536. Subsequent to
the Defendant’s appeal of this case, the
Tennessee Supreme Court considered the
impact of Blakely on Tennessee’s sentencing
scheme and concluded that the Criminal
Sentencing Reform Act of 1989, pursuant to
which the Defendant was sentenced, does not
violate a defendant’s Sixth Amendment
rights. See State v. Gomez, 163 S.W.3d 632,
661
(Tenn.
2005).
Accordingly,
the
Defendant’s argument on this basis has no
merit.
[Doc. 10-7 at 5-10]. On March 27, 2006, the Tennessee
Supreme Court denied Petitioner’s application for
review of his direct appeal. [Doc. 10-9; see Doc. 10-8].
Then, on January 22, 2007, the Supreme Court
issued its opinion in Cunningham v. California, 549
U.S. 270 (2007), invalidating California’s determinate
sentencing law—a law virtually identical to
Tennessee’s Reform Act—in light of Blakely. In
analyzing the law under Apprendi, Blakely, and
Booker, the California Supreme Court concluded that,
in “operation and effect,” California’s sentencing
system “simply authorize[s] a sentencing court to
engage in the type of factfinding that traditionally has
been incident to the judge’s selection of an appropriate
sentence within a statutorily prescribed sentencing
range.” Id. at 289 (discussing People v. Black, 113 P.3d
534 (Cal. 2005)). Similarly to the Tennessee Supreme
Court in Gomez I, the California Supreme Court held

App-26
that, because the sentencing judge retained “ample
discretion” with respect to sentencing, California’s
determinate sentencing law did not “diminish the
traditional power of the jury,” and as such, did not
implicate any Sixth Amendment concerns. Id. at 28990 (quoting Black, 113 P.3d at 544).
The Supreme Court, however, disagreed, stating,
“[o]ur decisions … leave no room for such an
examination.” Id. at 291. The Court noted
We cautioned in Blakely that broad discretion
to decide what facts may support an
enhanced sentence, or to determine whether
an enhanced sentence is warranted in any
particular case, does not shield a sentencing
system from the force of our decisions. If the
jury’s verdict alone does not authorize the
sentence, if, instead, the judge must find an
additional fact to impose the longer term, the
Sixth Amendment requirement is not
satisfied.
Id. at 290-91. It further rejected any comparison of
California’s sentencing law to the advisory federal
system in Booker, noting that any discretion afforded
to California’s judge to deviate from the presumptive
mid-range sentence was born from judicial factfinding of aggravating factors, rather than from any
discretion inherent in the sentencing statute itself. Id.
at 292-93. The Court concluded that its “decisions
from Apprendi to Booker point to the middle term
specified by California’s statutes, not the upper term,
as the relevant statutory maximum,” and that,
because the sentencing law in question “authorize[d]
the judge, not the jury, to find the facts permitting an

App-27
upper term sentence, the system cannot withstand
measurement against our Sixth Amendment
precedent.” Id. at 293.
On February 20, 2007, the Supreme Court
vacated Gomez I, and remanded to the Tennessee
Supreme Court for consideration in light of
Cunningham. Gomez v. Tennessee, 549 U.S. 1190
(2007). On remand, the Tennessee Supreme Court
held that the Reform Act “violated the Sixth
Amendment as interpreted by the Supreme Court in
Apprendi, Blakely, and Cunningham.” State v. Gomez,
239 S.W.3d 733, 740 (Tenn. 2007) (“Gomez II”).
There is thus no question that, if Petitioner were
sentenced today, the enhanced sentence that he
received for his second-degree murder conviction
would violate Blakely. On review of a § 2254 petition,
the Court is not, however, tasked with determining
whether a movant’s conviction or sentence is
unconstitutional based on the current state of the law;
rather, it must determine whether state court’s
decision of the claim resulted in a decision that was
contrary to or involved an objectively unreasonable
application of clearly established federal law at the
time the state court rendered its decision.
Even under this exacting standard, and giving the
state court the benefit of the doubt—as this Court is
required to do under § 2254(d)’s deferential
standard—the Court finds that the state court’s
conclusion that Petitioner’s sentence did not violate
Blakely was contrary to clearly established federal
law. In denying Petitioner’s Blakely claim, the state
court relied upon Gomez I’s holding that the Reform
Act was not unconstitutional under Blakely; Gomez I

App-28
concluded that, in light of Booker, the Reform Act
could not offend the Sixth Amendment because it did
not require the sentencing judge to increase a sentence
upon finding an enhancement factor. This analysis,
however, essentially ignored the primary holding of
Blakely:
[T]he relevant ‘statutory maximum’ is not the
maximum sentence a judge may impose after
finding additional facts, but the maximum he
may impose without any additional findings.
When a judge inflicts punishment that the
jury’s verdict alone does not allow, the jury
has not found all the facts which the law
makes essential to the punishment, … and
the judge exceeds his proper authority.
Blakely, 542 U.S. at 303-04 (internal citation and
quotation marks omitted). Indeed, it also ignored the
fact that, in Booker, the Supreme Court expressly
“reaffirm[ed] [its] holding in Apprendi: Any fact (other
than a prior conviction) which is necessary to support
a sentence exceeding the maximum authorized by the
facts established by a plea of guilty or a jury verdict
must be admitted by the defendant or proved to a jury
beyond a reasonable doubt.” Booker, 543 U.S. at 244.
Thus, at the time that the state court reviewed
Petitioner’s Blakely claim, it was a matter of clearly
established federal law that the Sixth Amendment
right to trial by jury is violated when a judge imposes
a sentence in excess of the relevant statutory
maximum based on additional findings of fact that
were not admitted by the defendant or proved to the
jury beyond a reasonable doubt. Nonetheless,
Tennessee’s courts concluded that the Reform Act did

App-29
not conflict with the Sixth Amendment, despite the
fact that sentencing judges were permitted to enhance
the presumptive midrange—the relevant statutory
maximum, as defined by Apprendi and Blakely—
based on independent judicial findings of fact.
Such a result was contrary to the governing legal
principles set forth in Apprendi, Blakely, and Booker.
Indeed, the Supreme Court said as much in
Cunningham, expressly stating that its Apprendi
jurisprudence “leave[s] no room” for the interpretation
adopted by the Tennessee Supreme Court in Gomez I.
Had the state court applied the correct governing
principles of Apprendi, Blakely, and Booker, it would
have had no choice but to conclude that a Blakely error
occurred when Petitioner’s sentence was enhanced
beyond the twenty-year presumptive sentence based
on the sentencing judge’s findings that Petitioner
treated his victim with exceptional cruelty.
2.

Harmless Error

Notably, Respondent does not contest these
conclusions. He does not argue that the state court’s
interpretation of Apprendi, Blakely, and Booker was
not contrary to clearly established federal law, and he
does not argue that no Blakely violation occurred.
Apparently conceding the state court’s constitutional
error, Respondent argues only that the sentencing
judge’s application of the exceptional cruelty
enhancement in this case was “harmless error”:
In this case, it is clear that the jury would
have found that the petitioner treated the
victim with exceptional cruelty during the
commission of the offense. The petitioner
struck the victim, then bound her hands and

App-30
feet and covered her mouth and nose with
duct tape. The petitioner committed these
actions while the victim was in his house and
while her children were mere feet away. After
the victim was dead, the petitioner took her
body to an island in Tim’s Ford Lake and
buried it in a shallow grave. The facts
established that the petitioner treated the
victim with a calculated indifference to her
suffering. The facts also established that the
victim tried desperately to continue
breathing but eventually suffocated to death.
The Tennessee Court of Criminal Appeals
[]had no trouble concluding that the victim’s
suffering while she struggled to live was
unfathomable and was the direct result of the
method used by the Defendant to accomplish
the killing. Owens, 2005 WL 2653973 at *6.
There is no question that the jury would have
found that the petitioner treated the victim
with exceptional cruelty during the
commission of the offense.
[Doc. 9 at 18].
Respondent is correct that Blakely errors are
subject to a constitutional harmless error analysis.
See, e.g., Lovins, 712 F.3d at 303 (“In determining the
proper remedy for a Blakely error, we ordinarily
consider whether the error was harmless.”);
Villagarcia v. Warden, Noble Corr. Inst., 599 F.3d 529,
536 (6th Cir. 2010) (“Failure to submit a sentencing
factor to the jury, like failure to submit an element to
the jury, is not structural error, and accordingly, such
error is subject to harmless error analysis.”) (internal

App-31
quotation marks omitted); Washington v. Recuenco,
548 U.S. 212 (2006); c.f. Gilliam v. Mitchell, 179 F.3d
990, 995 (6th Cir. 1999) (noting that the constitutional
harmless error standard applies even “when the
federal district court is the first court to review for
harmless error.”). In cases involving collateral review
of state court decisions, an error is harmless “unless it
had substantial and injurious effect or influence” on
the outcome in question. Villagarcia, 599 F.3d at 536.
Stated another way, an error is not considered
harmless “when the matter is so evenly balanced that
the habeas court has grave doubt as to the
harmlessness of the error.” Lovins, 712 F.3d at 303
(quoting Villagarcia, 599 F.3d at 537); see also United
States v. Hazelwood, 398 F.3d 792, 801 (6th Cir. 2005)
(“Under the harmless error test, a remand for an error
at sentencing is required unless we are certain that
any such error was harmless”).
At the time of Petitioner’s sentencing, Tennessee
law required “a finding of acts ‘separate and apart
from the actions which constituted the offenses’” in
order to sustain an enhancement for exceptional
cruelty to the victim. See State v. Scott, 2011 WL
2420384, at *32 (Tenn. Ct. App. June 14, 2011)
(quoting State v. Poole, 945 S.W.2d 93, 99 (Tenn.
1997)). “The facts of the case must denote the infliction
of pain or suffering for its own sake or from the
gratification derived therefrom, and not merely pain
or suffering inflicted as the means of accomplishing
the crime charged.” Id. at *32 (citing State v. Arnett,
49 S.W.3d 250, 258 (Tenn. 2001)) (internal quotation
marks and alteration omitted).

App-32
The following facts from Petitioner’s trial are
relevant to the Court’s harmless error analysis. At
trial, Defendant testified in his own defense. [Doc. 1022 at 14-164]. He testified that, on the day of the
victim’s death, he had spoken with the victim—his
estranged wife—and had asked when she would be
coming by his house to pick up their children, but she
did not tell him what time she planned to arrive. [Id.
at 111-12, 116-17]. That afternoon, he was at home
doing laundry while his children napped. As he
walked to the kitchen, he heard someone yell “F-you.”
[Id. at 59-63, 120]. He then “swung as hard as [he]
could,” because he “just knew somebody was behind
[him] and they were right on top of [him].” [Id. at 6263, 121]. That swing hit the victim in the head,
causing her to hit the floor hard. [Id. at 59-63, 124].
The victim made no movement, and Defendant
believed that she was dead; after pacing for a few
minutes, he checked her arm and confirmed that she
had no pulse. [Id. at 63-65, 125-26, 130].
Defendant was expecting people to arrive at the
house “any minute,” so he tried to move the victim’s
body, but he could not secure it in his arms due to its
flailing limbs. [Id. at 65-67, 130-31]. He bound her feet
and arms with duct tape, and, noticing that her face
was turning “gray colored,” he covered her head with
duct tape as well. [Id. at 65-67]. When asked why he
proceeded to cover the victim’s face with duct tape,
Petitioner responded, “I don’t know,” and then stated
that he “didn’t want to look at her.” [Id. at 67, 69].
Petitioner was “scared” and put the body in the shed
behind his house. [Id. at 68-69]. He threw away her
shoes, purse, and cellphone, and took the victim’s
truck to the parking lot of a local store; later that day,

App-33
he called the victim’s cellphone and left a voice
message, asking about her plan to pick up the
children, and then he went with his girlfriend and
children to a party. [Id at 69-74, 133-138]. When they
returned home after 11:00 p.m. that evening,
Petitioner asked his girlfriend to watch the children
because he “wanted to go fishing[.]” [Id. at 74- 75, 142].
Because he felt that he “had to do something. Get [the
victim] away from the house,” he took the victim’s
body to an island in his boat and buried her. [Id. at 7578, 142-44].
The medical examiner, Dr. Charles Harlan,
testified regarding his autopsy of the victim’s body.
[Doc. 10-21 at 46-60]. He testified that the victim’s
wrists were duct taped behind her body and that duct
tape also bound her ankles. [Id. at 52]. Duct tape was
“wrapped in a circular fashion [all the way] around the
head covering the area of the nose and mouth and
upper portion of the chin[.]” [Id. at 53]. Based on his
autopsy, Harlan concluded, with a reasonable degree
of medical certainty, that the victim died as a result of
asphyxia due to duct tape occluding her airway. [Id. at
55-56]. There was no testimony regarding tape
particles in the victim’s lungs; rather, Harlan testified
that he reached his conclusion regarding death by
asphyxiation due to the lack of evidence supporting
any other cause of death. [Id. at 55-58]. Harlan stated
that there was no evidence of blunt force trauma, such
as hemorrhaging, fractures, bruising of the brain, or
tearing of the skin. [Id. at 56-58].
On cross-examination, Harlan confirmed that
asphyxia by duct tape was an “extremely unusual
form of death.” [Id. at 60]. He was also questioned

App-34
regarding whether the victim may have been
conscious or unconscious when the duct tape was
applied to her face:
Counsel: Now, somebody that was tied up,
death wouldn’t be immediate, they’d
struggle?
Harlan: It depends on whether they’re
conscious or not.
Counsel: You anticipate my point. You really
don’t have any opinion as to whether this
person was rendered unconscious first, isn’t
that right?
Harlan: I don’t have an opinion about
conscious or unconscious.
Counsel: Right.
Harlan: You can’t tell the
consciousness from a dead body.

state

of

Counsel: The person could have been
rendered unconscious before this happened?
Harlan: Correct. You could receive a blow
that would render you unconscious that
would be enough to cause loss of
consciousness, but not leave a mark and not
be enough to be the direct cause of death.
Counsel: Correct. And a person that was
rendered unconscious might have the
appearance of being dead?
Harlan: They might.
Counsel: And unless you were a trained
medical professional that knew how to check

App-35
for signs of life, you might think somebody
was dead?
Harlan: You might.
[Id. at 61-61]. Harlan was also questioned about
petechial
hemorrhaging—that
is,
ruptured
capillaries—in the eyes, face, lungs, and neck, and
responded that “[i]t can be seen in suffocation or
asphyxia,” and is “supportive” of a cause of death by
asphyxiation but is not “required” or “necessary” for
such a conclusion. He confirmed that he did not find
such hemorrhaging in his autopsy of this victim. [Id.
at 71-73].
The trial judge instructed the jury on first-degree
murder, second-degree murder, and voluntary
manslaughter. [Doc. 10-23 at 102-04]. First-degree
murder required the jury to find that the defendant
killed
the
victim,
intentionally,
and
with
premeditation; second-degree murder required the
victim to “knowing[ly]” kill the victim; and voluntary
manslaughter required the jury to find that the
defendant intentionally or knowingly killed the victim
as the result of “a state of passion produced by
adequate provocation sufficient to lead a reasonable
person to act in an irrational manner.” [Id. at 102-04,
107-08]. The jury unanimously found Petitioner guilty
of second-degree murder. [Id. at 125].
Thus, the Respondent is correct that the evidence
at trial showed that Petitioner struck the victim, then
bound her hands and feet and covered her mouth and
nose with duct tape, and committed these actions
while the children of Petitioner and the victim were
asleep in the same house. He is also correct that, after

App-36
the victim was dead, Petitioner took her body to an
island and buried it in a shallow grave.
However, the facts at trial did not, as Respondent
contends, clearly demonstrate that “the victim tried
desperately to continue breathing,” or that she
“suffer[ed] while she struggled to live” and breathe.
Petitioner himself testified that the victim was
immobile and appeared to be dead by the time that he
placed duct tape on her face. And, although he
testified that suffocation was the cause of death,
Harlan specifically testified that he had no medical
opinion as to whether or not the victim struggled to
breathe, or indeed, whether she was even conscious at
the time that the Petitioner duct taped her mouth and
nose. He confirmed that it was possible that the victim
could suffocate from being duct taped after being
knocked unconscious by a blow that left no mark, that
she could have appeared dead to Petitioner, and
subsequently suffocated as a result of the duct tape.
Given this limited and open-ended testimony
regarding the timing and nature of the victim’s cause
of death, it is not, as Respondent now maintains,
“clear” that the jury would unquestionably have found
that Petitioner treated the victim with “exceptional
cruelty.” The jury convicted the Petitioner only of
second-degree murder, which required them to find
that he knowingly killed the victim; it specifically
rejected a conviction for first-degree murder, thereby
also rejecting any theory of premeditation. The
evidence presented at trial, including Petitioner’s own
testimony and that of Dr. Harlan, allowed the jury to
reach the conclusion that Petitioner knowingly killed
the victim without accepting the State’s theory that

App-37
Petitioner stood idle—or worse—while the victim
suffered, struggling and gasping for breath, until
succumbing to asphyxiation. Stated another way, the
facts presented at trial are at least ambiguous as to
whether Petitioner “inflict[ed] pain or suffering for its
own sake or from the gratification derived therefrom,”
rather than merely “as the means of accomplishing the
crime charged.”
Based on this ambiguity, the Court has grave
doubt that the jury would have found beyond a
reasonable doubt that Petitioner acted with
“exceptional cruelty” in committing this murder; such
doubt results in the inevitable conclusion that the
Blakely violation in this case was not harmless error. 5
See State v. Higgins, 2007 WL 2792938, at *13 (Tenn.
Ct. App. Sept. 27, 2007) (finding that trial court’s
enhancement for exceptional cruelty to the victims
violated the defendant’s Sixth Amendment right
because “the record shows that any evidence that
would be necessary to justify application of th[is]
enhancement factor[] was not found by the jury
beyond a reasonable doubt”); see also Lovins, 712 F.3d
5 The Court notes the irony inherent in Respondent’s argument

that the jury “would have” made factual findings supporting the
exceptional cruelty enhancement. Apprendi and its progeny
demonstrate that such speculation should not be necessary if the
dictates of the Sixth Amendment have been faithfully followed,
as any facts that increase the penalty for a crime beyond the
statutory maximum must be submitted to the jury and proved by
the prosecution beyond a reasonable doubt. If the parties and the
courts are left to speculate and argue about what the jury “would
have” found, it is a clear sign that Apprendi is implicated and
that the sentence in question may infringe upon the defendant’s
Sixth Amendment rights.

App-38
at 303-04 (finding no harmless error for Blakely
violation where jury’s verdict could not possibly be
considered
to
encompass
facts
supporting
enhancements for “history of unwillingness to comply
with conditions of release” and “showed no hesitation
about committing a crime with a high risk of human
life”).
The Court is thus “constrained to conclude that
the judicial factfinding in [Petitioner’s] sentencing
was unconstitutional and that the remedy [he]
requests is due.” See Lovins, 712 F.3d at 304. The
petition for a writ of habeas corpus will be
conditionally GRANTED with respect to Petitioner’s
Blakely claim; Petitioner’s sentence will be
VACATED, and Petitioner is to be released from
incarceration, unless the State of Tennessee resentences him within ninety days.
B. Ineffective Assistance of Counsel Claims
Petitioner has also raised numerous grounds
alleging ineffective assistance of counsel. 6 Ineffective
assistance of counsel is a recognized constitutional
violation that, when adequately shown, warrants
relief under § 2254. The two-prong test set forth in
6

In his Answer, Respondent did not make specific arguments
as to Petitioner’s various grounds of ineffective assistance.
Instead, Respondent quoted the TCCA’s analysis of Petitioner’s
ineffective assistance of counsel claims—which were all denied—
and concluded that all of Petitioner’s claims should be denied
because the state court’s determination was “not contrary to or
an unreasonable application of, clearly established federal
law …. The [TCCA] correctly identified and applied the
governing Strickland standard in this case, and its determination
was supported by the record.” [Doc. 9 at 18-24].

App-39
Strickland v. Washington, 466 U.S. 668, (1984),
governs claims of ineffective assistance of counsel
raised pursuant to 28 U.S.C. § 2254. See Foust v.
Houk, 655 F.3d 524 (6th Cir. 2011). To establish
ineffective assistance of counsel, a defendant must
show that counsel’s performance was deficient and
that the deficient performance prejudiced the defense
so as to render the proceedings unfair and the result
unreliable. Strickland, 466 U.S. at 687.
In assessing counsel’s performance, a court must
presume that counsel’s questioned actions might have
been sound strategic decisions and must evaluate the
alleged errors or omissions from counsel’s perspective
at the time the conduct occurred and under the
circumstances of the particular case. Id. at 689; see
also Vasquez v. Jones, 496 F.3d 564, 578 (6th Cir.
2007) (“[S]trategic choices made after thorough
investigation of law and facts relevant to plausible
options are virtually unchallengeable[.]”) (quoting
Strickland, 466 U.S. at 690). Only when the
challenged actions are “outside the range of
professionally competent assistance” will counsel’s
performance be considered constitutionally deficient.
Strickland, 466 U.S. at 690.
To demonstrate prejudice, a petitioner must show
“a reasonable probability that, but for [counsel’s acts
or omissions], the result of the proceedings would have
been different.” Strickland, 466 U.S. at 694. “An error
by counsel, even if professionally unreasonable, does
not warrant setting aside the judgment of a criminal
proceeding if the error had no effect on the judgment.”
Id. at 691; see also Smith v. Robbins, 528 U.S. 259,
285-86 (2000). On balance, “[t]he benchmark for

App-40
judging any claim of ineffectiveness must be whether
counsel’s conduct so undermined the proper
functioning of the adversarial process that the
[proceedings] cannot be relied on as having produced
a just result.” Strickland, 466 U.S. at 686.
When a petitioner raises an ineffective assistance
of counsel claim in his § 2254 petition, the Court must
review the state court’s ruling on that claim under the
highly deferential standard of the AEDPA. Thus, in
order to succeed on a federal claim of ineffective
assistance of counsel, a habeas petitioner must
demonstrate that the state court’s ruling on his
ineffective assistance of counsel claim was an
unreasonable application of Strickland. Bell v. Cone,
535 U.S. 685, 693-94 (2002). “Surmounting
Strickland’s high bar is never an easy task,” and
“[e]stablishing that a state court’s application of
Strickland was unreasonable under § 2254(d) is all
the more difficult.” Harrington v. Richter, 562 U.S. 86,
105 (2011) (citing Padilla v. Kentucky, 559 U.S. 356,
371 (2010)).
The Court will address Petitioner’s ineffective
assistance of counsel claims in chronological order,
considering first his claims against trial counsel, then
his sentencing claim, and finally, his claim asserting
ineffectiveness in his appellate proceedings.
1.

Admitting Guilt to Manslaughter at
Trial

It is undisputed that, at Petitioner’s trial, counsel
attempted to enter a plea to voluntary manslaughter
on Petitioner’s behalf immediately after the
indictment was read. The trial court rejected the plea,
instead submitting the case to the jury. During

App-41
counsel’s opening statement, counsel advised the jury
that Petitioner accepted responsibility for voluntary
manslaughter but maintained that he was not guilty
of first-degree or second-degree murder.
In Grounds 3 and 6, Petitioner argues that trial
counsel rendered ineffective assistance “when he pled
the Petitioner guilty to the offense of Manslaughter, in
the presence of the jury” and without the consent of
the Petitioner,” thereby precluding a jury charge for
any
lesser-included
offense
to
voluntary
manslaughter. [Doc. 1 at 9-11, 13; Doc. 2 at 16-22, 2729; Doc. 16 at 23-30]. He argues that the state court’s
determination that Petitioner consented to this
strategy was erroneous, as it was based solely upon
trial counsel’s testimony that this strategy was
discussed with Petitioner and that he consented. [Doc.
2 at 16-22, 27-29]. Petitioner, however, maintains
that: (1) he was not told about the strategy; (2) he did
not consent to the strategy; and (3) he believed that
counsel intended to pursue only a theory of selfdefense. [Id.]. Petitioner contends that written
consent and/or an “on-the-record” inquiry was
required in order for counsel to agree to a guilty plea
in front of the jury and that no such consent is found
in this case. [Id.].
Petitioner argues that he was prejudiced by this
action because it destroyed his self-defense theory, as
well as his “credibility [in testifying] that the homicide
was not knowing and intentional.” [Id.]. He also
argues that he was prejudiced by this action, as it
deprived the trial judge of an opportunity to charge
the jury on any lesser-included offense below
manslaughter and that counsel was further deficient

App-42
in failing to request a jury instruction for lesserincluded offenses below manslaughter and/or in
failing to object to the trial court’s statement that it
would not consider instructions on charges less than
manslaughter. [Id. at 27; Doc. 16 at 38-39].
Petitioner raised this ground of ineffective
assistance of counsel in his post-conviction
proceedings in state court. [See Doc. 10-10 at 20, 3236, 133-41]. The trial court conducted a hearing on the
petition, where Petitioner testified, as did his trial
attorneys. 7 [Doc. 10-13].
Petitioner testified that strategy was generally
not discussed at his meetings with trial counsel, which
lasted only ten to fifteen minutes, and occurred only
every two to three months. He testified that he was
not aware that counsel was planning to ask the jury to
convict him of voluntary manslaughter, that he
objected to such a strategy, and that he believed that
counsel would pursue a theory of self-defense at trial.
He confirmed that counsel told him that he would be
“convicted of something,” but he believed that
statement referred to a self-defense theory.
By contrast, trial counsel testified that there were
many meetings with Petitioner regarding trial
strategy, including the strategy of admitting
7

As previously noted, Petitioner concedes that Respondent’s
statement of the evidence, as taken from the factual summary in
the opinion of the TCCA on Petitioner’s post-conviction petition,
is “accurate” and properly reflects the facts and testimony
relevant to his claims. [Doc. 16 at 3; see Doc. 9 at 3-15].
Accordingly, the Court will summarize the relevant facts with
respect to Petitioner’s ineffective assistance of counsel claims as
set forth by the TCCA and as agreed upon by both parties.

App-43
Petitioner’s guilt to manslaughter during the opening
statement. Trial counsel maintained that Petitioner
agreed to this strategy, which was discussed with him
“about twenty-five times” in the year before his trial.
Trial counsel believed that such a strategy was
consistent with Petitioner’s actions following the
victim’s death—namely, concealing her death, and his
knowledge of it, and burying her body in a remote
location—and that the strategy was agreed upon, in
part, due to its success when previously utilized by
counsel’s law firm. Due to the prosecution’s numerous
witnesses and “great” circumstantial evidence,
Petitioner’s attorneys believed that this strategy was
Petitioner’s “best shot” at avoiding a first-degree
murder conviction.
After the hearing, the trial court found that the
testimony of Petitioner’s attorneys was “much more
credible than the [P]etitioner’s testimony[.]” [Doc. 1011 at 156]. The trial court categorized the trial
strategy as “perhaps brilliant,” noting that it “likely
played a role in [Petitioner] avoiding a first-degree
murder conviction.” [Id.]. The trial court thus found no
deficiency or prejudice, concluding that the strategy
was a reasonable, tactical defense decision and that
Petitioner could not show any adverse effect from the
use of the strategy nor any more favorable outcome if
the strategy had not been used. [Id.]. Thus, it found no
ineffective assistance of counsel and rejected
Petitioner’s claim. [Id.]. The trial court also rejected
Petitioner’s claim that trial counsel was ineffective for
failing to request jury instructions on lesser-included
offenses to voluntary manslaughter, reasoning that
such a request would have been “suspect” in light of

App-44
the reasonable trial strategy of admitting Petitioner’s
guilt to voluntary manslaughter. [Id. at 159-60].
On appeal, the TCCA affirmed the trial court’s
determination that counsel was not deficient for
admitting
Petitioner’s
guilt
to
voluntary
manslaughter to the jury:
Although the Petitioner did not sign a written
waiver allowing trial counsel to argue before
the jury that he was guilty of voluntary
manslaughter, counsel’s credited testimony
was that the Petitioner consented to the trial
strategy. Co-counsel stated that this strategy
was discussed with the Petitioner “about
twenty-five times” in the year before the trial.
He said the Petitioner never stated that he
did not want counsel to use this strategy.
Trial counsel said his attempting to plead
guilty to voluntary manslaughter and asking
the jury for a manslaughter conviction during
opening statements was part of their
strategy. Counsel discussed the strategy with
other attorneys in their firm long before the
trial. Trial counsel stated that the strategy
was discussed with the Petitioner and that
the Petitioner agreed the strategy might be
successful. Counsel advised the Petitioner of
his constitutional right requiring the State to
prove beyond a reasonable doubt each
element of manslaughter. Counsel believed
that this strategy was the Petitioner’s “best
shot” of avoiding a first-degree murder
conviction and that manslaughter was
consistent with the Petitioner’s burying the

App-45
victim’s body in a remote location. We cannot
conclude that the evidence preponderates
against the trial court’s conclusion that the
strategy was reasonable given the facts of the
case.
[Doc. 10-28 at 22]. Thus, the TCCA denied Petitioner’s
claim of ineffective assistance on this ground.
The TCCA, did, however find that counsel was
deficient in failing to “request[] jury instructions on
reckless and criminally negligent homicide because
they were supported by the trial testimony and did not
conflict with the Petitioner’s theory of the case[.]” [Id.
at 23-24]. Nonetheless, the court rejected Petitioner’s
claim of ineffective assistance, finding no prejudice,
given that the jury declined to convict Petitioner of the
lesser offense of voluntary manslaughter, instead
finding him guilty of second-degree murder. [Id. at 24].
a.

Admitting Petitioner’s Guilt to
Voluntary Manslaughter

Petitioner’s first challenge is to the state court’s
findings of fact, as he argues that the state court erred
in crediting counsel’s testimony over that of Petitioner
himself. Petitioner, however, neglects to note that this
Court is bound to accept the state court’s findings of
fact as true unless Petitioner presents “clear and
convincing evidence” to the contrary. 28 U.S.C.
§ 2254(e)(1) (providing that “a determination of a
factual issue by a State court shall be presumed to be
correct” unless the petitioner rebuts that presumption
with clear and convincing evidence); see Seymour v.
Walker, 224 F.3d 542, 551-52 (6th Cir. 2000). Indeed,
the United States Court of Appeals for the Sixth
Circuit has expressly held that “in the context of a

App-46
Strickland evidentiary hearing, it is for the [state
court] judge to evaluate the credibility of the criminal
defendant and the former defense counsel in deciding
what advice counsel had in fact given to the defendant
during his trial, and such findings are entitled to the
Section 2254(e)(1) presumption[.]” Shimel v. Warren,
838 F.3d 685, 697 (6th Cir. 2016) (citing Ramonez v.
Berghuis, 490 F.3d 482, 490 (6th Cir. 2007)), petition
for cert. filed (U.S. Feb. 22, 2017) (No. 16-1020).
Here, Petitioner points the Court to his testimony
in state court, wherein he testified that he was
unaware of counsel’s strategy to admit Petitioner’s
guilt to voluntary manslaughter and that he did not
agree with such a strategy. However, that testimony
was directly contrary to the testimony of trial counsel,
who testified that the strategy was repeatedly
discussed with Petitioner and that Petitioner agreed
to utilize this strategy, as it represented his best shot
of avoiding a conviction for first-degree murder. The
state court, after hearing all of the testimony and
having had the opportunity to assess the credibility of
the witnesses, credited the testimony of counsel over
that of Petitioner. Petitioner has submitted no
evidence—let alone clear and convincing evidence—
that would allow the Court to disregard the
presumption of correctness afforded to the district
court’s credibility determination and accompanying
findings of fact that Petitioner consented to the
strategy of admitting guilt to voluntary manslaughter.
Thus, the Court cannot find, based on the record
before it, that the state court made “an unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding.” See 28 U.S.C.
§ 2254(d)(2). The Court will thus accept the state

App-47
court’s finding that counsel’s testimony was credible
and will defer to the court’s findings of fact in
determining whether the state court’s denial of this
ineffective assistance of counsel claim was contrary to
or an unreasonable application of the Strickland
standard.
Petitioner’s next argument is that counsel was
deficient in failing to either obtain written consent or
ensure that an on-the-record inquiry demonstrating
consent was made prior to admitting Petitioner’s guilt
to voluntary manslaughter to the jury. As support for
his argument, he primarily relies upon Wiley v.
Sowder, 647 F.2d 642, 648-50 (6th Cir. 1981) (“Wiley
I”), and correctly notes that, in that case, the Sixth
Circuit found ineffective assistance based on counsel’s
admission of guilt to the jury without his client’s
consent. The Sixth Circuit further noted that “[i]n
those rare cases where counsel advises his client that
the latter’s guilt should be admitted, the client’s
knowing consent to such trial strategy must appear
outside the presence of the jury on the trial record….”
Id.
This Court, however, finds Wiley I to be of limited,
if any, utility in assessing the instant claim. First, the
Sixth Circuit has narrowed the applicability of its
holding in Wiley I in subsequent cases, clarifying that,
while the on-the-record inquiry discussed therein
represents “the preferred practice,” such an inquiry is
not required to satisfy due process. See, e.g., Ashley v.
Koehler, 840 F.2d 16, at *4 (6th Cir. 1988) (table);
Wiley v. Sowders, 669 F.2d 386, 389 (6th Cir. 1982)
(“Wiley II”). Additionally, Wiley I was decided before
the Supreme Court decided Strickland v. Washington,

App-48
and thus ineffective assistance in that case was not
found based on the two-prong deficient performance
and resulting prejudice test that the state court was
bound to use in deciding the instant dispute, an
analysis to which this Court is similarly bound. And
Petitioner has pointed to no case from the Supreme
Court that has found deficient performance by counsel
solely on the basis that counsel did not obtain an onthe-record consent or inquiry before utilizing a
strategy of admitting Petitioner’s guilt to a lesserincluded offense. 8 The Court thus finds no basis upon
which to find that counsel was deficient in failing to
secure a written consent or on-the-record inquiry
before admitting Petitioner’s guilt to voluntary
manslaughter.
Remaining is the Court’s obligation to determine
whether the state court’s finding that counsel’s
performance was not deficient is contrary to, or an
unreasonable application of, the Strickland standard.
Crediting trial counsel’s testimony, the state court
noted that: (1) the decision to admit Petitioner’s guilt
to manslaughter was a strategic decision, made with
the intention of avoiding a conviction for first-degree
murder; (2) the strategy was consistent with
Petitioner’s version of events, to which he testified at
trial, including his decision to bury the body in a
8 Indeed, even Wiley I did not involve a plea to a lesser-included

offense during trial as a strategy to avoid conviction on a more
severe charge. Instead, that case involved counsel’s full and
unequivocal admission of guilt as to all charges against his client,
without any specific strategy for so doing, an action that the Sixth
Circuit classified as “a surrender of the sword” and the functional
equivalent of complete desertion of the client by the attorney.
Wiley I, 647 F.2d at 649-51.

App-49
remote location; (3) the strategy was discussed
amongst the firm’s lawyers long before trial; and
(4) the strategy was discussed with Petitioner
numerous times, and Petitioner agreed that it might
be beneficial. It ultimately concluded that, under the
Strickland standard, the strategy was reasonable
given the facts of the case and that counsel was
therefore not deficient.
The Court finds that the state court correctly set
forth the governing legal standards for assessing this
claim of Strickland error and further finds no error
with the state court’s application of those legal
standards. Indeed, numerous federal court decisions
support the state court’s conclusion that counsel’s
strategy of admitting Petitioner’s guilt to a lesserincluded offense was not unreasonable or
constitutionally deficient. See, e.g., Goodwin v.
Johnson, 632 F.3d 301, 310 (6th Cir. 2011) (death
penalty case, citing Florida v. Nixon, 543 U.S. 175
(2004), for the proposition that it is not deficient to
concede guilt and focus on penalty phase); Adams v.
Brewer, 2016 WL 1223350, at *10 (E.D. Mich. Mar. 29,
2016) (appeal pending) (“A defense counsel’s
concession that his client is guilty of a lesser-included
offense is a legitimate trial strategy that does not
amount to the abandonment of the defendant or a
failure by counsel to subject the prosecutor’s case to
meaningful adversarial testing so as to amount to the
denial of counsel. In this case, to the extent that trial
counsel conceded that Petitioner was guilty of larceny
from a person, it was part of a strategy to obtain an
acquittal on the more serious carjacking charge.”)
(internal citations omitted); Johnson v. Warren, 344 F.
Supp. 2d 1081, 1095-96 (E.D. Mich. 2004) (“A defense

App-50
counsel’s concession that his client is guilty of a lesserincluded offense is a legitimate trial strategy that does
not amount to the abandonment of the defendant or a
failure by counsel to subject the prosecutor’s case to
meaningful adversarial testing so as to amount to the
denial of counsel.”); see also Haynes v. Cain, 298 F.3d
375, 381-82 (5th Cir. 2002); Lingar v. Bowersox, 176
F.3d 453, 459 (8th Cir. 1999); Underwood v. Clark, 939
F.2d 473, 474 (7th Cir. 1991). Thus, under the
circumstances, the Court cannot conclude that the
state court’s decision on this claim was contrary to or
an unreasonable application of the Strickland
standard. Accordingly, the Court must DISMISS this
claim for relief.
b.

Failure to Request Jury Instructions
on Other Lesser-Included Offenses

Petitioner’s final argument with respect to
counsel’s strategy of admitting his guilt to voluntary
manslaughter at trial is that this action deprived trial
counsel of the opportunity to request, and the trial
court of the opportunity to provide, jury instructions
on any lesser-included offenses to voluntary
manslaughter,
including
criminally
negligent
homicide and reckless homicide. The state court
agreed with Petitioner that counsel was deficient in
failing to request jury instructions on additional
lesser-included offenses, but nonetheless, denied his
claim of ineffective assistance of counsel. Specifically,
the state court found no prejudice from the error, given
that the jury declined to convict Petitioner of the lesser
offense of voluntary manslaughter, instead finding
him guilty of second-degree murder.

App-51
The Court finds no error with the state court’s
conclusion that Petitioner failed to demonstrate
prejudice as a result of counsel’s failure to request jury
instructions on additional lesser-included offenses. As
the state court correctly noted, the jury convicted
Petitioner of second-degree murder, specifically
rejecting the opportunity to convict Petitioner of the
lesser-included offense of voluntary manslaughter.
Given that the jury found the evidence sufficient to
justify a conviction for second-degree murder, the
Court concludes that there is no reasonable
probability that the jury would have convicted
Petitioner of criminally negligent homicide or reckless
homicide had counsel requested inclusion of
instructions on those charges. See State v. Williams,
977 S.W.2d 101, 104-07 (Tenn. 1998) (“[B]y finding the
defendant guilty of the highest offense [first-degree
murder] to the exclusion of the immediately lesser
offense, second-degree murder, the jury necessarily
rejected all other lesser offenses, including voluntary
manslaughter. Accordingly, the trial court’s erroneous
failure to charge voluntary manslaughter is harmless
beyond a reasonable doubt because the jury’s verdict
of guilt on the greater offense of first-degree murder
and its disinclination to consider the lesser-included
offense of second-degree murder clearly demonstrates
that it certainly would not have returned a verdict on
voluntary manslaughter.”). This Court, like the state
court, is convinced that counsel’s alleged error had no
effect on Petitioner’s judgment. Thus, Petitioner has
not demonstrated that the state court’s denial of this
ground of ineffective assistance was contrary to or an
unreasonable application of Strickland, and this claim
will be DISMISSED.

App-52
2.

Testimony of Dr. Charles Harlan

In Ground 5, Petitioner argues that trial counsel
was ineffective in failing to adequately cross-examine,
impeach, or elicit favorable testimony from the
medical examiner, Dr. Charles Harlan. 9 [Doc. 1 at 13].
He argues that counsel’s cross examination of Harlan
was “less tha[n] sub-standard,” that counsel failed to
elicit favorable facts from Harlan regarding the duct
tape that was used in the commission of the crime that
could have called into question the cause of death, and
that counsel failed to impeach Harlan’s credibility
with available information—specifically, Harlan’s
“past misconduct of intentionally lying about the
cause of death” in other criminal cases. [Id.].
Dr. Harlan’s trial testimony regarding the
victim’s cause of death, and trial counsel’s crossexamination of the same, is set forth in detail in
Section II(A)(2), supra. Additionally, it is undisputed
that: (1) Dr. Harlan was being investigated for
malpractice by the Tennessee Board of Medical
Examiners at the time of Petitioner’s trial; (2) his
medical license was revoked approximately six
months after Petitioner’s trial; and (3) Harlan’s
autopsy of Petitioner’s victim and testimony in
Petitioner’s trial were not called into question as a
part of the Medical Board’s investigation into Harlan
and did not form any part of the basis for the
revocation of his license. It is also undisputed that
Petitioner’s trial counsel did not raise the issue of the
9

Unlike his other grounds for relief, Petitioner did not expand
upon this argument in his accompanying memorandum of law.
[See Doc. 2].

App-53
then-pending investigation into Harlan during the
course of the trial.
Petitioner raised this ground of ineffective
assistance of counsel in his post-conviction
proceedings in state court. [See Doc. 10-10 at 36-47].
The trial court credited the testimony of counsel,
namely, that counsel made a strategic decision not to
question Harlan at trial about his then-pending
medical board proceedings, as (1) no ruling had yet
been made, and (2) counsel believed that he could
adequately challenge Harlan’s testimony regarding
his medical findings and elicit favorable testimony
from Harlan on cross-examination. [Doc. 10-11 at 15657, 165-66]. It noted that Petitioner failed to present
any evidence suggesting that his case was involved in
Harlan’s disciplinary proceedings before the Medical
Board or that Harlan had been “negligent,
incompetent, or deceitful” in performing the autopsy
of Petitioner’s victim or in testifying in Petitioner’s
case. [Id.]. The trial court further found that trial
counsel “adequately challenged the doctor’s opinion
testimony via cross-examination, and the verdict of
the jury supports the proposition that the jury did
question the doctor’s opinion.” [Id. at 165]. It thus
rejected Petitioner’s claim of ineffective assistance of
counsel with respect to counsel’s questioning of
Harlan.
On appeal, the TCCA affirmed the trial court’s
determination that counsel’s examination of Dr.
Harlan was not constitutionally infirm:
Dr. Charles Harlan testified at the trial that
the victim’s cause of death was suffocation
because he found no diseases or injuries

App-54
consistent with blunt force trauma and
because the victim’s airway was blocked by
duct tape. During co-counsel’s crossexamination, Dr. Harlan testified that of the
many thousands of autopsies he had
performed, less than ten involved suffocation
by duct tape. He said that although he
concluded the cause of death was suffocation,
he did not find any evidence supporting his
conclusion other than the duct tape over the
victim’s mouth and nose. Dr. Harlan could not
state with a reasonable degree of medical
certainty that the victim was conscious before
the duct tape was applied. He stated that a
person could receive a “blow” that caused
unconsciousness but did not “leave a mark.”
He agreed that someone who was unconscious
might look dead.
Dr.
Harlan
testified
that
petechial
hemorrhaging was caused when the smallest
blood vessels in the body ruptured and that it
could be seen in the eyes as a result of
suffocation. He said, though, that petechia
was not required to diagnose suffocation. He
said petechia supported such a conclusion but
was not necessary. Dr. Harlan did not see
petechia in the victim’s eyes, face, lungs, or
neck.
The Petitioner argues that co-counsel should
have questioned Dr. Harlan about the ten
cases in which he performed autopsies
involving duct tape and his conclusions that
most of the victims were dead before the tape

App-55
was applied. The Petitioner also argues that
co-counsel should have questioned Dr. Harlan
about his failure to find evidence that the
victim “thrash[ed] around” when Dr. Harlan
told co-counsel before the trial that
individuals who die as a result of suffocation
“thrash around.” We cannot conclude that cocounsel was deficient by failing to ask Dr.
Harlan
these
questions.
Co-counsel
highlighted during cross examination that
although Dr. Harlan concluded the victim
suffocated, there was no evidence supporting
his conclusion other than the duct tape. Dr.
Harlan could not determine if the victim was
conscious or unconscious when the duct tape
was applied to the victim’s hands, feet, and
face. He agreed it was possible for a victim to
receive a blow that caused unconsciousness
but left no evidence of an internal or external
wound. Dr. Harlan found no evidence of
petechia but concluded suffocation did not
always result in petechial hemorrhaging. Cocounsel presented evidence that it was
possible the victim’s cause of death was not
suffocation as Dr. Harlan concluded and that
she was rendered unconscious by a blunt
force trauma, preventing the victim’s
struggling.
With regard to co-counsel’s failure to impeach
Dr. Harlan with the pending proceeding to
revoke Dr. Harlan’s medical license, we
cannot conclude that co-counsel provided
deficient performance. The Petitioner’s trial
was held in November 2004, and Dr. Harlan’s

App-56
medical license was permanently revoked in
May 2005. Although co-counsel knew about
the pending proceedings, he denied knowing
the substance of the allegations and said he
contacted Dr. Harlan’s attorney before the
trial to investigate the pending proceedings.
In any event, co-counsel elicited favorable
testimony about whether the victim
suffocated and whether the victim was
conscious at the time the duct tape was
applied. Cocounsel [sic] made the tactical
decision not to question Dr. Harlan about the
pending medical board proceeding because
Dr. Harlan gave counsel exactly what counsel
wanted. Because co-counsel made an
informed tactical decision, we cannot
conclude that co-counsel provided deficient
performance.
[Doc. 10-28 at 20-21].
The record does not support Petitioner’s
contention that counsel’s cross-examination of Harlan
was “sub-standard.” As the state court noted, counsel
thoroughly cross-examined Harlan regarding his
autopsy of the victim and his medical opinion
regarding the victim’s death. The Court agrees with
the state court that the record demonstrates that
counsel elicited favorable testimony from Harlan, as
he called into question whether the victim suffocated
as a result of the application of the duct tape and
whether the victim could have been unconscious with
the appearance of death at the time Petitioner applied
duct tape to her face. Counsel testified that he was
aware that Harlan was facing investigation and

App-57
prosecution by the medical board at the time of
Petitioner’s trial. However, a strategic decision was
made not to question Harlan regarding his thenpending allegations of medical malpractice for two
reasons: (1) no final adjudication had been rendered
on those charges at the time of Petitioner’s trial; and
(2) counsel believed that he would be able to elicit
favorable testimony from Harlan, and he did not want
to impeach the credibility of a witness who provided
beneficial testimony.
The Court agrees that counsel made a strategic
decision regarding the scope of his cross-examination
of Harlan after completing a thorough investigation
and review of the law and facts of the case, and that
decision was both reasonable and beneficial to
Petitioner. The Court thus concludes that the state
court’s finding that counsel’s actions with respect to
Harlan were not deficient was not contrary to or an
unreasonable application of Strickland, and this claim
will be DISMISSED.
3.

Ineffective Assistance of Counsel Claims
Based on Prisoner’s Sentence

In Ground 4, Petitioner argues that counsel was
ineffective in failing to object to “erroneous and
prejudicial” statements by the medical examiner that
were contained in the pre-sentence report. [Doc. 2 at
23-27; Doc. 16 at 30-34]. Specifically, Petitioner notes
that the presentence report contained a statement
allegedly made by Harlan during the autopsy
indicating that he had found duct tape particles in the
victim’s lungs. [Doc. 2 at 23-27]. Petitioner maintains
that this statement is false, as it was not included in
the autopsy report, Harlan’s pretrial interviews, or his

App-58
testimony at trial. [Id.]. Petitioner’s counsel did not
object to this statement, and the sentencing court
relied upon it in applying an enhancement for
exceptional cruelty to the victim, concluding that the
statement indicated how desperately the victim tried
to continue breathing. [Id.]. Petitioner argues that,
absent this statement, there is a reasonable
probability that his sentence would have been lower.
[Id.].
Similarly, he argues that he was prejudiced by
counsel’s failure to include the trial transcript on
appeal, as it deprived the appellate court of an
opportunity to discover that the statement in the
presentence report regarding duct tape in the victim’s
lungs was false and of the opportunity to review his
sentence de novo. [Id. at 25-26; Doc. 16 at 30, 36]. He
argues that, in light of the evidence presented at trial
and the false statement in the presentence report,
there is a reasonable probability that his sentence
would have been reversed on appeal had counsel
included the trial transcript. [Doc. 2 at 25-26].
The Court has determined that Petitioner’s claim
that his sentence was unlawful in light of Blakely
must be granted, and it has accordingly ordered that
Petitioner’s sentence be vacated. Because the Court
has granted his request for relief as to Blakely claim,
thereby vacating Petitioner’s sentence, his ineffective
assistance of counsel claim based on his sentence is
MOOT and will accordingly be DISMISSED. See
United States v. Brown, 819 F.3d 800, 829 (6th Cir.
2016) (citing United States v. Jones, 489 F.3d 243, 255
(6th Cir. 2007)); United States v. Jackson, 244 F. App’x

App-59
727, 729 (6th Cir. 2007); United States v. Milledge, 109
F.3d 312, 316 n.2 (6th Cir. 1997)).
4.

Ineffective
Counsel

Assistance

of

Appellate

In Ground 2, Petitioner asserts that appellate
counsel rendered ineffective assistance. [Doc. 1 at 8-9,
11-12; Doc. 2 at 9-16; Doc. 16 at 18-23]. First,
Petitioner contends that his appellate attorney
rendered ineffective assistance in failing to adequately
communicate or consult with him regarding the issues
to be appealed. [Doc. 2 at 9-16; Doc. 16 at 20-22]. He
argues that counsel knew or should have known that
he wanted to appeal his underlying convictions, rather
than just his sentence, based on his plea of not guilty,
his past interest in appealing a conviction that
reflected anything more than an accidental killing,
and his very active involvement in his defense. [Doc.
16 at 22-23]. He argues that counsel should have
asserted a claim challenging the sufficiency of the
evidence on direct appeal, based on the state’s failure
to meet its burden of proof and because the testimony
and credibility of the medical examiner was been
called into question after the verdict was rendered.
[Doc. 2 at 9-16].
“Claims of ineffective assistance of appellate
counsel are subject to the Strickland test, which
requires a defendant to show both deficient
representation and prejudice.” Evans v. Hudson, 575
F.3d 560, 564 (6th Cir. 2009). When considering the
Strickland standard in conjunction with the
deferential standard of § 2254(d), the question in
reviewing the state court’s ruling “is whether there is
any reasonable argument that [appellate] counsel

App-60
satisfied Strickland’s deferential standard.” See
Harrington v. Richter, 562 U.S. 86, 105 (2011).
Appellate counsel is not required “to raise every
possible issue in order to render constitutionally
effective assistance.” Hutton v. Mitchell, 839 F.3d 486,
501 (6th Cir. 2016) (citing Jones v. Barnes, 463 U.S.
745, 750-53 (1983)); see also Shaneberger v. Jones, 615
F.3d 448, 452 (6th Cir. 2010) (“[T]he Strickland
analysis does not require an attorney to raise every
non-frivolous issue on appeal,” nor does it require
counsel to “raise an issue that lacks merit.”) (internal
quotation marks and citation omitted); Smith v.
Robbins, 528 U.S. 259, 288 (2000) (“[A]ppellate
counsel who files a merits brief need not (and should
not) raise every nonfrivolous claim, but rather, may
select from among them in order to maximize the
likelihood of success on appeal.”). Instead, the
presumption of effective assistance will generally only
be overcome “when omitted arguments are clearly
stronger than those presented.” Hutton, 839 F.3d at
501 (citing Smith, 528 U.S. at 288); McFarland v.
Yukins, 356 F.3d 688, 699 (6th Cir. 2004) (“Counsel’s
failure to raise an issue on appeal c[an] only be
ineffective assistance if there is a reasonable
probability that inclusion of the issue would have
changed the result of the appeal.”).
When evaluating the issue of ineffective
assistance of appellate counsel for prejudice, the Court
must determine whether there is a reasonable
probability that, but for his counsel’s failings, the
defendant would have prevailed on his appeal. Evans,
575 F.3d at 564. “A reasonable probability is a
probability sufficient to undermine confidence in the

App-61
outcome.” Id. at 564-65 (citing Burton v. Renico, 391
F.3d 764, 773 (6th Cir. 2004); Maples v. Stegall, 340
F.3d 433, 437 (6th Cir. 2003)).
Petitioner raised this ground of ineffective
assistance of counsel in his post-conviction
proceedings in state court. [See Doc. 10-10 at 20-25].
The trial court noted that “the appeal taken on
petitioner’s behalf was successful,” as his sentenced
was lowered on direct review. [Doc. 10-11 at 152-53].
It also found that Petitioner “failed to show that there
is a reasonable probability that an appeal as to his
convictions would have been successful,” as “[t]here
was ample proof presented against the defendant[.]”
[Id.]. Accordingly, the trial court rejected this claim of
ineffective assistance. [Id.].
On appeal, the TCCA affirmed the trial court’s
determination that counsel was not deficient:
The record shows that counsel and the
Petitioner discussed whether to appeal the
Petitioner’s convictions and that they agreed
the best opportunity for appellate relief was
to appeal the sentence. Although trial counsel
testified that he feared the Petitioner would
be tried again for first-degree murder if this
court granted relief from the conviction, a
wholly unfounded fear given double jeopardy
protections, co-counsel denied this was a
factor in determining whether to appeal the
conviction. Co-counsel, who worked on the
Petitioner’s appeal, did not think there were
any meritorious issues regarding the
conviction. The Petitioner argues counsel
should have raised sufficiency of the

App-62
evidence …. We cannot conclude that the
Petitioner was prejudiced.
With regard to the sufficiency of the evidence,
we conclude that the evidence was sufficient
to sustain the Petitioner’s conviction for
second-degree murder. See [Tenn. Code Ann.]
§ 39-13-210 (2010) (stating that seconddegree murder is the knowing killing of
another); see also [Tenn. Code Ann.] § 39-11106(20) (2010) (stating that “[a] person acts
knowingly with respect to a result of the
person’s conduct when the person is aware
that the conduct is reasonably certain to
cause the result”). The evidence showed that
the Petitioner admitted striking the victim in
the head, duct taping her hands and feet, duct
taping her face from her nose to her chin,
concealing her body, transporting her body to
an island on Tim’s Ford Lake, and burying
the victim’s body in a shallow grave. Various
witnesses testified about the Defendant and
the victim’s pending divorce, inability to get
along around the time of the victim’s
disappearance, and fighting over their two
children.
The victim was last seen leaving work at 3:11
p.m. the day she disappeared. Greg Arp, the
victim’s coworker and boyfriend, and the
victim discussed their evening plans during
their lunch break. The victim called the
Petitioner’s home to speak with her children
during lunch, but the Petitioner did not allow
her to speak with them. Mr. Arp said that

App-63
after work, the victim was supposed to pick
up her children at the Petitioner’s home,
bring the children to Mr. Arp’s home, and go
to dinner together. Mr. Arp called the victim’s
cell and home phones around 3:30 or 4:00
p.m. because the victim had not arrived at his
home with her children. He said that he was
unable to reach her and that the victim did
not return his calls.
Kara Matthews, the Petitioner’s girlfriend at
the time of the killing, said she arrived at the
Petitioner’s home around 4:30 or 5:00 p.m.
the day the victim disappeared and that the
Petitioner was pacing the kitchen floor, was
sweating, and was nervous. The Petitioner
told her a story about some of his friends
suggesting that they steal the victim’s truck.
The Petitioner told her that he believed they
were joking but that someone arrived at his
home with the victim’s keys thirty minutes
before she arrived. The Petitioner said his
friends left the truck in Kroger’s parking lot.
Ms. Matthews said the Petitioner requested
that she drive him to the parking lot to find
the victim’s truck. She said that the truck was
in the Advanced Auto Parts’ parking lot,
which was in the same strip mall as Kroger.
She stated that the Petitioner got into the
truck, that he told her he was going to take
the truck back to his friend, and that she
followed him. She said the Petitioner drove
the truck to “Smokehouse and hotel” and
wiped the steering wheel and the door with a
cloth. He left the keys inside the truck. She

App-64
said they went to buy fast food. She said the
Petitioner acted “normal” after they left the
truck. She stated that after they returned
home, the Petitioner asked her to watch his
children for a while.
The Petitioner told Mr. Rhoads that he killed
the victim. According to Mr. Rhoads’s
testimony, the Petitioner said he had just put
the children down for their naps when the
victim appeared in the kitchen. The
Petitioner stated that the victim was yelling
at him and that before he knew what
happened, he hit the victim, who fell to the
floor. The cause of death, though, was
suffocation. The medical examiner concluded
the victim suffocated from the duct tape
obstructing her airway. The autopsy did not
show evidence of blunt force trauma to the
victim’s head, contradicting the Petitioner’s
version of events. We conclude the evidence
was sufficient.
[Doc. 10-28 at 26-29].
In reviewing the sufficiency of the evidence,
Tennessee courts assess “whether any rational trier of
fact could have found the essential elements of the
crime beyond a reasonable doubt.” State v. Parker, 350
S.W.3d 883, 903 (Tenn. 2011) (quoting Jackson v.
Virginia, 443 U.S. 307, 319 (1979)). In analyzing such
a claim, the prosecution is afforded “the strongest
legitimate view of the evidence as well as all
reasonable and legitimate inferences which may be
drawn therefrom,” with questions concerning

App-65
credibility and the weight of the evidence resolved in
favor of the decision reached by the trier of fact. Id.
Petitioner argues that counsel was ineffective in
failing to raise a claim for sufficiency of the evidence
on direct appeal because “the state failed to meet its
burden of proof beyond a reasonable doubt.” However,
his arguments in support of this position are not
arguments regarding the sufficiency of the evidence;
rather, they are arguments regarding the weight of the
evidence. 10 In reviewing whether Petitioner was
10

Petitioner states:
The Petitioner contends that this case is not one
involving a traditional stabbing, shooting, or poisoning
of the victim. This case is one involving a very heated
and contentious divorce between the Petitioner and the
victim. The victim’s family members, some of whom
were employed with the local law enforcement, had got
involved in the divorce and made threats to the
Petitioner, and had vandalized his home. The
Petitioner and the victim were separated and living
apart. The Petitioner had been living in duress. Yet, on
the day of the victim’s death she had driven to the
Petitioner’s home, sneaked into the home and attacked
the Petitioner from behind. The Petitioner responded
to the assault by striking a blow to the victims head
using his bare hands. The blow rendered the victim
unconscious, to the point of death. The Petitioner
covered the victim’s face in approximately nine (9) feet
of duct tape. The medical examiner testified before the
jury that the COD was asphyxiation. That testimony
has since been called into serious question, and the
Chief Medical Examiner, Dr. Charles Harlan, has
since been prosecuted, disbarred by the medical board
for intentionally lying about the COD in hundreds of
cases, among many other fraudulent and unethical
crimes including fraud and deceit. Indeed, the
Petitioner’s Pre-Sentence Report (PSR) stated that

App-66
prejudiced by counsel’s failure to raise a claim of
sufficiency of the evidence, the state court
summarized the evidence in a manner that afforded
the prosecution the strongest legitimate view of the
evidence and any reasonable inferences therefrom and
gave deference to the jury’s verdict in assessing the
credibility of witnesses and weight of the evidence.
Based on this view of the evidence, rather than
Petitioner’s own view which favors his testimony and
version of events, the state court found that the
evidence was sufficient to support Petitioner’s
conviction for second-degree murder and that he
accordingly suffered no prejudice as a result of
counsel’s failure to raise this issue on direct appeal.
The Court cannot find that the state court
unreasonably applied the Strickland standard in so
holding. Although it is possible to draw inferences
from the evidence presented at trial that would
support Petitioner’s theory of the case, the appellate
court would have been constrained on direct review to
view the evidence and all reasonable inferences
therefrom in the light most favorable to the
prosecution and to the jury’s verdict. Viewed in such
light, the evidence presented at trial supports the
Petitioner’s conviction. Petitioner admittedly struck
part of the Medical Examiner’s autopsy report
contained a finding that the victim had [particles] of
[ d]uct [t]ape in her lungs. Thus supporting that she
asphyxiated as she struggled so hard to breathe. This
finding is, not only incredible and impossible, but also
false. Thus, the state failed to meet it’s [sic] burden of
proof beyond a reasonable doubt.
[Doc. 2 at 10-11 (internal citations omitted)].

App-67
the victim in the head and applied duct tape to her
face, covering her nose and mouth. He took numerous
steps to conceal his actions, disposing of her personal
items, wiping down her vehicle, leaving voicemails for
the victim after he knew her to be dead, and
transporting her body to a remote location for burial.
The medical examiner testified that he assigned the
cause of death to asphyxiation by duct tape, as the
examination did not reveal any other possible cause of
death; he testified that there was no evidence that the
victim’s cause of death was blunt force trauma. 11
Thus, under the standard of review for sufficiency of
the evidence, a rational trier of fact could have
concluded that the evidence supported a finding that
Petitioner was guilty of second-degree murder—that
is, that he knowingly killed his victim. There is, then,
no reasonable probability that the outcome of
Petitioner’s appeal would have been more favorable
had counsel raised this issue on direct review, and
without such probability, Petitioner suffered no

11

Petitioner argues that the sufficiency of the evidence could
have been challenged based on the fact that Harlan’s medical
license was suspended subsequent. Petitioner concedes, however,
that no evidence or testimony regarding the investigation into
Harlan was presented at trial and that his license had not been
revoked at the time of trial. Petitioner’s claims about Harlan’s
credibility were properly raised, considered, and rejected in his
post-conviction proceedings in state court. Under these
circumstances, and given that the evidence must be viewed in the
light most favorable to the prosecution when undertaking a
sufficiency of the evidence analysis, this argument is wholly
without merit, and the Court cannot find that counsel was
deficient in failing to raise these issues on direct review or that
Petitioner was prejudiced by such failure.

App-68
prejudice. 12 The Court accordingly cannot find that
the state court unreasonably applied the Strickland
standard in concluding that Petitioner was not
prejudiced by counsel’s failure to raise a sufficiency of
the evidence claim on direct appeal, and this claim for
relief will be DISMISSED.
III. CONCLUSION
For the above reasons, Grounds Two through Six
of Petitioner’s petition for a writ of habeas corpus
pursuant to 28 U.S.C. § 2254, raising claims of
ineffective assistance of counsel, are hereby
DISMISSED. However, the § 2254 petition will be
conditionally GRANTED with respect to Ground 1,
Petitioner’s sentencing claim. Petitioner’s sentence
will accordingly be VACATED, and unless the State of
Tennessee re-sentences him within ninety days,
Petitioner SHALL be released from incarceration. 13
12 The Court also notes that it does not find that counsel was
deficient in failing to raise this claim for relief on direct review.
Counsel raised only sentencing claims on direct review, finding
no other meritorious claims for relief. Petitioner can show that
this strategic decision was deficient only by demonstrating that
omitted claims were stronger than those actually raised on direct
review. See Hutton, 839 F.3d at 501. Given that the state court
and this Court have concluded that a challenge to the sufficiency
of the evidence on direct review had no likelihood to succeed on
the merits, and that counsel actually did succeed in obtaining
relief for Petitioner on two sentencing claims raised on direct
review, Petitioner cannot make such a showing and has
accordingly failed to demonstrate that counsel was
constitutionally deficient.
13

If an appeal is taken and the Court’s determination stands,
the State of Tennessee must take such action within ninety days
of the resolution of the appeal.

App-69
IV. CERTIFICATE OF APPEALABILITY
Finally, the Court must consider whether to issue
a certificate of appealability as to those claims in
Petitioner’s § 2254 petition that the Court has now
dismissed. Under the AEDPA, a habeas petitioner
must obtain a certificate of appealability (“COA”) to
appeal a federal district court’s final order in a habeas
proceeding. 28 U.S.C. § 2253(c)(1). A COA may issue
only if the petitioner has made a “substantial showing
of the denial of a constitutional right,” and, if issued,
it “shall indicate which specific issue” satisfies that
showing. 28 U.S.C. § 2253(c)(2)-(3). Where claims
have been dismissed on their merits, a petitioner must
show that reasonable jurists would find the
assessment of the constitutional claims debatable or
wrong. Slack v. McDaniel, 529 U.S. 473, 484 (2000);
Porterfield v. Bell, 258 F.3d 484, 485-86 (6th Cir.
2001).
After having reviewed Grounds Two through Six
of the petition, and in view of the law upon which the
dismissal on the merits of the adjudicated claims is
based, reasonable jurists could not disagree with the
correctness of the Court’s resolution of these claims.
Because the Court’s assessment of Petitioner’s
constitutional ineffective assistance of counsel claims
could not be debatable by reasonable jurists, such
claims are inadequate to deserve further
encouragement, and the Court will DENY issuance of

App-70
a COA. See 28 U.S.C. § 2253; Fed. R. App. P. 22(b);
Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
IT IS SO ORDERED
/s/ Harry S. Mattice, Jr.
HARRY S. MATTICE, JR.
UNITED STATES
DISTRICT JUDGE

App-71
Appendix C
COURT OF CRIMINAL APPEALS OF
TENNESSEE, AT NASHVILLE
________________
No. M2011-02188-CCA-R3PC
________________
LONNIE LEE OWENS,
v.

Petitioner,

STATE OF TENNESSEE,
Respondent.
________________
Dated: April 4, 2013
________________
OPINION
JOSEPH M. TIPTON, P.J.:
The Petitioner, Lonnie Lee Owens, appeals the
Franklin County Circuit Court’s denial of his petition
for post-conviction relief from his convictions for
second degree murder, abuse of a corpse, and theft
over $10,000 and his effective twenty-four-year
sentence. On appeal, he contends that (1) counsel was
ineffective by failing to object to an erroneous
statement contained in the presentence report and by
failing to include the trial transcript in the appellate
record, (2) counsel was ineffective in cross-examining
the medical examiner, (3) counsel was ineffective by
attempting to negotiate a plea agreement in the jury’s
presence, (4) counsel was ineffective by failing to
request a jury instruction on lesser included offenses,

App-72
(5) counsel was ineffective by failing to interview a
witness before the trial, (6) counsel was ineffective by
failing to request a change of venue, (7) counsel was
ineffective by failing to file a motion for a new trial and
by failing to appeal his conviction, (8) the cumulative
effect of counsel’s errors deprived him of the effective
assistance of counsel, and (9) he is entitled to a
delayed appeal. We affirm the judgment of the trial
court.
Although the Petitioner did not appeal his
conviction, he sought appellate relief from his
sentence, but the trial transcript was not included in
the appellate record. This court summarized the facts
of the case based on the sentencing hearing transcript
and presentence report. The court stated:
The Defendant killed his estranged wife,
Heather Owens, in May 2003 when she came
to his house to pick up their two young
children. The Defendant struck the victim
and then bound her with duct tape. The
Defendant wrapped duct tape over the
victim’s mouth and nose, such that she
suffocated to death. The couple’s children
were in the house at the time of the homicide.
The Defendant subsequently buried the
victim’s body and disposed of her pick-up
truck. The Defendant’s girlfriend assisted in
the disposal of the victim’s truck.
State v. Lonnie Lee Owens, No. M2005-00362-CCA-R3CD, slip op. at 1-2 (Tenn.Crim.App. Oct. 18, 2005).
At the post-conviction hearing, the Petitioner
testified that trial counsel did not file a motion for a
new trial, that counsel knew the motion was required

App-73
before he could appeal his convictions, and that he did
not know counsel did not file the motion. He denied
signing a waiver of his right to appeal his convictions
and said he wanted to appeal his second degree
murder conviction. He said that counsel did not file a
petition for a writ of error coram nobis and that he
learned of the writ when he began conducting his own
legal research. He said that he wrote letters to counsel
after he was convicted but that he did not make any
statements that might have led counsel to believe he
did not want to appeal his conviction. He said he did
not know counsel failed to prepare a trial transcript
until he received this court’s opinion. He said he
received a copy of the opinion from counsel several
months after it was filed.
The Petitioner testified that he received a copy of
the appellate brief filed by trial counsel and that he
was “shocked” counsel did not appeal his conviction.
He said he wrote numerous letters to counsel but did
not know the extent to which he discussed counsel’s
failure to appeal his convictions. With regard to
counsel’s opening statement during the trial, the
Petitioner stated that he objected to counsel’s pleading
for the jury to convict him of voluntary manslaughter.
He denied knowing counsel was going to ask the jury
to convict him of manslaughter and said he thought
the theory was self defense. He denied signing a
waiver to exclude certain trial strategies. He stated
that his meetings with trial counsel lasted
approximately ten to fifteen minutes and that two or
three months elapsed between meetings. He said
strategy was never discussed during those meetings.
He said counsel only told him that he would be

App-74
“convicted of something.” He understood that the
theory was self defense.
The Petitioner testified that after he was
convicted, he learned that Dr. Charles Harlan, the
medical examiner who performed the victim’s autopsy,
was permanently prohibited from practicing medicine
on May 4, 2005. A copy of the order revoking Dr.
Harlan’s medical license was received as an exhibit.
The order shows numerous instances of inadequate
medical examinations and documentation and
erroneous medical findings by Dr. Harlan. The order
also shows erratic and unprofessional conduct by Dr.
Harlan. The Petitioner said he learned this
information on his own, not through counsel. The
Petitioner identified a letter he wrote to counsel
stamped filed May 12, 2005. He said that in his letter
he asked counsel if he planned to raise Dr. Harlan’s
losing his license on appeal. The letter identified the
article discussing Dr. Harlan.
The Petitioner testified that before the trial, he
became concerned about his receiving a fair and
impartial jury in Franklin County and that he
discussed this with trial counsel. He said that he was
told counsel was going to file a motion for a change of
venue but that counsel never filed it. He said many of
the jurors had previous knowledge about his case,
knew the police officers involved, and discussed the
case with those officers.
The Petitioner testified that he chose to testify at
the trial and that he attempted to cooperate with trial
counsel in preparing for the trial. He said he and
counsel discussed the victim’s affairs and the threats
and extortion demands he received from her family,

App-75
but counsel did not mention these points at the trial.
The Petitioner identified letters he wrote to counsel,
which stated that his pastor could testify that the
Petitioner took a Smith & Wesson .357 home for
protection because he received threats after hiring a
private investigator. Another letter stated that his
pastor could testify that the Petitioner parked behind
his church to prevent trouble with the victim and Don
and Sandy Griffin.
The Petitioner testified that Barry Rhoads, 1 the
Petitioner’s pastor, testified at the trial and that trial
counsel did not ask Mr. Rhoads about the threats and
extortion demands the Petitioner received from
multiple people who were members at his church. He
said Mr. Rhoads knew about the victim’s affairs. He
said that the victim and Sheriff’s Deputy George Dyer
pointed a gun at him and told him to forget about the
victim, their house, and their children. He said that
they told him to leave the area and that he would
begin to have legal troubles if he did not leave. He
denied knowing the victim obtained an order of
protection until church members told him about the
order and denied ever being served. He denied
knowing his marriage was in trouble. He said the
victim and Deputy Dyer were distant cousins by
marriage. He said he filed for divorce and was served
with an order of protection by Deputy Dyer. He said
the victim displayed “erratic behavior” and had an
affair with Sheriff’s Deputy Brian Brewer. He said
1

We note that the witness’s name is spelled “Rhodes” in the
post-conviction hearing transcript and “Rhoads” in the trial
transcript. We use the spelling the witness gave in his trial
testimony.

App-76
that he told counsel about these events before the trial
but that they were not discussed at the trial.
The Petitioner testified that he stopped attending
his church because of threats from the victim and her
family and that he began attending Mr. Rhoads’s
church. He said the victim and her family told him to
stop attending Mr. Rhoads’s church, too, because they
did not like Mr. Rhoads. He said he parked his car
behind Mr. Rhoads’s church to avoid problems with
the victim and her family.
The Petitioner testified that the night of the
victim’s death, he was inside his home with his
children, that someone approached him from behind,
that the person said, “F-you,” and that he reacted by
“throwing a punch without realizing” it was the
victim. He said that after one year of the tension, he
was under duress and feared for his and his children’s
safety. He said he told trial counsel his version of
events. He understood his actions were self defense.
He agreed that he testified at the trial that he checked
for a pulse but that the victim was dead. He said he
did not call 9-1-1 because he knew about the victim’s
and her family’s connections with the police and
feared getting “a raw deal” and what would happen to
his children. He said he knew the victim’s family
would attempt to obtain custody of his children.
The Petitioner identified letters he wrote trial
counsel identifying potential witnesses. He said none
of these potential witnesses testified at the trial, and
he did not know if counsel interviewed them. He
denied counsel’s informing him of the potential
witnesses they interviewed and denied counsel gave
him a copy of the State’s discovery package. He did not

App-77
know if the State made counsel aware of any problems
with Dr. Harlan.
The Petitioner testified that the presentence
report stated that Dr. Harlan concluded that there
were traces of duct tape in the victim’s lungs and that
the Petitioner did not know of any evidence supporting
Dr. Harlan’s conclusion. He said his attorney did not
object to the conclusion being in the presentence
report.
On cross-examination, the Petitioner identified a
letter dated February 5, 2005, from trial counsel to the
circuit court clerk stating that a motion for a new trial
would not be filed and that the sentence was the only
issue to be appealed. He agreed the letter showed that
a copy was sent to the Petitioner but said he never
received the letter. He said he believed the letter was
intentionally withheld, although he did not know if it
was withheld by counsel or by the correctional officers.
The Petitioner testified that he did not meet with
trial counsel after he was sentenced and that he
wanted counsel to appeal his conviction and sentence.
He denied his twenty-four-year sentence was a “pretty
good” outcome. He admitted that he met with counsel
at his home to prepare his trial testimony briefly and
that he met with counsel to discuss trial strategy. He
denied, though, that counsel told him there would be
an admission to manslaughter and said that he
thought the strategy was self defense.
The Petitioner testified that during his trial
testimony, he discussed the contested divorce and his
and the victim’s problems. He said he did not know the
victim was in his house when he punched her. He
denied knowing that counsel knew about Dr. Harlan’s

App-78
issues with the state medical board. He recalled
counsel’s cross-examining Dr. Harlan about his
conclusion that the victim died as a result of
suffocation and the lack of petechial hemorrhaging.
He said that many subjects, though, were not covered
during crossexamination, including the medical
board’s investigation.
The Petitioner testified that he was present for
jury selection and that the trial court asked the
potential jurors questions about their prior knowledge
of the Petitioner’s case. Although he recalled potential
jurors who said they knew about the Petitioner’s case,
he could not recall whether any of those potential
jurors were on the panel. He recalled that potential
jurors who stated they could not be impartial and had
already reached a conclusion about the Petitioner’s
guilt were excused from service.
The Petitioner testified that the victim had an
affair but denied that he had an affair. He said he
began dating someone after he filed for divorce. He
said that Mr. Rhoads’s testimony was “jumbled up and
mixed up and was not brought out accurately.” He said
counsel should have been prepared and talked to Mr.
Rhoads before the trial. He said that the manner in
which counsel asked Mr. Rhoads questions
misrepresented the facts, but he agreed Mr. Rhoads
testified truthfully.
The Petitioner testified that the victim and her
family attempted to control and manipulate him. He
acknowledged his trial testimony that he did not call
9-1-1 because he panicked. He said he did not testify
that he feared he would get “a raw deal” because he
feared retaliation from Deputies Dyer and Brewer and

App-79
the victim’s family. He denied lying during his trial
testimony and said he withheld some of the facts.
The Petitioner testified that the potential
witnesses he provided trial counsel would have been
character and fact witnesses and that he only provided
general information. A list of questions the Petitioner
prepared for each of the twenty-four people he wanted
counsel to call as witnesses was received as an exhibit.
The Petitioner testified that the trial court did not
mention the particles found in the victim’s lungs
during the sentencing hearing and agreed that this
court affirmed his sentence on grounds unrelated to
the particles in the victim’s lungs. He agreed this court
concluded that the Defendant bound the victim’s
hands and feet and covered her face with duct tape.
He said, though, that without the trial transcript, this
court only had the “misguidance of the contradicting
reports.” He agreed he bound the victim’s hands and
feet with duct tape and bound her face “all the way up
her forehead.” He agreed the children were in the
home sleeping when the victim was killed. He agreed
he testified that he buried the victim’s body in a
shallow grave on an island in the Tims Ford Lake area
and that he later had sex with his girlfriend. He said
his girlfriend clarified at the trial that they did not
have sex later that night. He could not recall if
information about the duct tape particles inside the
victim’s lungs was presented at the trial. He said,
though, that this court noted the discrepancies
between the presentence report and the autopsy
reports.
On redirect examination, the Petitioner testified
that he and the victim did not live together at the time

App-80
of the victim’s death and that they had been separated
for almost one year. He said that although he and the
victim agreed that they would not enter each other’s
home, the victim and her mother violated that
agreement several times. He said he understood that
this court enhanced his sentence based upon a finding
that the victim was treated with exceptional cruelty.
He agreed this court concluded that the victim
struggled to breathe, suffocated to death, and suffered
while she fought to survive and that the victim’s death
was the result of the method he used to kill the victim.
He said that Dr. Harlan did not testify that the victim
struggled and agreed that Dr. Harlan gave no opinion
with regard to whether the victim was conscious. He
noted that the victim suffered serious injuries from a
car accident, including a broken leg, before she died
and that Dr. Harlan did not mention those previous
injuries.
Barry Rhoads testified that he was a bi-vocational
pastor and an engineer, that he ministered to the
Petitioner and the victim, and that he testified at the
trial on the Petitioner’s behalf. He said trial counsel
did not interview him before the trial. He said he
spoke to the Petitioner as his pastor twice between the
time the victim disappeared and the time her body
was found. He said that during those conversations,
the Petitioner told him about the threats he received
and that he listened to one threat that was recorded
on the Petitioner’s answering machine. He said it was
a male voice telling the Petitioner to “stop this, stop
that, and if he didn’t there was going to be
consequences.” He said it was not a friendly message
and considered it to be a threat. He said the Petitioner
told him there had been other messages, too. He said

App-81
the Petitioner told him that he was followed on at least
two occasions, that someone damaged his home, and
that someone broke into his home through the back
door.
Mr. Rhoads testified that before the victim’s
death, the Petitioner brought his guns to Mr. Rhoads’s
home for safekeeping. He said the Petitioner feared
that the victim would take and sell the guns. He said
that before the victim’s death, the Petitioner
requested one of the handguns because the Petitioner
feared for his life. He recalled the Petitioner’s parking
behind the church and said the Petitioner told him
that he parked there to prevent the victim’s seeing
him and “causing a scene.” He recalled the Petitioner’s
telling him about the Petitioner’s tires being slashed
before the victim’s death. He said the Petitioner
believed it was an act of vandalism because it was on
the sidewall of the tire and looked like a knife or a
sharp objected was used to puncture the tire. He said
counsel did not ask about these events.
Mr. Rhoads testified that the Petitioner’s trial
was a “hot topic of conversation” in Franklin County
and that he was concerned whether the Petitioner
could receive a fair trial. He agreed the victim’s
parents were well known.
On cross-examination, Mr. Rhoads testified that
counsel told him they wanted to call him as a witness
at the trial but that counsel did not discuss pastoral
privileges with him. He said that he testified
truthfully at the Petitioner’s trial and that the
information he knew came from the Petitioner. He
said he knew the victim and her family through the

App-82
church community. He said they were well known
outside the church community.
Trial counsel testified that he had practiced law
for about thirty years and had handled several
criminal appeals. He said he did not find in his case
file any documentation showing that the Petitioner
waived his right to appeal his conviction and did not
recall receiving a waiver from the Petitioner. He said
co-counsel was a former member of his law firm and
no longer practiced law with him. He said that he and
co-counsel divided the work in preparing for the trial
and that they each had their respective
responsibilities. He said they worked together on the
case. He said co-counsel took responsibility for the
sentencing hearing and the appeal.
Trial counsel testified that he did not have a copy
of the trial transcript in his case file and that he did
not think he ever received a copy. He said that he
thought he and co-counsel believed it was in the
Petitioner’s best interest not to include the trial
transcript in the appellate record. With regard to the
presentence report, counsel recalled that the report
included a statement that Dr. Harlan found traces of
duct tape in the victim’s lungs and that he did not
recall if that was the first mention of traces of duct
tape being found there. He agreed no objections were
made to the statement.
Trial counsel testified that the Petitioner was
actively involved in his defense and that he provided
names of witnesses to testify at the trial on his behalf.
He said he, co-counsel, and co-counsel’s assistant
interviewed everyone on the list who “had anything
positive” that might have helped the case. He said he

App-83
did not recall speaking with any of the pastors
included in the list and did not find any memorandum
in the case file showing he talked to them. He said that
if someone provided relevant information, a
memorandum would have been prepared for the file
and that a memorandum might not have been
prepared if someone did not have relevant
information.
Trial counsel identified a letter from the
Petitioner about Mr. Rhoads’s testifying at the trial
and said that he and co-counsel reviewed the
Petitioner’s letters. He recalled a discussion about the
Petitioner’s receiving threats before the victim
disappeared and said he and co-counsel reviewed the
Petitioner’s divorce file with his divorce attorney and
used the relevant information. He said that self
defense was “not really consistent” with the facts of
how the Petitioner said the killing occurred. He said
the Petitioner stated that
somebody came up behind him in his house.
He knew that his wife was coming, because
she had called him, and said she was coming
by the house, and he knew she was coming.
Someone came in the house. He turned
around and hit this person multiple times,
knocking them out, then realized it was [the
victim]….
He said the Petitioner thought the victim was dead
and “for some reason” placed duct tape around her
face, nose, and mouth, and hid the body in the shed.
He agreed that if the jury believed those facts, it might
have convicted the Petitioner of reckless or negligent
homicide. He said, though, the problem was the

App-84
Defendant’s placing duct tape on the victim after she
was dead, which prevented arguing self defense or
negligent homicide.
Trial counsel testified that co-counsel interviewed
Dr. Harlan before the trial. He identified co-counsel’s
notes from the interview. He agreed co-counsel’s notes
stated that Dr. Harlan said less than ten of the 20,000
autopsies he had performed involved the use of duct
tape and that the victim was already dead in “most of
those cases.” He agreed that the notes stated that Dr.
Harlan “seem[ed] to suggest that the [d]uct tape [was]
the only evidence of … asphyxiation.” Counsel did not
recall if Dr. Harlan was asked whether the victims in
the ten cases involving duct tape were dead before or
after the tape was applied. He did not recall if Dr.
Harlan testified that he did not find any petechial
hemorrhaging in the lungs, eyes, neck, and face.
Trial counsel testified that the Petitioner’s case
was well publicized and that he did not recall
discussing a change of venue with the Petitioner. He
did not recall the prospective jurors stating that they
were familiar with the Petitioner’s case and said a jury
was picked from the people called for jury duty. He
agreed the trial transcript showed that a discussion
was held about “virtually every juror [who] … raised
their hands that they’d had some exposure” to the
Petitioner’s case. He denied being concerned about the
Petitioner’s ability to receive a fair trial in Franklin
County. He did not recall that one of the jurors said he
heard the case involved a “heinous crime.” He recalled
one juror was the victim’s co-worker and said counsel
had a previous connection with the juror, although he

App-85
could not recall how he knew the juror. He said he and
co-counsel were “comfortable” with the jury.
Trial counsel testified that he knew Dr. Harlan
was no longer the medical examiner and that he had
been disciplined by the medical board. He said cocounsel learned of Dr. Harlan’s problems before the
trial and recalled discussing “articles … about some
problems … or allegations.” He said that he
understood there were allegations against Dr. Harlan
but that the medical board had not made a final
determination. He agreed that it would be “beneficial
to impeach witnesses who have previously been
adjudicated to have made false statements, false
representations, and engaged in conduct constituting
fraud and deceit.” He said, though, that co-counsel
believed Dr. Harlan would provide some beneficial
testimony and that Dr. Harlan provided beneficial
information. He said that impeaching a witness who
gave favorable information was a judgment call. He
agreed the sole medical expert was Dr. Harlan. He
said co-counsel talked to Dr. Harlan more than once
before the trial.
On cross-examination, trial counsel testified that
he participated in many meetings with the Petitioner.
He said that during opening statements, co-counsel
told the jury that the Petitioner was guilty of
manslaughter, that the statement was part of their
strategy, and that he and co-counsel discussed with
other attorneys in their firm whether to make such a
statement. He said the discussions occurred long
before the trial. He agreed the strategy was
successfully used by another member in their firm. He
said that the strategy was discussed with the

App-86
Petitioner and that the Petitioner agreed with it. He
said asking the jury for a manslaughter conviction was
consistent with the Petitioner’s disposing and burying
the victim’s body in a remote location.
Trial counsel testified that although co-counsel
worked on the appeal, he and cocounsel discussed
what might be appealed. He said they agreed that the
best opportunity for appellate relief was to appeal the
sentence. He agreed this court reversed the trial
court’s ordering consecutive sentences and ordered
concurrent sentences. He said the Petitioner’s
sentence was reduced from thirty to twenty-four
years.
Trial counsel testified that there were no
communication problems with the Petitioner. With
regard to the list of witnesses the Petitioner provided
counsel before the trial, counsel said that his office
investigated the witnesses but that none of the
witnesses knew anything about the victim’s murder.
He said that during jury selection he raised the issue
of a fair trial with the trial court because he feared the
jurors were familiar with the Petitioner’s case. He said
that he wanted the court to allow individual
questioning of the jurors and that the court granted
his request. He said individually questioning jurors
was the standard procedure when pretrial exposure
was an issue. He said he had never been successful in
arguing for a change of venue.
Trial counsel testified that he did not think Mr.
Rhoads’s testimony conflicted with the Petitioner’s
testimony at the trial. With regard to counsel’s failure
to highlight the problems in the divorce case, he said
that he did not want to open the door to the divorce

App-87
because there were facts in the divorce file that would
have been unfavorable to the Petitioner.
On redirect examination, trial counsel testified
that with regard to self defense, jurors were instructed
to look at the facts from the defendant’s subjective
point of view. He recalled discussing the Petitioner’s
belief that he had been threatened. He did not recall
the Petitioner’s telling him about “lamps being
trashed” inside his home. He agreed that a previous
threat along with someone, whom he did not know,
coming up behind him inside his home might cause
someone to fear imminent bodily injury. He said,
though, that based on the Petitioner’s covering up the
victim’s death and the Petitioner’s behavior following
the killing, he believed the jury would have had a
difficult time believing the Petitioner acted in self
defense.
Trial counsel testified that before he told the jury
the Petitioner was guilty of manslaughter, he and cocounsel advised the Petitioner of his constitutional
right requiring the State to prove beyond a reasonable
doubt each element of manslaughter. He denied that
the Petitioner signed a written waiver. He said he and
co-counsel believed that was the Petitioner’s “best
shot” of avoiding a first degree murder conviction.
Trial counsel testified that Mr. Rhoads’s
testimony about how the killing occurred was different
from the Petitioner’s version. He agreed Mr. Rhoads
testified that the Petitioner said the victim was
“suddenly there in his face yelling.” He said he and cocounsel spoke to Mr. Rhoads “extensively” before the
trial. He said that he expected Mr. Rhoads’s testimony
to be more consistent with the Petitioner’s version.

App-88
Trial counsel testified that co-counsel’s license to
practice law was suspended. He denied that cocounsel’s suspension was based on the failure to
include the transcripts of the trial in the appellate
record.
On recross-examination, trial counsel testified
that people sometimes remembered things differently.
He said he and co-counsel did not want a new trial on
appeal because they did not want the Petitioner to face
the possibility of a first degree murder conviction in a
second trial. He believed there was a “substantial
likelihood” that the Petitioner would be convicted of
first degree murder during a second trial. He denied
that co-counsel appeared to be under the influence of
alcohol or other intoxicants during the trial or
appellate process. On further redirect examination,
counsel stated that he thought the Petitioner received
the best possible outcome during the first trial.
Co-counsel testified that he worked on the
Petitioner’s appeal, that the Petitioner’s sentence was
the only issue raised on appeal, and that the strategy
was discussed with the Petitioner before the trial and
before the deadline to file a motion for a new trial. He
said that all the pretrial issues were settled before the
trial, that six objections were made during the fourday trial, and that he did not find any appellate issues
with the trial, jury deliberations, or verdict. He stated
that he and the Petitioner discussed appealing only
the sentence and that the Petitioner did not say he
wanted his conviction appealed. He agreed the appeal
was successful in lowering the Petitioner’s sentence by
six years. He said he never included a trial transcript

App-89
in the appellate record when the sentence was the only
issue.
Co-counsel testified that although Dr. Harlan did
not testify that particles were found in the victim’s
lungs, the presentence report stated particles were
found in her lungs. He said he should have caught the
error. He said that he did a lot of research regarding
sentencing and that his primary focus was having this
court reverse the trial court’s ordering consecutive
sentencing.
Co-counsel testified that he discussed with trial
counsel and other attorneys in his firm the strategy to
tell the jury the Petitioner was guilty of manslaughter.
He said he used the strategy before when he worked
in the Judge Advocate General’s Office in the Navy
Department. He said the State had a “great” case
based upon circumstantial evidence and presented
approximately forty witnesses. He said he thought the
circumstantial evidence was going to “bury” the
Petitioner. He believed the Petitioner had to testify at
the trial to prevent his being convicted of first degree
murder. He said he and trial counsel believed that
admitting to voluntary manslaughter was the only
way to prevent a first degree murder conviction. He
said he and the Petitioner discussed the strategy
“about twenty-five times” in the year before the trial.
He said the Petitioner never stated that he did not
want counsel to use this strategy. He stated that with
regard to the Petitioner’s duct taping the victim’s
hands, feet, and face, placing the victim’s body in the
shed, and later placing the victim’s body in a boat and
burying her on an island, he argued the Petitioner’s

App-90
“incompetent[]”
premeditation.

behavior

showed

a

lack

of

Co-counsel testified that before the trial, he knew
generally about Dr. Harlan’s problems with the
medical board, although he denied knowing any
specifics. He said he and an associate met with Dr.
Harlan three or four months before the trial for about
five or six hours. He said he did not cross-examine Dr.
Harlan about his pending prosecution with the
medical board because Dr. Harlan gave counsel
exactly what they wanted. He said he spent much of
his cross-examination discrediting Dr. Harlan’s
conclusion that the victim suffocated, including
highlighting the lack of petechial hemorrhages. He
said Dr. Harlan had not lost his medical license at the
time of the trial.
Co-counsel testified that he did not ask for a
change of venue because he did not think the trial
court would grant the request. He said they addressed
their concern by individually questioning potential
jurors in an anteroom. He thought that any potential
jurors who were affected by the pretrial publicity were
excused from the panel and that they had the jury they
wanted.
Co-counsel testified that he did not ask Mr.
Rhoads to testify about the threats the Petitioner
received from the victim’s family months before the
killing because he made a tactical decision that the
threats were self-serving evidence and because the
evidence was inadmissible hearsay. He said he
thought some evidence of the threats was going to be
presented during the testimony of some of the State’s
witnesses. He said that the Petitioner and Mr. Rhoads

App-91
were close and that the Petitioner wanted Mr. Rhoads
to testify.
Co-counsel testified that self defense was not
supported by the facts. He said the victim only
weighed about 105 pounds. He said the Petitioner told
him that the victim had a “bad temper” but denied the
Petitioner’s telling him that the victim was “out to get
him, or … that he was seriously threatened by it.” He
did not recall the Petitioner’s discussing anything that
rose to the level of serious bodily injury or death. He
recalled, though, that the Petitioner thought people
entered his home and slashed his tires. He said he
spoke to someone at the sheriff’s department and
expressed the Petitioner’s concerns. Co-counsel stated
that he thought the Franklin County Sheriff’s
Department did a professional job in the Petitioner’s
case. He said an investigator was hired but did not
find evidence that any of the deputies threatened,
extorted, or intimidated the Petitioner.
Co-counsel testified that he did not file a petition
for a writ of error coram nobis when he learned that
Dr. Harlan’s medical license was suspended. He said
that Dr. Harlan’s credibility was not a “serious issue”
and that there was no new evidence related to the
victim’s autopsy.
On cross-examination, co-counsel testified that
his law license was suspended for fourteen months
because of a substance abuse problem and that he
received a censure for his failure to include the trial
transcript in the Petitioner’s appeal. He agreed he
pleaded guilty to theft over $10,000 as a result of
misappropriation of law firm money.

App-92
Co-counsel testified that he was primarily
responsible for the sentencing hearing and the appeal.
He said that he did not object to the statement in the
presentence report that duct tape particles were found
in the victim’s lungs. He agreed that Dr. Harlan never
made such a finding in his reports or testimony. He
agreed this court concluded in the appeal of the
Petitioner’s sentence that the trial court did not err in
finding that the victim was subjected to cruelty and
torture and in enhancing the Petitioner’s sentence. He
agreed this court concluded that the victim tried to
continue breathing and suffocated.
Co-counsel testified that he heard rumors about
Dr. Harlan’s bizarre behavior before the trial and
denied that he heard Dr. Harlan falsified records. He
denied knowing that Dr. Harlan was accused of not
performing a skeletal survey during a 2001 autopsy
and said if he and trial counsel would have known this
information, they would have “exploited it” at the
trial. He believed the allegation arose after the trial.
He said that he asked Dr. Harlan’s attorney about the
problems with the medical board.
Co-Counsel testified that Dr. Harlan could not
testify to a reasonable degree of medical certainty that
the victim struggled before her death. He agreed that
Dr. Harlan told him before the trial that he had
performed ten autopsies in which a victim had been
duct taped and that most of the victims were killed
before the duct tape was applied. He agreed he did not
cross-examine Dr. Harlan about these statements. He
agreed Dr. Harlan testified that the duct tape was the
only evidence of suffocation.

App-93
Co-counsel testified that at the trial, he did not
ask Mr. Rhoads about the threats because Mr. Rhoads
was the last witness and he thought the evidence was
self-serving. He said the evidence of the threats was
admitted through other witnesses. After reviewing the
trial transcript, he agreed that there were two
witnesses after Mr. Rhoads, that one of those
witnesses was Carla Zajac, the Petitioner’s sister, and
that she testified about the threats. He denied that a
jury might credit the testimony of the Petitioner’s
sister over that of a pastor. He agreed the Petitioner’s
letters stated that Mr. Rhoads could testify about the
Petitioner’s taking a handgun for protection because
of the threats he received and his parking behind Mr.
Rhoads’s church to avoid any problems with the victim
and her family. He said the Petitioner told him about
his tires being slashed and people breaking into his
home.
Co-counsel testified that he admitted during
opening statements that the Petitioner was guilty of
manslaughter, although he knew the Petitioner had
the right to have the State prove each element of an
offense beyond a reasonable doubt. He denied the
Petitioner signed a waiver of his constitutional right
to have the state prove each element of the offense. He
denied the Petitioner signed a waiver to appeal his
convictions.
Co-counsel testified that by not filing a notice of
appeal, he waived the right to raise sufficiency of the
evidence on appeal. He said that from the time the
Petitioner retained him to about six months after the
trial, the Petitioner’s version of events did not change.
He said he and trial counsel thought self defense and

App-94
criminally negligent homicide theories were not
believable and would sacrifice credibility with the
jury. He said the Petitioner told him that he expected
the victim to come to the Petitioner’s home after work
to pick up their children.
Co-counsel testified that he did not order a trial
transcript, although he knew the trial court was
required to look at the evidence presented at the trial
and the sentencing hearing and the information
contained in the presentence report when determining
the proper sentence. He said that although he did not
include a transcript of the trial in the appellate record,
he and trial counsel believed all the relevant
information and evidence was contained in the
sentencing hearing transcript. He denied receiving
letters from the Petitioner stating that he did or did
not want to waive his right to appeal his convictions.
Co-counsel testified that during jury selection,
almost all the potential jurors said they had heard
something about the Petitioner’s case and that ten of
the twelve jurors had some form of pretrial publicity
exposure. He agreed one of the jurors said during jury
selection that he thought it was a “heinous crime.” He
agreed another juror said he discussed this case with
a friend who worked with the county rescue squad and
agreed a third juror worked at the same place as the
victim.
Co-counsel testified that he interviewed Mr.
Rhoads many times before the trial and that Mr.
Rhoads’s testimony was consistent with his previous
interviews. He said he thought Mr. Rhoads’s
testimony that the Petitioner told him the victim was
“in his face yelling” was somewhat consistent with the

App-95
statements made during the interviews. He said Mr.
Rhoads’s testimony was consistent enough with the
Petitioner’s version of events.
On redirect examination, co-counsel testified that
he did not have a substance abuse problem during his
representation of the Petitioner. He said his substance
abuse stemmed from a spring 2007 car accident, which
was after the supreme court denied the Petitioner’s
application for permission to appeal. He agreed this
court relied on factors other than the statement in the
presentence report that Dr. Harlan found particles of
duct tape in the victim’s lungs.
The trial court denied relief. Regarding trial
counsel failing to appeal the Petitioner’s convictions,
the court concluded that counsel were not ineffective.
The court credited counsel’s testimony. It found that
trial counsel and co-counsel discussed the appeal and
concluded that there “were no legitimate issues to
appeal, other than sentencing issues.” Counsel agreed
that the acquittal of first degree murder was a success.
The court noted counsel’s success on appeal and the
sentence reduction from thirty to twenty-four years.
The court found that the Petitioner failed to present
evidence showing that a reasonable probability
existed that an appeal of his convictions would have
been successful.
With regard to counsel’s admitting the Petitioner
was guilty of voluntary manslaughter during opening
statements, the trial court concluded that the strategy
was “reasonably based” and that it would not “secondguess the well thought-out tactical defense decision.”
The court credited counsel’s testimony and concluded
that counsel were not deficient. It found that counsel

App-96
discussed this strategy with each other and other
attorneys in their firm. The court found that they were
“ethically locked into a certain set of facts … based on
the Petitioner’s admissions” to counsel “before the
victim’s body was found.” The court credited counsel’s
testimony that self-defense would have been difficult
to establish because of the Petitioner’s “elaborate
‘cover-up’” in concealing the victim’s body. The court
found that the strategy of admitting the Petitioner’s
guilt to manslaughter was discussed with the
Petitioner before the trial and that the Petitioner
agreed to the strategy. Counsel told the Petitioner that
he would be convicted of some level of homicide but
that the goal was to avoid a first degree murder
conviction. The court stated that the strategy was
“perhaps brilliant” and that given the amount of
evidence against the Petitioner, “the strategy likely
played a role in avoiding a first-degree murder
conviction.”
With regard to counsel’s failure to investigate Dr.
Harlan’s problems with the state medical board and
their failure to cross-examine Dr. Harlan adequately,
the trial court found that counsel were not deficient.
The court found that co-counsel discussed with Dr.
Harlan the autopsy findings before the trial. The court
found that although co-counsel was aware of the
allegations against Dr. Harlan, his medical license
was not permanently revoked until six months after
the Petitioner’s trial. It found that co-counsel chose
not to question Dr. Harlan about the medical board
proceedings because Dr. Harlan provided favorable
testimony about the cause of death and lack of
petechial hemorrhaging in the victim’s eyes. The court
found that co-counsel’s cross-examination was “within

App-97
the range of competence demanded of attorneys in
criminal cases” and that his failure to question Dr.
Harlan about the medical board proceedings was a
“reasonable tactic.”
With regard to the erroneous statement in the
presentence report regarding duct tape particles in the
victim’s lungs, the trial court found that co-counsel
admitted he should have seen the error and objected.
The court concluded that co-counsel was deficient by
failing to object. With regard to counsel’s failure to
include a trial transcript in the appellate record, the
court found that counsel were not deficient. The court
found that because co-counsel only appealed the
Petitioner’s sentence, he did not believe a transcript
was necessary for the relief sought and that the
evidence contained in the transcript might have
prevented appellate relief. The court found that cocounsel and trial counsel discussed whether to include
the transcript and agreed a transcript was not
required or beneficial to the sentencing issues. It noted
that although this court “included the incorrect ‘duct
tape in the lung’ comment when it discussed the
exceptional cruelty as a sentencing factor,” this court
included other factors supporting the enhancement
factor. The court concluded that the Petitioner failed
to establish that this court would have ruled
differently had counsel included the trial transcript on
appeal.
With regard to counsel’s failure to request jury
instructions on lesser included offenses, the trial court
concluded that counsel were not deficient. The court
found that counsel’s sound and reasonable trial
strategy of admitting guilt to voluntary manslaughter

App-98
prevented the court’s giving instructions on reckless
and criminally negligent homicide.
With regard to counsel’s failure to request a
change of venue after the Petitioner’s case received
pretrial publicity, the trial court found that counsel
were not deficient. The court credited counsel’s
testimony that counsel believed a motion for a change
of venue would be denied and that any concerns
related to the Petitioner’s ability to obtain a fair trial
were addressed through individual voir dire. The court
found that the Petitioner failed to present any
evidence that the jurors were “wrongly influenced by
pretrial publicity or notoriety.”
With regard to trial counsel’s failure to interview
Barry Rhoads adequately before the trial, the trial
court found that trial counsel and co-counsel
interviewed Mr. Rhoads before the trial and that they
thought Mr. Rhoads’s testimony would be consistent
with the Petitioner’s testimony at the trial. The court
stated that the trial transcript supported counsel’s
testimony.
The trial court discredited the Petitioner’s
testimony. It found that the Petitioner’s testimony
that he fabricated his version of events because of
threats and extortion was “totally unbelievable.” It
found that the Petitioner’s allegations that he was
threatened and extorted by two sheriff’s deputies was
“totally unsupported by any evidence, credible or
otherwise.” This appeal followed.
The burden in a post-conviction proceeding is on
the petitioner to prove his grounds for relief by clear
and convincing evidence. T .C.A. § 40-30-110(f) (2012).
On appeal, we are bound by the trial court’s findings

App-99
of fact unless we conclude that the evidence in the
record preponderates against those findings. Fields v.
State, 40 S.W.3d 450, 456-57 (Tenn.2001). Because
they relate to mixed questions of law and fact, we
review the trial court’s conclusions as to whether
counsel’s performance was deficient and whether that
deficiency was prejudicial under a de novo standard
with no presumption of correctness. Id. at 457. Postconviction relief may only be given if a conviction or
sentence is void or voidable because of a violation of a
constitutional right. T.C.A. § 40-30-103 (2012).
Under the Sixth Amendment, when a claim of
ineffective assistance of counsel is made, the burden is
on the Petitioner to show (1) that counsel’s
performance was deficient and (2) that the deficiency
was prejudicial. Strickland v. Washington, 466 U.S.
668, 687, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984); see
Lockhart v. Fretwell, 506 U.S. 364, 368-72, 113 S.Ct.
838, 122 L.Ed.2d 180 (1993). In other words, a
showing that counsel’s performance fell below a
reasonable standard is not enough because the
Petitioner must also show that but for the
substandard performance, a reasonable probability
exists that “the result of the proceeding would have
been different.” Strickland, 466 U.S. at 694. The
Strickland standard has been applied to the right to
counsel under article I, section 9 of the Tennessee
Constitution. State v. Melson, 772 S.W.2d 417, 419 n.
2 (Tenn.1989).
A petitioner will only prevail on a claim of
ineffective assistance of counsel after satisfying both
prongs of the Strickland test. Henley v. State, 960
S.W.2d 572, 580 (Tenn.1997). The performance prong

App-100
requires a petitioner raising a claim of ineffectiveness
to show that counsel’s representation fell below an
objective standard of reasonableness or “outside the
wide range of professionally competent assistance.”
Strickland, 466 U.S. at 690. The prejudice prong
requires a petitioner to demonstrate that “there is a
reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different.” Id. at 694. A reasonable
probability means a “probability sufficient to
undermine confidence in the outcome.” Id.
In Baxter v. Rose, 523 S.W.2d 930, 936
(Tenn.1975), our supreme court decided that attorneys
should be held to the general standard of whether the
services rendered were within the range of
competence demanded of attorneys in criminal cases.
Further, the court stated that the range of competence
was to be measured by the duties and criteria set forth
in Beasley v. United States, 491 F.2d 687, 696 (6th
Cir.1974), and United States v. DeCoster, 487 F.2d
1197, 1202-04 (D.C.Cir.1973). See Baxter, 523 S.W.2d
at 936. Also, in reviewing counsel’s conduct, a “fair
assessment of attorney performance requires that
every effort be made to eliminate the distorting effects
of hindsight, to reconstruct the circumstances of
counsel’s challenged conduct, and to evaluate the
conduct from counsel’s perspective at the time.”
Strickland, 466 U.S. at 689. “Thus, the fact that a
particular strategy or tactic failed or even hurt the
defense does not, alone, support a claim of ineffective
assistance.” Cooper v. State, 847 S.W.2d 521, 528
(Tenn.Crim.App.1992). Deference is made to trial
strategy or tactical choices if they are informed ones
based upon adequate preparation. Hellard v. State,

App-101
629 S.W.2d 4, 9 (Tenn.1982); see DeCoster, 487 F.2d at
1201.
I.
The Petitioner contends that co-counsel was
ineffective by failing to object to the erroneous
statement in the presentence report that duct tape
particles were found in the victim’s lungs and by
failing to include the trial transcript in the appellate
record. He argues that the failure to object to the
erroneous statement was compounded by the failure
to include the transcript in the appellate record in
order for this court to consider the appropriate
sentence. The State responds that the Petitioner was
not prejudiced by counsel’s failure to object to the
statement contained in the presentence report or
counsel’s failure to include the transcript. We agree
with the State.
We conclude that co-counsel was deficient by
failing to object to the erroneous statement included
in the presentence report. Co-counsel admitted his
deficiency at the postconviction hearing and said Dr.
Harlan did not testify at the trial about duct tape
particles found in the victim’s lungs. Co-counsel also
admitted that the autopsy report did not include such
a finding. In addressing the trial court’s enhancement
of the Petitioner’s sentence based on his treating the
victim with exceptional cruelty, this court looked to
factors other than the presence of duct tape particles
in the victim’s lungs. This court concluded that the
enhancement factor was properly applied because the
Petitioner bound the victim’s hands and feet, covered
her mouth and nose with duct tape, and killed the
victim while their children were sleeping upstairs. See

App-102
Lonnie Lee Owens, slip op. at 6. Although this court
included the improper statement in its reasoning for
upholding the trial court’s sentence enhancement,
there were other factors upon which the court relied.
At the trial, Dr. Harlan testified that the victim’s
wrists, ankles, and head were duct taped, that the
wrists were taped behind the victim’s back, and that
the tape around the head was wrapped in a circular
pattern and covered the nose, mouth, and the upper
portion of the chin. Dr. Harlan concluded that the
cause of death was suffocation because the duct tape
blocked the victim’s nose and mouth. He stated that
had the victim been struck in the head with enough
force to cause her death, he would have expected to
find bleeding beneath the outer membrane
surrounding the brain, bruising to the brain, fractures
to the skull or face, or tearing of the skin. He found no
evidence of these injuries and excluded blunt force
trauma as the victim’s cause of death. Dr. Harlan did
not find evidence of petechial hemorrhaging in the
victim’s eyes but stated that petechia was not always
present after suffocation and that the condition of the
victim’s eyes were poor because of exposure. We
cannot conclude that a reasonable probability exists
that the sentencing outcome would have been
different had counsel objected to the statement in the
presentence report.
With regard to trial counsel’s failure to include a
trial transcript in the appellate record because he
thought the transcript would prevent this court’s
granting sentencing relief, his decision would have the
opposite effect. “[T]here is a duty to prepare a record
which conveys a fair, accurate and complete account of

App-103
what transpired with respect to the issues forming the
basis of the appeal.” State v. Ballard, 855 S.W.2d 557,
560 (Tenn.1993) (citing State v. Bunch, 646 S.W.2d
158, 160 (Tenn.1983)). Although counsel only
appealed the Petitioner’s sentence, the trial
proceedings were relevant to the issue of enhancing
the petitioner’s sentence. See T.C.A. § 40-35-210(b)(1)
(2010) (requiring a trial court to consider evidence
presented at the trial in making its sentencing
determinations).
Counsel’s
failure
constituted
deficient performance. Although the presentence
report refers to Dr. Harlan’s conclusion on the victim’s
cause of death, the trial transcript would have
highlighted the inaccurate statement in the
presentence report regarding the duct tape particles
being found in the victim’s lungs. The discrepancy
went unnoticed because counsel failed to include the
trial transcript in the appellate record. We agree,
though, that the victim was treated with exceptional
cruelty and cannot conclude that a reasonable
probability exists that but for counsel’s deficient
performance, the result of the proceeding would have
been different. The Petitioner has failed to establish
prejudice.
II.
The Petitioner contends that co-counsel was
ineffective by cross-examining Dr. Charles Harlan
inadequately. He argues that co-counsel failed to elicit
favorable testimony about the victim’s cause of death
and failed to question Dr. Harlan about the pending
proceedings to revoke his medical license. The State
responds that co-counsel’s crossexamination was

App-104
professionally reasonable and did not prejudice the
Petitioner. We agree with the State.
Dr. Charles Harlan testified at the trial that the
victim’s cause of death was suffocation because he
found no diseases or injuries consistent with blunt
force trauma and because the victim’s airway was
blocked by duct tape. During co-counsel’s crossexamination, Dr. Harlan testified that of the many
thousands of autopsies he had performed, less than
ten involved suffocation by duct tape. He said that
although he concluded the cause of death was
suffocation, he did not find any evidence supporting
his conclusion other than the duct tape over the
victim’s mouth and nose. Dr. Harlan could not state
with a reasonable degree of medical certainty that the
victim was conscious before the duct tape was applied.
He stated that a person could receive a “blow” that
caused unconsciousness but did not “leave a mark.” He
agreed that someone who was unconscious might look
dead.
Dr. Harlan testified that petechial hemorrhaging
was caused when the smallest blood vessels in the
body ruptured and that it could be seen in the eyes as
a result of suffocation. He said, though, that petechia
was not required to diagnose suffocation. He said
petechia supported such a conclusion but was not
necessary. Dr. Harlan did not see petechia in the
victim’s eyes, face, lungs, or neck.
The Petitioner argues that co-counsel should have
questioned Dr. Harlan about the ten cases in which he
performed autopsies involving duct tape and his
conclusions that most of the victims were dead before
the tape was applied. The Petitioner also argues that

App-105
co-counsel should have questioned Dr. Harlan about
his failure to find evidence that the victim “thrash[ed]
around” when Dr. Harlan told co-counsel before the
trial that individuals who die as a result of suffocation
“thrash around.” We cannot conclude that co-counsel
was deficient by failing to ask Dr. Harlan these
questions.
Co-counsel
highlighted
during
crossexamination that although Dr. Harlan concluded
the victim suffocated, there was no evidence
supporting his conclusion other than the duct tape. Dr.
Harlan could not determine if the victim was conscious
or unconscious when the duct tape was applied to the
victim’s hands, feet, and face. He agreed it was
possible for a victim to receive a blow that caused
unconsciousness but left no evidence of an internal or
external wound. Dr. Harlan found no evidence of
petechia but concluded suffocation did not always
result in petechial hemorrhaging. Co-counsel
presented evidence that it was possible the victim’s
cause of death was not suffocation as Dr. Harlan
concluded and that she was rendered unconscious by
a blunt force trauma, preventing the victim’s
struggling.
With regard to co-counsel’s failure to impeach Dr.
Harlan with the pending proceeding to revoke Dr.
Harlan’s medical license, we cannot conclude that cocounsel provided deficient performance. The
Petitioner’s trial was held in November 2004, and Dr.
Harlan’s medical license was permanently revoked in
May 2005. Although co-counsel knew about the
pending proceedings, he denied knowing the
substance of the allegations and said he contacted Dr.
Harlan’s attorney before the trial to investigate the
pending proceedings.

App-106
In any event, co-counsel elicited favorable
testimony about whether the victim suffocated and
whether the victim was conscious at the time the duct
tape was applied. Cocounsel made the tactical decision
not to question Dr. Harlan about the pending medical
board proceeding because Dr. Harlan gave counsel
exactly what counsel wanted. Because co-counsel
made an informed tactical decision, we cannot
conclude
that
co-counsel
provided
deficient
performance. See Hellard, 629 S.W.2d at 9.
III.
The Petitioner contends that trial counsel was
ineffective by “attempting to negotiate a plea
agreement in the jury’s presence.” He argues that he
did not waive his right requiring the State to prove
that he acted with the required mens rea and intent
for voluntary manslaughter. The State responds that
counsel’s decision to acknowledge voluntary
manslaughter in the jury’s presence was a tactical and
strategic decision and did not constitute deficient
performance. We agree with the State.
After the indictment was read, co-counsel
attempted to enter a plea to voluntary manslaughter.
The trial court rejected the plea and submitted the
case to the jury. During co-counsel’s opening
statement, counsel discussed the elements of first and
second degree murder and told the jurors that the
Petitioner accepted responsibility for voluntary
manslaughter, a killing in the heat of passion with
adequate provocation.
Although the Petitioner did not sign a written
waiver allowing trial counsel to argue before the jury
that he was guilty of voluntary manslaughter,

App-107
counsel’s credited testimony was that the Petitioner
consented to the trial strategy. Co-counsel stated that
this strategy was discussed with the Petitioner “about
twenty-five times” in the year before the trial. He said
the Petitioner never stated that he did not want
counsel to use this strategy. Trial counsel said his
attempting to plead guilty to voluntary manslaughter
and asking the jury for a manslaughter conviction
during opening statements was part of their strategy.
Counsel discussed the strategy with other attorneys in
their firm long before the trial. Trial counsel stated
that the strategy was discussed with the Petitioner
and that the Petitioner agreed the strategy might be
successful. Counsel advised the Petitioner of his
constitutional right requiring the State to prove
beyond a reasonable doubt each element of
manslaughter. Counsel believed that this strategy
was the Petitioner’s “best shot” of avoiding a first
degree murder conviction and that manslaughter was
consistent with the Petitioner’s burying the victim’s
body in a remote location. We cannot conclude that the
evidence preponderates against the trial court’s
conclusion that the strategy was reasonable given the
facts of the case.
IV.
The Petitioner contends that trial counsel
provided ineffective assistance by failing to request
jury instructions on the lesser included offenses of
criminally negligent and reckless homicide. He argues
that although the trial court stated that it would not
instruct the jury on any lesser included offenses of
voluntary
manslaughter
based
on counsel’s
statements during opening statements and closing

App-108
arguments, counsel should have objected to the court’s
refusal. The State responds that counsel were not
ineffective. We agree that the Petitioner is not entitled
to relief.
In criminal cases, the trial court has the duty to
charge the jury on all the law that applies to the facts
of the case. See State v. Harris, 839 S.W.2d 54, 73
(Tenn.1992) (citing State v. Thompson, 519 S.W.2d
789, 792 (Tenn.1975)). The Defendant also “has a right
to have every issue of fact raised by the evidence and
material to his defense submitted to the jury upon
proper instructions by the judge.” Thompson, 519
S.W.2d at 792; see T.C.A. § 39-11-203(c) (2010)
(entitling a defendant to have the issue of the
existence of a defense submitted to the jury when it is
fairly raised by the proof). An erroneous jury
instruction may deprive the defendant of the
constitutional right to a jury trial. See State v.
Garrison, 40 S.W.3d 426, 433-34 (Tenn.2000). A jury
instruction must be reviewed in its entirety and read
as a whole rather than in isolation. State v. Leach, 148
S.W.3d 42, 58 (Tenn.2004). An instruction will be
considered prejudicially erroneous only if it fails to
submit the legal issues fairly or misleads the jury as
to the applicable law. State v. Faulkner, 154 S.W.3d
48, 58 (Tenn.2005) (citing State v. Vann, 976 S.W.2d
93, 101 (Tenn.1998)). A trial court should give an
“instruction if it is supported by the evidence,
embodies a party’s theory, and is a correct statement
of the law.” State v. Phipps, 883 S.W.2d 138, 150 n. 20
(Tenn.Crim.App.1994).
Counsel
may
provide
ineffective assistance by failing to request jury
instructions on applicable lesser included offenses.

App-109
Jimmy Dale Hogan v. State, No. M2007-02104-CCARM-CD, slip op. at 2-3 (Tenn.Crim.App. Aug.12, 2008).
Trial counsel’s credited testimony shows that he
believed the Petitioner’s duct taping the victim’s
hands, feet, and face, hiding the victim’s body in a
shed, burying the victim’s body on a remote lake
island, and concealing the victim’s death made it
difficult for counsel to argue in favor of reckless
homicide, negligent homicide, and self defense.
Admitting guilt to manslaughter was part of counsel’s
strategy, and the Petitioner agreed to concede guilt.
The strategy was discussed with other attorneys in
counsel’s firm and contemplated for about one year
before the trial. Counsel thought voluntary
manslaughter was consistent with the Petitioner’s
disposing and burying the victim’s body in a remote
location and was the best strategy to avoid a first
degree murder conviction. Co-counsel’s credited
testimony shows that he also thought the Petitioner’s
only chance of avoiding a first degree murder
conviction was to admit guilt to voluntary
manslaughter. The strategy was discussed with the
Petitioner numerous times in the year leading to the
trial, and the Petitioner never told counsel that he did
not want to admit guilt to manslaughter.
The Petitioner testified at the trial that he was
home with his children when he heard the voice of
someone he did not know behind him and that he
reacted by hitting the person. The Petitioner said that
by the time he realized it was the victim, she was
already dead and that he panicked. We conclude that
regardless of counsel’s admitting guilt to voluntary
manslaughter, counsel should have requested jury

App-110
instructions on reckless and criminally negligent
homicide because they were supported by the trial
testimony and did not conflict with the Petitioner’s
theory of the case. Failure to request these
instructions was deficient performance. We also
conclude that the trial court should have provided the
instructions regardless of counsel’s failure to request
them. We conclude, though, that the Petitioner has not
established prejudice based on the jury’s finding the
Petitioner guilty of second degree murder. The jury
rejected voluntary manslaughter. See State v.
Williams, 977 S.W.2d 101, 104-07 (Tenn.1998).
V.
The Petitioner contends that trial counsel and cocounsel were ineffective by failing to interview Barry
Rhoads before the trial. Alternatively, he contends
that if counsel interviewed Mr. Rhoads before the
trial, counsel were ineffective by failing to investigate
adequately the substance of Mr. Rhoads’s trial
testimony. He argues that counsel should have
presented evidence that the Petitioner felt threatened
and that counsel should not have questioned Mr.
Rhoads about the substance of the Petitioner’s
confession because it undermined the Petitioner’s
claim of self defense. The State responds that Mr.
Rhoads was interviewed before the trial and that
counsel were not deficient. We agree with the State.
Although counsel does not have an absolute duty
to investigate particular facts or a certain line of
defense, counsel has a duty to make a reasonable
investigation or to make a reasonable decision that
makes a particular investigation unnecessary.
Strickland, 466 U.S. at 691. Counsel is not required to

App-111
interview every conceivable witness. See Hendricks v.
Calderon, 70 F.3d 1032, 1040 (9th Cir.1995).
Furthermore,
no particular set of detailed rules for counsel’s
conduct can satisfactorily take account of the
variety of circumstances faced by defense
counsel. Rather, courts must judge the
reasonableness of counsel’s challenged
conduct on the facts of the particular case,
viewed as of the time of counsel’s conduct, and
judicial scrutiny of counsel’s performance
must be highly deferential.
Roe v. Flores-Ortega, 528 U.S. 470, 477, 120 S.Ct.
1029, 145 L.Ed.2d 985 (2000) (internal citations and
quotations omitted).
A reasonable investigation does not require
counsel to “leave no stone unturned.” Perry Anthony
Cribbs v. State, No. W2006-01381-CCA-R3-PD, slip
op. at 57 (Tenn.Crim.App. July 1, 2009), perm. app.
denied
(Tenn.
Dec.
21,
2009).
Rather,”[r]easonableness should be guided by the
circumstances of the case, including information
provided by the defendant, conversations with the
defendant, and consideration of readily available
resources.” Id. The United States Supreme Court has
said, “inquiry into counsel’s conversations with the
defendant may be critical to a proper assessment of
counsel’s investigation decisions, just as it may be
critical to a proper assessment of counsel’s other
litigation decisions.” Strickland, 466 U.S. at 691.
Counsel interviewed Mr. Rhoads “extensively.”
Counsel were aware of the threats the Petitioner
claimed to have received and reviewed the Petitioner’s

App-112
divorce attorney’s file. Counsel concluded that
although the threats could have supported a self
defense theory, the facts of how the Petitioner said the
killing occurred were inconsistent with self defense.
Although the evidence could have been used to show
the Petitioner’s state of mind at the time of the killing,
counsel decided not to question Mr. Rhoads about the
threats. Counsel did not highlight the threats and the
Petitioner’s divorce because they did not want to open
the door to the State’s asking Mr. Rhoads questions
about the divorce. Trial counsel concluded that the
divorce case involved facts that were unfavorable to
the Petitioner’s first degree murder trial.
We note that the divorce file is not included in the
appellate record and that counsel did not testify at the
post-conviction hearing about the substance of the
divorce file or the unfavorable facts they feared coming
into evidence. Likewise, the record does not contain
evidence supporting counsel’s conclusion that the
information contained in the divorce file would have
been admissible at the trial. As a result, we cannot
conclude that counsel made a reasonable, tactical
decision without proof of the information counsel
feared would be admitted at the trial and thought
would damage the Petitioner’s case. In any event,
evidence of the threats was presented during the
testimony of the Petitioner’s sister, Carla Zajac.
Counsel thought Mr. Rhoads’s testimony would be
consistent with the Petitioner’s trial testimony,
although Mr. Rhoads testified that before the killing
the Petitioner said the victim was “in his face yelling.”
We conclude that without evidence about the
information in the divorce file that concerned counsel,
we cannot disagree with the trial court’s crediting

App-113
counsel’s decision not to question Mr. Rhoads about
the threats.
VI.
The Petitioner contends that counsel were
ineffective by failing to request a change of venue. He
argues that counsel should have requested a change of
venue because of the pretrial publicity. The State
responds that counsel provided the effective
assistance of counsel. We agree that the Petitioner is
not entitled to relief.
A change of venue may be granted when it
appears that because of “undue excitement against the
defendant in the county where the offense was
committed or any other cause, a fair trial probably
could not be had.” Tenn. R.Crim. P. 21(a). The decision
to grant a motion for a change of venue is within the
sound discretion of the trial court and will only be
reversed upon an abuse of discretion. State v. Howell,
868 S.W.2d 238, 249 (Tenn.1993). A change of venue
is not warranted merely because jurors have been
exposed to pretrial publicity. State v. Mann, 959
S.W.2d 503, 531-32 (Tenn.1997). Jurors “can have
knowledge of the facts surrounding the crime and still
be qualified to sit on the jury.” State v. Crenshaw, 64
S.W.3d 374, 386 (Tenn.Crim.App.2001). “The test is
‘whether the jurors who actually sat and rendered
verdicts were prejudiced by the pretrial publicity.’” Id.
(quoting State v. Kyger, 787 S.W.2d 13, 18-19
(Tenn.Crim.App.1989)).
With regard to whether counsel should have
requested a change of venue, counsel did not think a
change of venue would be granted. Trial counsel had
never successfully argued for a change of venue. Co-

App-114
counsel said that although a change of venue was not
requested, any concerns about the pretrial publicity
were addressed during voir dire. We cannot conclude
that the Petitioner was prejudiced by counsel’s failure
to request a change of venue.
Counsel raised their concern about the impact of
the pretrial publicity, and the trial court allowed
counsel and the prosecutor to voir dire in chambers
each potential juror who indicated knowing about the
Petitioner’s case. The jurors who were prejudiced
against the Petitioner because of the pretrial media
exposure were excused from service. Counsel were
satisfied with the jury empaneled to decide the case.
During voir dire, many of the potential jurors
indicated that they had been exposed to various forms
of pretrial publicity. Of the jurors who were
questioned in chambers, two indicated that they had
formed an opinion about the Petitioner’s guilt based
on the pretrial publicity and were excused from
service. The information reported by the jurors
included hearing that “the body was dumped,” that the
Petitioner was suspected of killing his wife, that the
victim’s body was found on a lake island, and that the
victim was missing for a period of time.
One juror admitted working at the same company
where the Petitioner worked but denied knowing the
Petitioner. Another juror stated that a friend, who
worked for the rescue squad, told him that he was part
of the group that found the victim’s body. He denied
hearing any statements about who killed the victim
and having formed an opinion about the Petitioner’s
guilt. Another juror stated that her adult children told
her about the victim’s being missing and that she

App-115
heard about the case on the radio. She said her
children went to school with someone whose last name
was Owens but did not know if that person was related
to the victim. She denied forming an opinion about the
Petitioner’s guilt.
Although the Petitioner raises issue with jury
selection generally, he addresses the individual voir
dire of juror Wayne Signs. Mr. Signs stated that he
heard about the Petitioner’s case in the newspapers
and by talking to people in the community. He denied
talking to anyone who claimed to be a witness in the
case or remembering the substance of the newspaper
articles. He said that he probably formed an opinion
about the case when the victim’s death was initially
reported in the news but that he had no opinion of the
case at the time of voir dire. He said his initial opinion
was that this was a “heinous crime” but denied
forming an opinion about whether the Petitioner was
innocent or guilty. He said he could evaluate the case
based solely on the evidence and the trial court’s
instructions.
Although the jurors were exposed to pretrial
publicity, the record shows that the jurors empaneled
had not formed an opinion about the case or the
Petitioner’s innocence or guilt and were capable of
evaluating the case based on the evidence presented
and the trial court’s instructions. We conclude that the
Petitioner has failed to establish that the jurors were
wrongly influenced by pretrial publicity. The
Petitioner is not entitled to relief.
VII.
The Petitioner contends that counsel were
ineffective by failing to file a motion for a new trial and

App-116
by failing to appeal his conviction. He argues that
counsel’s failure to file the motion for a new trial and
to appeal his convictions prevented appellate review of
the sufficiency of the evidence and that the evidence is
insufficient. He also argues that James Koski’s
testimony at the trial about a statement the Petitioner
made five years before the victim’s death violated
Tennessee Rule of Evidence 403 and that counsel
waived the issue by failing to file the motion and to
appeal his convictions. The State responds that the
Petitioner was not denied his right to appeal his
conviction. We agree that the Petitioner is not entitled
to relief.
The record shows that counsel and the Petitioner
discussed whether to appeal the Petitioner’s
convictions and that they agreed the best opportunity
for appellate relief was to appeal the sentence.
Although trial counsel testified that he feared the
Petitioner would be tried again for first degree murder
if this court granted relief from the conviction, a
wholly unfounded fear given double jeopardy
protections, co-counsel denied this was a factor in
determining whether to appeal the conviction. Cocounsel, who worked on the Petitioner’s appeal, did
not think there were any meritorious issues regarding
the conviction. The Petitioner argues counsel should
have raised sufficiency of the evidence and an
evidentiary issue on appeal. We cannot conclude that
the Petitioner was prejudiced.
With regard to the sufficiency of the evidence, we
conclude that the evidence was sufficient to sustain
the Petitioner’s conviction for second degree murder.
See T.C.A. § 39-13-210 (2010) (stating that second

App-117
degree murder is the knowing killing of another); see
also T.C.A. § 39-11-106(20) (2010) (stating that “[a]
person acts knowingly with respect to a result of the
person’s conduct when the person is aware that the
conduct is reasonably certain to cause the result”). The
evidence showed that the Petitioner admitted striking
the victim in the head, duct taping her hands and feet,
duct taping her face from her nose to her chin,
concealing her body, transporting her body to an
island on Tim’s Ford Lake, and burying the victim’s
body in a shallow grave. Various witnesses testified
about the Defendant and the victim’s pending divorce,
inability to get along around the time of the victim’s
disappearance, and fighting over their two children.
The victim was last seen leaving work at 3:11 p.m.
the day she disappeared. Greg Arp, the victim’s
coworker and boyfriend, and the victim discussed
their evening plans during their lunch break. The
victim called the Petitioner’s home to speak with her
children during lunch, but the Petitioner did not allow
her to speak with them. Mr. Arp said that after work,
the victim was supposed to pick up her children at the
Petitioner’s home, bring the children to Mr. Arp’s
home, and go to dinner together. Mr. Arp called the
victim’s cell and home phones around 3:30 or 4:00 p.m.
because the victim had not arrived at his home with
her children. He said that he was unable to reach her
and that the victim did not return his calls.
Kara Matthews, the Petitioner’s girlfriend at the
time of the killing, said she arrived at the Petitioner’s
home around 4:30 or 5:00 p.m. the day the victim
disappeared and that the Petitioner was pacing the
kitchen floor, was sweating, and was nervous. The

App-118
Petitioner told her a story about some of his friends
suggesting that they steal the victim’s truck. The
Petitioner told her that he believed they were joking
but that someone arrived at his home with the victim’s
keys thirty minutes before she arrived. The Petitioner
said his friends left the truck in Kroger’s parking lot.
Ms. Matthews said the Petitioner requested that she
drive him to the parking lot to find the victim’s truck.
She said that the truck was in the Advanced Auto
Parts’ parking lot, which was in the same strip mall as
Kroger. She stated that the Petitioner got into the
truck, that he told her he was going to take the truck
back to his friend, and that she followed him. She said
the Petitioner drove the truck to “Smokehouse and
hotel” and wiped the steering wheel and the door with
a cloth. He left the keys inside the truck. She said they
went to buy fast food. She said the Petitioner acted
“normal” after they left the truck. She stated that after
they returned home, the Petitioner asked her to watch
his children for a while.
The Petitioner told Mr. Rhoads that he killed the
victim. According to Mr. Rhoads’s testimony, the
Petitioner said he had just put the children down for
their naps when the victim appeared in the kitchen.
The Petitioner stated that the victim was yelling at
him and that before he knew what happened, he hit
the victim, who fell to the floor. The cause of death,
though, was suffocation. The medical examiner
concluded the victim suffocated from the duct tape
obstructing her airway. The autopsy did not show
evidence of blunt force trauma to the victim’s head,
contradicting the Petitioner’s version of events. We
conclude the evidence was sufficient.

App-119
With regard to the evidentiary issue, James Koski
testified about his and the Petitioner’s familiarity with
Tim’s Ford Lake, their fishing the area, and their
discussing camping in the area where the victim’s
body was found. He stated that in 1999, about four or
five years before the killing, the Petitioner told him
about his marital problems. He said the Petitioner told
him that the victim could leave but that the Petitioner
would kill her if she attempted to take his children. He
agreed he did not think the Petitioner was serious
about killing the victim. Counsel objected to the
testimony as being too remote in time in relation to
the killing. The court overruled the objection.
Tennessee Rule of Evidence 403 states that
“[a]lthough relevant, evidence may be excluded if its
probative value is substantially outweighed by the
danger of unfair prejudice….” We conclude that
although the statement was made four or five years
before the victim’s death, the trial court did not err by
admitting the statement. See State v. Wilson, 164
S.W.3d 355 (Tenn.Crim.App.2003) (concluding that
the trial court did not err by admitting evidence of a
five-year-old protective order awarding the victim
custody of the defendant’s son because the order was
relevant to the issue of motive to commit murder).
Other witnesses testified about the marital difficulties
between the Petitioner and the victim, including the
Petitioner’s desire to maintain custody of his children.
The Petitioner is not entitled to relief.
VIII.
The Petitioner contends that the cumulative effect
of counsel’s errors deprived him of the effective
assistance of counsel. The State responds that the

App-120
cumulative error doctrine does not apply. We agree
that the Petitioner is not entitled to relief.
Our supreme court has stated that “‘the
combination of multiple errors may necessitate the
reversal … even if individual errors do not require
relief.’” State v. Jordan, 325 S.W.3d 1, 79 (Tenn.2010)
(quoting State v. Cribbs, 967 S.W.2d 773, 789
(Tenn.1998)). This court has stated, “when an attorney
has made a series of errors that prevents the proper
presentation of a defense, it is appropriate to consider
the cumulative impact of the errors in assessing
prejudice.” Timothy Terell McKinney v. State, W200602132-CCA-R3-PD, slip op. at 37 (Tenn.Crim.App.
Mar. 9, 2010) (citing Harris ex rel Ramseyer v. Wood,
64 F.3d 1432, 1438 (9th Cir.1995), cert. denied, 490
U.S. 1075, 109 S.Ct. 2088, 104 L.Ed.2d 651 (1989)),
perm. app. denied (Tenn. Aug. 25, 2010). “The
reviewing court does not ask as to whether the
defendant is innocent of the crime. The question
remains whether the defendant was deprived of a
reasonable chance of acquittal due to his counsel’s
performance.” Id.
We have concluded that counsel were deficient by
failing to object to the erroneous statement contained
in the presentence report, by failing to include the trial
transcript in the appellate record, by failing to request
jury instructions on reckless and criminally negligent
homicide, by failing to file a motion for a new trial and
to appeal the second degree murder conviction, and by
failing to request a change of venue. We have also
concluded that the Petitioner failed to establish
prejudice on each of these grounds. We cannot
conclude, though, that there was cumulative error,

App-121
that the Petitioner was deprived of the effective
assistance of counsel, or that he was deprived of a
reasonable chance of acquittal.
IX.
The Petitioner contends that he is entitled to a
delayed appeal. He argues that counsel failed to
comply with Tennessee Rule of Criminal Procedure
37(d)(2) and that counsel failed to withdraw as counsel
of record, preventing the Petitioner from appealing his
conviction pro se. The State responds that the
Defendant is not entitled to a delayed appeal. We
agree with the State.
Tennessee Rule of Criminal Procedure 37(d)(2)
states that
[b]efore a judgment on the guilty verdict
becomes final the following shall be done: If
a[ ] … defendant who has the right to appeal
a conviction chooses to waive the appeal,
counsel for the defendant shall file with the
clerk, during the time within which the notice
of appeal could have been filed, a written
waiver of appeal, which must
(A) clearly reflect that the defendant is aware
of the right to appeal and voluntarily waives
it;
(B) be signed by the defendant and the
defendant’s counsel of record.
The evidence shows that counsel failed to obtain a
written waiver from the Petitioner showing his intent
to waive an appeal of his conviction for second degree
murder. We cannot conclude, though, that the
Petitioner is entitled to a delayed appeal.

App-122
A petitioner is entitled to a delayed appeal under
the Post-Conviction Procedure Act when the petitioner
has been “denied the right to an appeal from the
original conviction.” T.C.A. § 40-30-113(a) (2012); see
State v. Evans, 108 S.W.3d 231, 235-36 (Tenn.2003). A
delayed appeal may be granted when the petitioner
has been denied the effective assistance of counsel in
violation of the Sixth Amendment to the United States
Constitution and Article I, section 9 of the Tennessee
Constitution. Wallace v. State, 121 S.W.3d 653, 656
(Tenn.2003). Appellate courts determine whether
there has been a denial of the effective assistance of
counsel by applying the two-pronged test established
in Strickland v. Washington.
Although counsel failed to comply with Rule 37(d),
counsel sought appellate relief with regard to the
Petitioner’s sentence and informed the Petitioner of
his right to appeal his conviction. Counsel and the
Petitioner agreed the best course of action was to
appeal only his sentence. Co-counsel stated that the
Petitioner never expressed a desire to appeal his
conviction.
Counsel discussed with another attorney in their
firm and the Petitioner whether to appeal the
Petitioner’s conviction and decided the best
opportunity for appellate relief was to appeal his
sentence and agreed there were no other meritorious
issues to raise on appeal. Counsel discussed the
strategy with the Petitioner before the trial and before
the deadline to file the motion for a new trial. Counsel
noted that six objections were made during the trial
and that he did not believe they were worthy of
appellate relief. Although trial counsel incorrectly

App-123
feared that the Petitioner could be tried for first
degree murder if an appeal of his conviction were
successful, trial counsel was not responsible for the
appeal. Co-counsel denied this was the reason he did
not appeal the Petitioner’s conviction. Co-counsel
believed that given the evidence of the Petitioner’s
duct taping the victim’s hands, feet, and face, hiding
her body, burying her body in a shallow grave on a
lake island, and the witness testimony prevented a
successful appeal of his conviction. We previously
concluded that counsel were deficient by failing to
include the trial transcript in the appellate record and
that the evidence was sufficient to sustain the
Petitioner’s conviction for second degree murder. We
note that a trial court is required to consider the
evidence presented at the trial in making its
sentencing determination, making the trial transcript
relevant for appellate relief of sentencing. See T.C.A.
§ 40-35-210(b)(1) (2010). The Petitioner failed to
present any evidence at the post-conviction hearing
showing there was a reasonable probability that an
appeal of his conviction would have been successful.
The Petitioner is not entitled to relief.
In consideration of the foregoing and the record as
a whole, the judgment of the trial court is affirmed.

App-124
Appendix D
COURT OF CRIMINAL APPEALS OF
TENNESSEE, AT NASHVILLE
________________
No. M2005-00362-CCA-R3-CD
________________
STATE OF TENNESSEE,
v.
LONNIE LEE OWENS.
________________
Dated: October 18, 2005
________________
OPINION
DAVID H. WELLES, J.:
The Defendant, Lonnie Lee Owens, was convicted
by a jury of second degree murder, abuse of a corpse,
and theft over $10,000. The trial court sentenced the
Defendant as a Range I, standard offender to twentyfive years for the murder, one year for the abuse of a
corpse, and four years for the theft. The trial court
ordered these sentences to be served consecutively in
the Department of Correction for an effective term of
thirty years. In this direct appeal, the Defendant
challenges the length of his sentence for the murder
and also challenges the trial court’s order that his
sentences be served consecutively. We reduce the
Defendant’s sentence for the second degree murder
conviction to twenty-four years. We further reverse
the trial court’s imposition of consecutive sentences.

App-125
The record before this Court does not contain a
transcript of the Defendant’s trial, but does contain a
transcript of the Defendant’s sentencing hearing,
including a copy of the Defendant’s presentence
report, which was made an exhibit to the hearing.
From the materials before us, we have gleaned that
the Defendant killed his estranged wife, Heather
Owens, in May 2003 when she came to his house to
pick up their two young children. The Defendant
struck the victim and then bound her with duct tape.
The Defendant wrapped duct tape over the victim’s
mouth and nose, such that she suffocated to death.
The couple’s children were in the house at the time of
the homicide. The Defendant subsequently buried the
victim’s body and disposed of her pick-up truck. The
Defendant’s girlfriend assisted in the disposal of the
victim’s truck.
At the sentencing hearing, the victim’s mother
and brother testified about the effects of the murder
on them, their family and the children. Judy Bolin, the
victim’s mother, testified that the Defendant
“can … be a good person at times, but just in a snap
he’s off like a rock. He’ll tell you off in a minute, and
he’ll do whatever he can to you to hurt you.” Ms. Bolin
also stated that the Defendant “controlled everything
[the victim] did,” including how she spent money and
where she spent her time. Ms. Bolin explained that the
Defendant murdered her daughter on Ms. Bolin’s
birthday, and that he knew he was doing so.
Doug Smith testified on behalf of the Defendant,
explaining that the Defendant was an employee of his
for seven or eight months. Mr. Smith described the
Defendant as a “good employee.” Barry Rhoads also

App-126
testified on behalf of the Defendant. Mr. Rhoads
explained that he is a minister as well as the owner of
an engineering consulting firm. Mr. Rhoads met the
Defendant and the victim in 1998 because they were
attending the church at which he was serving as copastor. The Defendant was actively involved in the
church, becoming a deacon and involving himself
“heavily” with the youth. Sometime in 2000, the victim
spoke to him about the marital troubles she and the
Defendant were experiencing. From that point until
late 2001 or early 2002, Mr. Rhoads’ contact with the
Defendant and his wife became infrequent. Later, he
saw the Defendant more frequently as he tried to help
the Defendant “work his way through separation and
then the divorce.”
Mr. Rhoads testified that he never knew the
Defendant to be mean, aggressive, controlling or
dishonest. After the victim disappeared, however, he
began to suspect that the Defendant might be
somehow involved. Eventually, the Defendant
confessed to him that he had killed his estranged wife.
In Mr. Rhoads’ opinion, the Defendant had repented
of his actions and “his confession and his asking for
forgiveness was as genuine as anybody else’s.” Mr.
Rhoads continued to minister to the Defendant after
his confinement and continued to consider the
Defendant a friend.
On cross-examination, Mr. Rhoads acknowledged
that the Defendant did not confess his crime until
after he realized the police were coming to arrest him.
The Defendant testified on his own behalf. He
stated that he met his wife, the victim, in 1996 when
he was twenty-seven and she was nineteen. They

App-127
married in July 1997 and had two children. During the
marriage he worked repairing heavy-duty equipment.
They separated in September 2002. He killed the
victim nine or ten months later. The Defendant stated
that, prior to the victim’s death, he never struck her or
threw anything at her.
During the separation, the Defendant began
keeping a detailed diary including notations on the
victim’s whereabouts. The Defendant stated that he
kept this diary because he was afraid of accusations
the victim was making. The beginning of the divorce
proceedings were “very hot,” he said, but settled down
after some time passed. However, the Defendant
began dating Kara Matthews in May 2003. After he
began seeing Ms. Matthews, he stated, he “started
receiving threats. There was vandalism to [his] house
and property.”
The Defendant maintained that he had not
planned to kill the victim. He stated that he “just
wish[ed] it never happened” and that, as a result, he
felt “like [his] whole inside has been ripped out.” He
testified, “I don’t know how to describe the emptiness
and the tore apart feelings that I have or how I could
ever repay. No way I would want to them [sic] to suffer
anything. I’m-I’m sorry from the bottom of my heart. I
just don’t know how to describe it.”
On
cross-examination,
the
Defendant
acknowledged that, a day or two after burying the
victim, he lied to the victim’s mother about her
whereabouts. The Defendant maintained that his own
family never inquired about where she was or what
had happened to her after her disappearance.
According to the Defendant, their children made no

App-128
inquiries for the two weeks before their mother’s body
was found.
The Defendant also admitted that, within an hour
of killing the victim, he called her cellphone and left a
message on it. He also admitted to leaving child
support checks for her after her death. He claimed,
however, that he took these actions not to deceive the
police but because he “didn’t know what to do.” He
admitted to having gotten rid of the victim’s vehicle
after killing her. He admitted to getting rid of her body
after killing her. He admitted to having involved Ms.
Matthews in disposing of the victim’s truck.
After hearing the above testimony, the trial court
issued its ruling from the bench. The trial court noted
that the Defendant was being sentenced as a Range I,
standard offender and that the presumptive sentence
for the Defendant’s second degree murder conviction
was twenty years. As a mitigating factor, the trial
court found that the Defendant had no prior criminal
history. The trial court then applied two enhancement
factors: (1) the Defendant treated the victim with
exceptional cruelty in the commission of the offense,
and (2) the personal injuries inflicted on the victim
during the commission of the offense were particularly
great. Weighing the single mitigating factor against
the two enhancement factors, the trial court found
that the maximum sentence of twenty-five years was
the appropriate sentence for the second degree murder
conviction.
The trial court found no enhancement factors
applicable to the abuse of a corpse offense and imposed
the minimum sentence of one year for that conviction.

App-129
With respect to the theft offense, the trial court
applied as a single enhancement factor that the
Defendant was the leader in the commission of that
crime. Accordingly, the trial court imposed a sentence
of four years for that offense, out of a possible range of
three to six years.
The trial court then determined that the
sentences should all run consecutively to one another
on the basis that the Defendant is a “dangerous
offender.”
The Defendant now appeals the trial court’s
ruling on his sentences. Specifically, the Defendant
contends that the trial court erred in applying the two
enhancement factors to his murder conviction; did not
apply sufficient weight to mitigating factors; and
erroneously ordered his sentences to be served
consecutively. The State concedes that the trial court
erred in applying one of the enhancement factors to
the murder conviction but argues that the overall
effective sentence of thirty years should be affirmed.
STANDARD OF REVIEW
Before a trial court imposes a sentence upon a
convicted criminal defendant, it must consider (a) the
evidence adduced at the trial and the sentencing
hearing; (b) the presentence report; (c) the principles
of sentencing and arguments as to sentencing
alternatives; (d) the nature and characteristics of the
criminal conduct involved; (e) evidence and
information offered by the parties on the enhancement
and mitigating factors set forth in Tennessee Code
Annotated sections 40-35-113 and 40-35-114; and
(f) any statement the defendant wishes to make in the
defendant’s own behalf about sentencing. See

App-130
Tenn.Code Ann. § 40-35-210(b); State v. Imfeld, 70
S.W.3d 698, 704 (Tenn.2002). To facilitate appellate
review, the trial court is required to place on the
record its reasons for imposing the specific sentence,
including the identification of the mitigating and
enhancement factors found, the specific facts
supporting each enhancement factor found, and the
method by which the mitigating and enhancement
factors have been evaluated and balanced in
determining the sentence. See State v. Samuels, 44
S.W.3d 489, 492 (Tenn.2001).
Upon a challenge to the sentence imposed, this
court has a duty to conduct a de novo review of the
sentence with a presumption that the determinations
made by the trial court are correct. See Tenn.Code
Ann. § 40-35-401(d). However, this presumption “is
conditioned upon the affirmative showing in the
record that the trial court considered the sentencing
principles and all relevant facts and circumstances.”
State v. Ashby, 823 S.W.2d 166, 169 (Tenn.1991). If
our review reflects that the trial court followed the
statutory sentencing procedure, that the court
imposed a lawful sentence after having given due
consideration and proper weight to the factors and
principles set out under the sentencing law, and that
the trial court’s findings of fact are adequately
supported by the record, then the presumption is
applicable, and we may not modify the sentence even
if we would have preferred a different result. See State
v.
Fletcher,
805
S.W.2d
785,
789
(Tenn.Crim.App.1991). We will uphold the sentence
imposed by the trial court if (1) the sentence complies
with the purposes and principles of the 1989
Sentencing Act, and (2) the trial court’s findings are

App-131
adequately supported by the record. See State v.
Arnett, 49 S.W.3d 250, 257 (Tenn.2001). The burden of
showing that a sentence is improper is upon the
appealing party. See Tenn.Code Ann. § 40-35-401
Sentencing Commission Comments; Arnett, 49 S.W.3d
at 257.
LENGTH OF INDIVIDUAL SENTENCES
The Defendant does not challenge the minimum
sentence imposed for his abuse of a corpse conviction.
Accordingly, we need not address that sentence. As to
his other two sentences, the Defendant identifies as
issue number two in his initial appellate brief that the
trial court “erred in sentencing the Defendant to the
maximum sentence in the range for second degree
murder and theft of property .” In fact, the trial court
did not sentence the Defendant to the maximum for
his theft offense. The Defendant’s theft conviction is a
Class C felony. See Tenn.Code Ann. § 39-14-105(4). As
a Range I, standard offender, the Defendant faced a
sentencing range of three to six years for that offense.
See id. § 40-35-112(a)(3). The presumptive Range I
sentence for a Class C felony is three years. See id.
§ 40-35-210(c). The trial court increased the
Defendant’s presumptive sentence for that crime by
only one year, based on the enhancement factor for
being a leader in the commission of the offense. See id.
§ 40-35-114(3). The Defendant tacitly admitted during
the sentencing hearing that Ms. Matthews took
direction from him in conjunction with their joint
effort to dispose of the victim’s truck. The Defendant
offers no argument in either his initial appellate brief
or his reply brief that the trial court erred in applying
this enhancement factor. Accordingly, this issue is

App-132
waived.
See
Tenn.
Ct.Crim.App.
R. 10(b).
Furthermore, we see no error by the trial court in its
application of this enhancement factor to the theft
offense. Therefore, the Defendant has failed to
establish that he is entitled to any reduction in his
sentence for the theft offense.
We turn now to the Defendant’s sentence for his
murder of the victim. Second degree murder is a Class
A felony. See Tenn.Code Ann. § 39-13-210(b). The
Defendant is a Range I, standard offender. The Range
I sentencing range for a Class A felony is fifteen to
twenty-five years. See id. § 40-35-112(a)(1). The
presumptive sentence for a Class A felony is midpoint
in the range, see id. § 40-35-210(c), or twenty years in
this instance. “Should there be enhancement and
mitigating factors for a Class A felony, the court must
start at the midpoint of the range, enhance the
sentence within the range as appropriate for the
enhancement factors, and then reduce the sentence
within the range as appropriate for the mitigating
factors.” Id. § 40-35-210(e).
The trial court enhanced the Defendant’s
sentence for his second degree murder conviction on
the basis that the Defendant “treated … a
victim … with exceptional cruelty during the
commission of the offense” and that “[t]he personal
injuries
inflicted
upon … the
victim
w[ere]
particularly great.” Id. § 40-35-114(6), (7). The State
concedes in its appellate brief that the trial court erred
in applying factor (7) because the personal injuries
inflicted in every homicide are “particularly great” and
this factor is therefore an essential element of the
offense such that it may not be applied to enhance the

App-133
Defendant’s sentence. See id. § 40-35-114; State v.
Williamson, 919 S.W.2d 69, 82 (Tenn.Crim.App.1995).
Accordingly, the trial court should not have enhanced
the Defendant’s sentence for the second degree
murder on this basis.
We find no error, however, in the trial court’s
application of enhancement factor (6). Although we do
not have any medical testimony about the victim’s
death in the record before us, the trial court did make
a finding for the record during the sentencing hearing
that “this was a death by strangulation where the lady
was duct taped.” The Defendant admitted that he
assaulted the victim in his house while their children
were close by. The presentence report admitted into
evidence at the sentencing hearing without objection
sets forth in part that the Defendant
used duct tape to tape the victim’s legs
together and her hands behind her back. He
then taped her face from the chin to just
under her eyes covering her mouth and
nose…. Dr. Charles Harlan noted in the
autopsy report that … [h]e … found traces of
duct tape in the victim’s lung. Dr. Harlan
concluded that the victim’s death was caused
by suffocation as a result of having her mouth
and nose covered with duct tape.
The Defendant does not contest these facts but
contends that the method by which he killed the victim
did not involve abuse or torture and that this
enhancement factor is therefore inapplicable.
The use of exceptional cruelty in the killing of the
victim is not an element of second degree murder and
may therefore, where appropriate, be considered as an

App-134
enhancement factor. See State v. Gray, 960 S.W.2d
598, 611 (Tenn.Crim.App.1997). The proper
application of this factor in a murder case requires
evidence that denotes the infliction of pain or suffering
for its own sake or from the gratification derived
therefrom, and not merely the pain or suffering
inflicted as the means of accomplishing the murder.
See Arnett, 49 S.W.3d at 258. Our supreme court has
recognized that this enhancement factor may be
applicable where there is proof of extensive
psychological abuse or torture. See id. at 259. For
example, the application of this enhancement factor to
an especially aggravated robbery conviction has been
upheld where the defendant executed two persons by
gunshots after having forced them onto the floor of a
walk-in cooler. See State v. Reid, 91 S.W.3d 247, app.
311 (Tenn.2002) (finding that the defendant
committed the especially aggravated robbery with
exceptional
cruelty
because
“[t]he
anguish
experienced by the victims at this point [in the cooler]
while they awaited their execution is unfathomable”).
In upholding the application of this enhancement
factor in the Reid case, this Court also noted the
defendant’s “calculated indifference toward suffering.”
Id.
We think the facts support the application of this
enhancement factor to the means by which the
Defendant killed his estranged wife. The record before
us indicates that the Defendant bound the victim’s
hands and feet and then covered her mouth and nose
with duct tape. The Defendant committed these
actions while the victim was in his house and while

App-135
her children were mere feet away. 1 The autopsy of the
victim revealed traces of duct tape in one of the
victim’s lungs: indicating how desperately she tried to
continue breathing. After the victim was dead, the
Defendant took her body to an island in Tims Ford
Lake and buried it in a shallow grave. He then
returned to his house and had sex with his girlfriend. 2
These facts indicate that this Defendant treated the
victim with a calculated indifference to her suffering
and that he achieved some form of gratification from
murdering his wife. These facts also establish that the
victim tried desperately to continue breathing but
eventually suffocated to death. We have no trouble
concluding that the victim’s suffering while she
struggled to live was “unfathomable” and was the
direct result of the method used by the Defendant to
accomplish the killing. As noted by Judge Scott, “If
strangulation, with the victim vigorously fighting for
another breath, is not exceptional cruelty, I don’t know
what is.” State v. Bobby Lee Knight, No. 87-234-III,
1989 WL 24436, at *4 (Tenn.Crim.App., at Nashville,
Mar. 21, 1989) (Scott, J., dissenting). The Defendant’s
assertion that the trial court erred in applying this
enhancement factor to his conviction for second degree
murder is without merit.
The Defendant also argues that the trial court
erred in applying enhancement factors to his sentence
on the basis of the United States Supreme Court’s
1

The Defendant testified during the sentencing hearing that
the children were 30 to 40 feet away when he killed the victim.
2

The presentence report includes these circumstances of the
offense in the section titled “Official Version.”

App-136
decision in Blakely v. Washington, 542 U.S. 296, 124
S.Ct. 2531, 159 L.Ed.2d 403 (2004). The Blakely
decision holds that the Sixth Amendment to the
federal Constitution permits a defendant’s sentence to
be increased only if the enhancement factors relied
upon by the judge are based on facts reflected in the
jury verdict or admitted by the defendant. See id., 124
S.Ct. at 2537. The only basis upon which enhancement
is otherwise permitted is the defendant’s previous
criminal history: where the defendant has prior
convictions, the trial court may enhance the
defendant’s sentence without an admission or jury
finding. See Apprendi v. New Jersey, 530 U.S. 466,
490, 120 S.Ct. 2348, 147 L.Ed.2d 435 (2000); Blakely
at 2536. Subsequent to the Defendant’s appeal of this
case, the Tennessee Supreme Court considered the
impact of Blakely on Tennessee’s sentencing scheme
and concluded that the Criminal Sentencing Reform
Act of 1989, pursuant to which the Defendant was
sentenced, does not violate a defendant’s Sixth
Amendment rights. See State v. Gomez, 163 S.W.3d
632, 661 (Tenn.2005). Accordingly, the Defendant’s
argument on this basis has no merit.
The Defendant also complains that the trial court
did not recognize and/or accord sufficient weight to
several mitigating factors. 3 The Defendant asserts in
3

The State argues in its appellate brief that the Defendant has
waived this issue because his lawyer specifically mentioned only
the lack of the Defendant’s criminal record as a mitigating factor
during closing remarks at the sentencing hearing. However,
defense counsel had filed a comprehensive listing of mitigating
factors for the trial court’s consideration prior to the hearing.
Moreover, proof of the Defendant’s work history and church

App-137
his initial appellate brief that, in addition to having no
criminal record, he “had a great amount of family
support, had a good, honest and steady work record,
and was a church and community leader.” 4 He further
states that “had these factors been properly
considered, the sentence calculation would have
been … at the lower end of the range.”
In imposing the twenty-five year term for the
Defendant’s second degree murder offense, the trial
court recognized the Defendant’s lack of a criminal
history as a mitigating factor but determined that it
entitled the Defendant to no downward movement “at
all” in the sentencing range. As this Court has
previously recognized, “[p]rovided the trial court
complies with the purposes and principles of the
Criminal Sentencing Reform Act of 1989 and its
findings are adequately supported by the record, the
weight afforded to enhancement and mitigating
factors is left to the trial court’s discretion.” State v.
Souder, 105 S.W.3d 602, 606 (Tenn.Crim.App.2002).
We find no abuse of discretion by the trial court in
refusing to reduce the Defendant’s sentence on this
basis. Nor do we find any abuse of discretion by the
trial court in failing to recognize or weigh the
additional mitigating factors urged by the Defendant.
The Defendant murdered his wife. He did so by a
activities was adduced at the hearing. We will, accordingly,
address this issue on the merits.
4

These circumstances are not specifically codified as
mitigating factors in our Criminal Sentencing Reform Act of
1989, but may be considered as such if the trial court determines
them to be appropriate for the offense and “consistent with the
purposes of” the Act. See Tenn.Code Ann. § 40-35-113(13).

App-138
process that was most certainly agonizing to the
victim. He did so while his children were in the house
with him and the victim. The Defendant’s past good
deeds and alleged family support 5 simply do not
entitle him to a sentencing benefit under the facts and
circumstances of this case. This issue is without merit.
Given our determination that the trial court
properly applied only one enhancement factor to the
Defendant’s sentence for his second degree murder
conviction, we must modify the Defendant’s sentence
for that crime to twenty-four years.
CONSECUTIVE SENTENCES
We turn now to the Defendant’s contentions
regarding the trial court’s order that he serve his
sentences consecutively. A trial court may order a
convicted defendant to serve his or her sentences
consecutively upon finding by a preponderance of the
evidence that the defendant “is a dangerous offender
whose behavior indicates little or no regard for human
life, and no hesitation about committing a crime in
which the risk to human life is high.” Tenn.Code Ann.
§ 40-35-115(b) (4). However, before imposing
consecutive sentences upon this basis, the trial court
must further find that “the terms imposed are
reasonably related to the severity of the offenses
committed and are necessary in order to protect the
public from further criminal acts by the offender.”
State v. Wilkerson, 905 S.W.2d 933, 938 (Tenn.1995).

5 The record contains no testimonials by the Defendant’s family

members as to the level of support they are allegedly willing to
provide him.

App-139
In this case, the trial court found that, based upon
the Defendant’s murder of the victim, he is a
dangerous offender. The trial court further found that
the effective term of thirty years was reasonably
related to the severity of the Defendant’s crimes. As to
the requirement that consecutive service is necessary
to protect the public from further offenses by the
Defendant, the trial court told the Defendant that
“notwithstanding your testimony about remorse and
your apology to this Court I was convinced from your
testimony that everything you said was self serving
and done to protect you and that you’ll continue to
protect your own interest.” This finding by the trial
court was consistent with its earlier general finding
that the Defendant’s testimony during his sentencing
hearing was not credible but, rather, “totally self
serving.” Accordingly, the trial court determined that
the public needed protection from the Defendant,
apparently on the basis that the Defendant’s
willingness to testify in a self serving as opposed to a
truthful manner indicated that the Defendant would
also be willing to engage in further criminal acts if
necessary to protect himself in some regard.
We are constrained to respectfully disagree with
the trial court on this point. The Defendant has no
previous history of serious criminal offenses. The
instant crimes were committed against the
Defendant’s estranged wife during the pendency of
divorce proceedings. According to the Defendant’s
testimony, these proceedings had been heated and
hostile, at least sporadically. The Defendant had
begun dating someone prior to the divorce becoming
final. The Defendant committed the murder shortly
after his new romantic relationship began and after

App-140
the victim was allegedly threatening him. These
circumstances point not to an existing or future
pattern of criminal behavior during which the general
public is put at risk, but rather to an isolated event
occurring in the midst of domestic difficulties. We do
not imply that this violent murder is not deserving of
harsh punishment. However, a single episode of
criminal violence directed at a family member during
a time of strife does not indicate, in and of itself, a
propensity to commit future violent acts so as to
establish that the public needs protection from
“further criminal acts” by the offender. In short, we
conclude that the proof in this case is not sufficient to
establish that consecutive sentences are necessary to
protect the public from further criminal conduct by the
Defendant, as required by the Wilkerson decision. See
905 S.W.2d at 938. Accordingly, we have no choice but
to overturn the trial court’s imposition of consecutive
sentences on the basis that the Defendant is a
“dangerous offender.”
CONCLUSION
The trial court erred when it enhanced the
Defendant’s sentence for the second degree murder
conviction on the basis that the murder involved
particularly great personal injuries. We have
therefore reduced the Defendant’s sentence for this
conviction from twenty-five years to twenty-four
years. We have further determined that the trial court
erred when it ordered the Defendant’s sentences to be
served consecutively. Accordingly, we reverse that
portion of the trial court’s judgments and remand this
matter such that the judgments against the
Defendant may be corrected to reflect the modification

App-141
of his second degree murder sentence and that his
sentences are to be served concurrently. In all other
respects, we affirm the judgments of the trial court.

App-142
Appendix E
IN THE TWELFTH JUDICIAL DISTRICT OF
TENNESSEE
________________
No. 15356
________________
STATE OF TENNESSEE,
v.
LONNIE LEE OWENS.
________________
Dated: February 1, 2005
________________
SENTENCING TRANSCRIPT
THE COURT: [77]

***

I am going to find however that in this record
there are two enhancement factors. I’m going to find
that you did, in fact, treat the victim with exceptional
[78] cruelty and that personal injuries were inflicted
upon the victim.
Now I’m not unmindful that there is case law that
says as pointed out by your attorney that a homicide,
a second degree murder case, you don’t apply those
two factors, but I think factually there is a distinction
here. I think we have an individual that based on the
proof that was presented in the trial—at the trial was
duct taped while alive, and was allowed to suffocate
and die, and I think that, in fact, fits the statutory
definition of both inflicting personal—personal
injuries and exceptional cruelty, and because of that
factual basis I make that finding.

App-143
When I weigh the en—the two enhancement
factors against the mitigating factor I don’t think
there’s any comparison. There’s no movement at all
the—the sentence that the Court has impose in my
judgment based on those—those two factors is a
sentence of 25 years.
***

App-144
Appendix F
RELEVANT TENNESSEE STATUTES
(EFFECTIVE 2003)
Tenn. Code. Ann. § 39-13-202
First degree murder
(a) First degree murder is:
(1) A premeditated and intentional killing of
another;
(2) A killing of another committed in the
perpetration of or attempt to perpetrate any
first degree murder, act of terrorism, arson,
rape, robbery, burglary, theft, kidnapping,
aggravated child abuse, aggravated child
neglect or aircraft piracy; or
(3) A killing of another committed as the
result of the unlawful throwing, placing or
discharging of a destructive device or bomb.
(b) No culpable mental state is required for
conviction under subdivision (a)(2) or (a)(3) except
the intent to commit the enumerated offenses or
acts in such subdivisions.
(c) A person convicted of first degree murder
shall be punished by:
(1) Death;
(2) Imprisonment for life without possibility
of parole; or
(3) Imprisonment for life.
(d) As used in subdivision (a)(1) “premeditation”
is an act done after the exercise of reflection and
judgment. “Premeditation” means that the intent
to kill must have been formed prior to the act

App-145
itself. It is not necessary that the purpose to kill
pre-exist in the mind of the accused for any
definite period of time. The mental state of the
accused at the time the accused allegedly decided
to kill must be carefully considered in order to
determine whether the accused was sufficiently
free from excitement and passion as to be capable
of premeditation.
Tenn. Code. Ann. § 39-13-210
Second degree murder
(a) Second degree murder is:
(1) A knowing killing of another; or
(2) A killing of another which results from
the unlawful distribution of any Schedule I or
Schedule II drug when such drug is the
proximate cause of the death of the user.
(b) Second degree murder is a Class A felony.
Tenn. Code. Ann. § 40-35-114
Enhancement factors
If appropriate for the offense, enhancement
factors, if not themselves essential elements of the
offense as charged in the indictment, may include:
(1) The offense was an act of terrorism, or was
related to an act of terrorism;
(2) The defendant has a previous history of
criminal convictions or criminal behavior in
addition to those necessary to establish the
appropriate range;
(3) The defendant was a leader in the
commission of an offense involving two (2) or more
criminal actors;

App-146
(4) The offense involved more than one (1) victim;
(5) A victim of the offense was particularly
vulnerable because of age or physical or mental
disability, including, but not limited to, a
situation where the defendant delivered or sold a
controlled substance to a minor within one
thousand feet (1,000’) of a public playground,
public swimming pool, youth center, video arcade,
low income housing project, or church;
(6) The defendant treated or allowed a victim to
be treated with exceptional cruelty during the
commission of the offense;
(7) The personal injuries inflicted upon or the
amount of damage to property sustained by or
taken from the victim was particularly great;
(8) The offense involved a victim and was
committed to gratify the defendant’s desire for
pleasure or excitement;
(9) The defendant has a previous history of
unwillingness to comply with the conditions of a
sentence involving release in the community;
(10) The defendant possessed or employed a
firearm, explosive device or other deadly weapon
during the commission of the offense;
(11) The defendant had no hesitation about
committing a crime when the risk to human life
was high;
(12) The felony resulted in death or bodily injury
or involved the threat of death or bodily injury to
another person and the defendant has previously
been convicted of a felony that resulted in death
or bodily injury;

App-147
(13) During the commission of the felony, the
defendant willfully inflicted bodily injury upon
another person, or the actions of the defendant
resulted in the death of or serious bodily injury to
a victim or a person other than the intended
victim;
(14) The felony was committed while on any of the
following forms of release status if such release is
from a prior felony conviction:
(A) Bail, if the defendant is ultimately
convicted of such prior felony;
(B) Parole;
(C) Probation;
(D) Work release; or
(E) Any other type of release into the
community under the direct or indirect
supervision of the department of correction or
local governmental authority;
(15) The felony was committed on escape status
or while incarcerated for a felony conviction;
(16) The defendant abused a position of public or
private trust, or used a special skill in a manner
that significantly facilitated the commission or
the fulfillment of the offense;
(17) The
crime
was
committed
under
circumstances under which the potential for
bodily injury to a victim was great;
(18) The defendant committed the offense while
on school property;

App-148
(19) A victim, under § 39-15-402, suffered
permanent impairment of either physical or
mental functions as a result of the abuse inflicted;
(20) If the lack of immediate medical treatment
would have probably resulted in the death of the
victim under § 39-15-402;
(21) The defendant was adjudicated to have
committed a delinquent act or acts as a juvenile
that would constitute a felony if committed by an
adult;
(22) The defendant, who was provided with courtappointed counsel, willfully failed to pay the
administrative fee assessed pursuant to § 40-14103(b)(1); or
(23) The defendant intentionally selects the
person against whom the crime is committed or
selects the property that is damaged or otherwise
affected by the crime in whole or in part because
of the actor's belief or perception regarding the
race, religion, color, disability, sexual orientation,
national origin, ancestry or gender of that person
or of the owner or occupant of that property.
However, this subsection should not be construed
so as to permit the enhancement of a sexual
offense on the basis of gender selection alone.
Tenn. Code. Ann. § 40-35-210
Imposition of sentence; evidence;
presumptive sentences
(a) At the conclusion of the sentencing hearing,
the court shall first determine the appropriate
range of sentence.

App-149
(b) To determine the specific sentence and the
appropriate
combination
of
sentencing
alternatives that shall be imposed on the
defendant, the court shall consider the following:
(1) The evidence, if any, received at the trial
and the sentencing hearing;
(2) The presentence report;
(3) The principles of sentencing and
arguments as to sentencing alternatives;
(4) The nature and characteristics of the
criminal conduct involved;
(5) Evidence and information offered by the
parties on the enhancement and mitigating
factors in §§ 40-35-113 and 40-35-114; and
(6) Any statement the defendant wishes to
make in the defendant’s own behalf about
sentencing.
(c) The presumptive sentence for a Class B, C, D
and E felony shall be the minimum sentence in
the range if there are no enhancement or
mitigating factors. The presumptive sentence for
a Class A felony shall be the midpoint of the range
if there are no enhancement or mitigating factors.
(d) Should there be enhancement but no
mitigating factors for a Class B, C, D or E felony,
then the court may set the sentence above the
minimum in that range but still within the range.
Should there be enhancement but no mitigating
factors for a Class A felony, then the court shall
set the sentence at or above the midpoint of the
range. Should there be mitigating but no
enhancement factors for a Class A felony, then the

App-150
court shall set the sentence at or below the
midpoint of the range.
(e) Should there be enhancement and mitigating
factors for a Class B, C, D or E felony, the court
must start at the minimum sentence in the range,
enhance the sentence within the range as
appropriate for the enhancement factors, then
reduce the sentence within the range as
appropriate for the mitigating factors. Should
there be enhancement and mitigating factors for
a Class A felony, the court must start at the
midpoint of the range, enhance the sentence
within the range as appropriate for the
enhancement factors, and then reduce the
sentence within the range as appropriate for the
mitigating factors.
(f) Whenever the court imposes a sentence, it
shall place on the record either orally or in writing
what enhancement or mitigating factors it found,
if any, as well as findings of fact as required by
§ 40-35-209.
(g) A sentence must be based on evidence in the
record of the trial, the sentencing hearing, the
presentence report, and, the record of prior felony
convictions filed by the district attorney general
with the court as required by § 40-35-202(a).
(h)(1) Upon sentencing a defendant to the
department of correction or to a local jail or
workhouse for a period of more than two (2)
years, the judge shall announce in open court
that information explaining the sentence just
imposed is available to anyone upon request.
The information explaining the sentence

App-151
shall consist of a copy of the completed
uniform judgment document required by Rule
17 of the Rules of the Supreme Court and
§ 40-35-209(e),
and
an
accompanying
document that shall contain the following
information:
(A) A statement explaining that an
estimate of the number of years of a
felony sentence that a defendant is
required to serve before being first
eligible for release on parole can be
calculated
by
determining
the
defendant’s range and release eligibility
percentage and then applying that
percentage to the defendant’s sentence.
An example is a defendant sentenced to
ten (10) years in the department of
correction as a persistent range III
offender with a release eligibility
percentage of 45%. That means the
defendant must serve forty-five percent
(45%) of ten (10) years or four and a half
(4 1/2) years before being first eligible for
release on parole. This four and a half
(4 1/2) year minimum length of sentence
service does not include a defendant’s
sentence reduction credits or the possible
effect of prison overcrowding which are
discussed in subdivisions (h)(1)(C) and
(h)(1)(E), respectively;
(B) A statement that whether a
defendant is actually released from
incarceration on the date when such

App-152
defendant is first eligible for release is a
discretionary decision made by the board
of probation and parole based upon many
factors and that such board has the
authority to require the defendant to
serve the entire sentence imposed by the
court;
(C) A statement that pursuant to § 4121-236, a defendant, after incarceration,
may earn sentence reduction credits of up
to eight (8) days per month for good
institutional behavior and up to eight (8)
days per month for satisfactory program
performance for a maximum total of
sixteen (16) days per month;
(D) A statement that the actual number
of such reduction credits for good
behavior and program performance that
a defendant earns depends upon the
defendant’s conduct while incarcerated
and that the department may remove
sentence credits previously awarded for
certain disciplinary infractions; and
(E) A statement that during certain
specified times of prison overcrowding
the governor may, pursuant to § 41-1504, direct the board of probation and
parole to grant early parole to a sufficient
number of certain types of inmates to
reduce the overcrowding.
(2) The failure of a judge to provide the sentence
explanation information upon request as required
by this subsection or the fact that the sentence

App-153
explanation information provided may be
inaccurate, incomplete or erroneous shall not be
used by a defendant in a criminal case as a ground
for appeal, new trial, post-conviction relief or
habeas corpus, nor shall it be construed to set
aside, reverse, vacate, or void a finding of guilt, an
acceptance of a plea of guilty or the sentence
imposed in any criminal case.

